<html>
<title> - VALLES CALDERA</title>
<body><pre>[Senate Hearing 111-753]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-753

                             VALLES CALDERA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   TO

 RECEIVE TESTIMONY ON S. 3452, A BILL TO DESIGNATE THE VALLES CALDERA 
NATIONAL PRESERVE AS A UNIT OF THE NATIONAL PARK SYSTEM, AND FOR OTHER 
                                PURPOSES

                               __________

                             JUNE 30, 2010



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                       Printed for the use of the
               Committee on Energy and Natural Resources




                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  62-704 PDF               WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86e1f6e9c6e5f3f5f2eee3eaf6a8e5e9eba8">[email&#160;protected]</a>  




               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel








                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Dasheno, Hon. Walter, Governor, Pueblo of Santa Clara, Espanola, 
  NM.............................................................    22
Henry, Stephen E., Chairman, Board of Trustees, Valles Caldera 
  Trust..........................................................     4
Madalena, Hon. Joshua, Governor, Pueblo of Jemez, Jemez Pueblo, 
  NM.............................................................    17
Sherman, Harris, Under Secretary, Natural Resources and 
  Environment, Department of Agriculture.........................     6
Udall, Hon. Tom, U.S. Senator From New Mexico....................    35
Vesbach, Jeremy, Executive Director, New Mexico Wildlife 
  Federation, Albuquerque, NM....................................    28
Wenk, Daniel N., Deputy Director, National Park Service, 
  Department of the Interior.....................................    11
Wismer, Michael E., Chairman, Los Alamos County Council, Los 
  Alamos, NM.....................................................    32

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    45

                              Appendix II

Additional material submitted for the record.....................    53

 
                             VALLES CALDERA

                              ----------                              


                        WEDNESDAY, JUNE 30, 2010

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:32 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why do we not get started with the hearing?
    The purpose of the afternoon hearing is to receive 
testimony on S. 3452. This is legislation that I introduced, 
along with Senator Udall as cosponsor, to transfer 
administrative jurisdiction over the Valles Caldera National 
Preserve in New Mexico to the National Park Service.
    The Valles Caldera is what is left of a tremendous volcanic 
explosion that occurred over a million years ago. The eruption 
left a caldera rim that surrounds more than 100,000 acres of 
high altitude lands in northern New Mexico. Today the area 
includes forested mountains, streams, and wetlands, expansive 
grassland valleys, including the scenic Valle Grande.
    The caldera also has a rich cultural history, some of which 
we will hear about today from witnesses from the pueblos of 
Jemez and Santa Clara, whose people remain strongly tied to the 
land.
    The issue of how to best protect the Valles Caldera has 
been an issue of longstanding interest with the first calls to 
preserve the area beginning over 100 years ago. After many 
decades of effort by the Federal Government to acquire the 
property, the family that owned the Baca Ranch, which 
encompassed most of the caldera, indicated a willingness to 
sell the property 10 years ago. Working with Senator Domenici 
and the Clinton administration, we were able to pass the Valles 
Caldera Preservation Act in 2000. This act authorized the 
Federal Government to acquire the ranch and establish the 
Valles Caldera National Preserve. The ranch was subsequently 
acquired for approximately $100 million.
    The law establishing the national preserve also established 
the Valles Caldera Trust, an experimental management framework 
under which a Presidentially appointed board of trustees would 
manage the preserve for a period of 20 years. The trust was 
directed to manage the preserve as a working ranch while 
providing for public access and protection of the preserve's 
natural and cultural resources and with the goal of becoming 
financially self-sustaining by 2015.
    I believe there is now general agreement that the trust 
will not be able to meet the law's goal of managing the 
preserve while achieving financial self-sufficiency. In 
addition, the current management structure has resulted in 
concerns about limited public access and relatively high fees 
imposed on recreational activities, especially when compared 
with recreational opportunities on nearby Federal lands.
    In my opinion, the most effective way to address the 
challenges facing the Valles Caldera National Preserve is to 
move away from the experimental management framework and toward 
a more tested public lands management structure. In my view, 
the agency that can best achieve that mission of protecting the 
preserve's natural and cultural resources while providing for 
improved educational and recreational opportunities and 
ensuring the long-term financial success of the preserve is the 
National Park Service. The Park Service has a strong record of 
managing our Nation's national treasures, and by all accounts, 
the Valles Caldera meets the high standards for inclusion in 
the National Park System.
    I would like to emphasize that this proposal to transfer 
management of the preserve to the National Park Service is not 
meant as a criticism of the dedicated members of the Valles 
Caldera Trust and the preserve's staff. There are many 
achievements that they are rightly proud of, not least of which 
is the trust's highly successful science and education program. 
The bill that Senator Udall and I have introduced will allow 
for the best management practices of the trust to be carried 
forward under the management of the National Park Service.
    I believe there is strong public support for National Park 
Service management of the Valles Caldera, and the inclusion of 
the preserve in the National Park System will ensure that the 
area is appropriately protected and also that more Americans 
will have the ability to enjoy this spectacular area.
    Before we begin this afternoon, of course, I will call on 
Senator Wyden if he has any comments.
    I have a statement I wanted to put in the record in its 
entirety. It is a written statement Senator Murkowski asked be 
included in the record. She was not able to be here.
    [The prepared statement of Senator Murkowski follows:]
  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska
    I want thank Chairman Bingaman for scheduling this hearing.
    In 2000 this Committee marked up and then the Senate passed the 
Valles Caldera Preservation Trust Act. The Federal government expended 
$100 million to acquire the Baca Ranch in New Mexico and to embark of a 
federal land experiment called a Public-Private Trust not unlike the 
Presido Preservation Trust in California.
    The Valles Caldera Trust was designed to maintain the Baca Ranch as 
a working ranch; to protect the wildlife and natural beauty of the 
area; and the historic nature of the Preserve. Congress put the 
preserve in the hands of a board of directors who were to manage the 
area with assistance from the Santa Fe National Forest. It was hoped 
that the operation would become economically self-sufficient within 20 
years and if it did not the property would revert to the Santa Fe 
National Forest.
    Now both Chairman Bingaman and Senator Tom Udall have proposed to 
terminate the experiment and to turn the 89,000 acres over to the 
National Park Service. I appreciate the long standing tradition in this 
body of allowing the delegation from a state to take the lead on 
federal land designations within their state. As I know the Chairman 
does. Just as I believe the Alaska delegation knows what is best for 
federal lands in Alaska, I tend to believe that the New Mexico 
delegation knows what is best for these lands.
    However, I believe this hearing is important, as the Federal 
Government paid $100 million for this property a little more than a 
decade ago and we all have a duty to vigilantly protect taxpayer 
resources, both existing and future.
    I must admit that when I see the types of visitor centers and 
facilities at most National Park properties, and knowing the budget 
stresses the Park Service has been under, I do worry about how much 
Park Service oversight of the Valles Caldera Preserve might cost. In 
the end though, we must balance the costs and benefits of all of the 
various administrative structures that are before us in making this 
decision.
    Mr. Chairman that completes my testimony and I look forward to the 
rest of the hearing.

    The Chairman. But I also want to express my appreciation to 
all of our witnesses for their accommodation of the hearing 
being rescheduled twice, including the last-minute change that 
we made just yesterday. Unfortunately, 2 of the invited 
witnesses for the hearing were unable to testify at this new 
time this afternoon, and we have received written statements 
from Governor Martinez, the Pueblo of San Ildefonso, and from 
Barbara Johnson on behalf of Los Amigos de Valles Caldera. 
Without objection, those statements will be included in the 
hearing record as well.
    We also received a letter from New Mexico Governor Bill 
Richardson in support of the legislation, which will be 
included in the hearing record.
    I would like to conclude my brief observations by saying 
that everyone who has ever been to the Valles Caldera agrees 
that it is a magnificent natural, cultural, and recreational 
resource.
    I know this bill has presented a challenge for the Federal 
agencies who are here today in coordinating their 
recommendations. I hope that this does not end up as a turf 
battle between agencies. From my perspective, the only issue is 
what is the best way to protect the $100 million investment and 
the enormous natural and cultural resources that are 
represented here.
    Senator Wyden, did you wish to make any statement?
    Senator Wyden. No, Mr. Chairman.
    The Chairman. Why do I not call the first panel forward? It 
is made up of administration witnesses: Daniel Wenk, who is the 
Deputy Director with the National Park Service; the Honorable 
Harris Sherman, who is Under Secretary for Natural Resources 
and Environment with the Department of Agriculture; and also 
Stephen Henry, who is Chair of the Valles Caldera Trust. We 
very much appreciate all of you being here.
    Our normal practice is to ask--first, we will include all 
of your written statements in the record in full, but we would 
ask if each of you would take 5 or 6 minutes and summarize the 
points that you think we need to particularly understand so 
that we will still have some time for questions.
    Why do we not start with you, Mr. Henry, and then Mr. 
Sherman and then Mr. Wenk?

  STATEMENT OF STEPHEN E. HENRY, CHAIRMAN, BOARD OF TRUSTEES, 
                      VALLES CALDERA TRUST

    Mr. Henry. Thank you very much for the opportunity to be 
here and discuss some of the thoughts of the board of trustees, 
the Presidentially appointed board of trustees.
    If I could right quick, I would like to introduce the 
people that I brought with me here today.
    The Chairman. Please do.
    Mr. Henry. Dr. Raymond Loretto sits on the board with me as 
a Presidential appointee. Mr. Gary Bratcher is the Executive 
Director of the preserve. Mr. Dennis Trujillo is the preserve 
manager of the preserve and has been there since its inception 
almost.
    Mr. Chairman, there is no sense in me talking about the 
beauty and the splendor of the Valles Caldera National 
Preserve. You have been there. We have been there. We know that 
it is beautiful and that it has some fantastic treasures there.
    We know that this was started as an experiment and that 
basically the preserve became a Government corporation under 
the Valles Caldera Preservation Act. We also know that that 
created some huge problems as far as the startup and how a 
Government corporation was supposed to operate. We had this 
huge burden of being financially self-sustaining, and we are 
pretty much convinced now at this point in time that even 
Members of Congress and people that advise Congress kind of 
thought, you know, that is going to be a real, real hard thing 
to do, becoming financially self-sustaining as a U.S. 
Government organization on a ranch that had no infrastructure 
and that had basically 200 people a year visiting that ranch, 
and now we are expected to try to put in a few thousand or 
thousands of people on that place.
    We have made some good progress, but there have been 
periods of time when we did not make good progress. In the last 
year or 2, I think even you and your staff have acknowledged 
that we have done some great things in the last couple of 
years.
    One of the big issues is the amount of public recreation 
that has been allowed on the place, and we think this is a 
reflection, as much as anything, of our mandates and our need 
to try to generate the revenue for the place. We have at the 
present time been almost completed an environmental review of 
public access and use, and we are expecting by this winter, if 
we still exist, that that would be finished and we will be 
ready to look at siting and planning for a bona fide visitor 
center which would be the most important piece of 
infrastructure that would tend to encourage the visitor use on 
the property.
    We have some concerns with S. 3452, I am sure you know. We 
are concerned about the employees of the preserve. We are not 
sure that the way the bill is worded right now that those 
employees have--we are concerned that they will continue to be 
employed as professionals continuing the programs that we have 
already instituted and that are ongoing on the preserve. We 
asked that that be looked at continually to make sure that that 
kind of thing is taken care of.
    The main thing I want to talk about is what I consider the 
biggest issue on the preserve, and that is forest restoration. 
The preserve was owned for about 100 years by private 
individuals and it was clear cut and logged for 20, 30, 40 
years. It is standing full right now of what we call dog hair 
conifer trees, closely packed trees, 60,000 acres of them, two-
thirds of the property, 60,000 acres of very closely packed 
conifer trees that are an extreme, extreme fire danger. When 
you look at it at a distance, it is beautiful. There is not a 
doubt in the world, but when you get to it, that is the most 
dangerous situation in the entire Jemez Mountains. It has been 
managed differently over that period of time than all the 
surrounding mountain range which was done prescriptively not to 
carry fire and not to carry diseases.
    I guess I believe that the Forest Service happens to have 
this experience and the expertise to be able to manage a forest 
with that degree of problems for the future. In that regard, at 
least for a few more years, the Forest Service needs to 
continue the forest restoration work there. There is a decade 
of work there still to do to bring that forest to some health. 
No matter who is in charge of the preserve, you do not want to 
be the guy in charge when that fire hits. It will make the 
Cerro Grande fire look pretty insignificant if we have a long 
dry spell and it happens.
    That is it, Mr. Chairman. Thank you very much.
    [The prepared statement of Mr. Henry follows:]
 Prepared Statement of Stephen E. Henry, Chairman, Board of Trustees, 
                          Valles Caldera Trust
    Mr. Chairman and Members of the Committee:
    I am Stephen Henry, Chairman of the Board of Trustees for the 
Valles Caldera Trust, and I am here on behalf of the Presidentially 
appointed members of the Board of Trustees to express our views about 
S. 3452. The Trust supports the protection of the nationally 
significant natural and cultural resources found at the Valles Caldera 
National Preserve.
    I will not belabor the wonderful scenic and natural values of the 
Valles Caldera National Preserve. Everyone here knows it is a national 
treasure. We at the Trust value that treasure, and we have devoted our 
best efforts to its preservation and protection. But, unfortunately, we 
inherited an abused treasure. The former Baca Ranch had been over 
grazed and over logged for decades. Hundreds of miles of roads cover 
the area. Geothermal developers were threatening to develop private 
mineral rights. Major roads and improvements were in need of repair and 
rehabilitation. Infrastructure necessary to accommodate public access 
and use was almost non-existent and prerequisite environmental 
compliances had never been addressed. At the same time, the public 
clamored to use and enjoy this land for which the Federal taxpayer paid 
$101 million.
    Today, I am here to report that the Preserve is well on the way to 
a comeback. With the assistance of our partners in the Forest Service, 
the universities and the public, significant strides have been made at 
landscape restoration. The mandates of the Valles Caldera Preservation 
Act of 2000 are steadily and successfully being accomplished with 
regard to wildlife management, forest and range management, public 
recreation, Native American religious and cultural uses, research, 
science and many others. Despite these successes, S. 3452 would 
terminate the Valles Caldera Trust. We are disappointed and concerned, 
particularly about the future of our employees and the many successful 
ongoing programs.
    We note that the Valles Caldera Preservation Act provides for the 
assessment of the future viability of the Trust. In section 110, the 
Act calls for providing recommendations to Congress after 18 years as 
to whether the Trust should continue. In that context, we believe that 
S. 3452, which assumes Park Service management is best for the 
Preserve, could benefit from further analysis of the possible viable 
options for long term management of the Preserve. However, the relative 
merits of administration by the Forest Service, Park Service and the 
Trust have never been analyzed. When viewed objectively, we believe the 
Trust's accomplishments will be evident. The Trust started at ground 
zero when it was established in 2000. We had a brand new organization 
implementing an untested management regime on a huge property. The 
Preserve has not been financially self-sustaining; however, the 
challenge of that goal was recognized by many at the time of the 
original enactment. The Preserve has limited revenue generating 
capacity. Further, back in 2000, neither the Congress nor the Executive 
Branch anticipated the costs and complications of setting up a 
government corporation or the costs of making necessary capital repairs 
and rehabilitation, and simply the costs of operations--all of which 
are debits in the accounting on self sustainability. Parts of the 
problem were inherent challenges in the enabling legislation. One 
simple example concerns tort liability. Instead of treating the Trust 
like any other self insured federal agency, we were compelled to spend 
considerable sums buying private liability insurance. The point is that 
the Trust is being held to a unique standard of financial self 
sustainability. The Board believes that terminating the Trust fails to 
recognize much of the progress and investments in time and money made 
by the Trust in the past eight years.
    Turning the discussion to the future, the issue is what management 
is needed and who can best provide it. It may be that management by the 
Forest Service or the Park Service will enable some administrative 
functions to be assumed within a larger organization, but many 
activities and operations will have to be done anyway and at probably 
much the same cost.
    Forest restoration is now the major management focus. It involves 
putting roads to bed, erosion control, reforestation, and dealing with 
the challenges posed by insects and climate change. Range management is 
another challenge and includes restoration of riparian areas. We are 
currently undertaking extensive research in grassland improvement in 
cooperation with New Mexico State University. Public recreation, 
including hunting and fishing, is always a major challenge, but we have 
been getting high marks on these issues from our visitors.
    In conclusion, we understand there will be a need to assess the 
long term management of the Preserve and want to play our part in that 
effort. We believe any changes should be considered with full public 
transparency and with input from resource management experts. This 
exquisite landscape and the American public deserve no less.
    Thank you and I would be happy to answer any questions the 
Committee would have.

    The Chairman. Thank you very much. Thank you for your 
excellent testimony.
    Mr. Sherman, go right ahead.

STATEMENT OF HARRIS SHERMAN, UNDER SECRETARY, NATURAL RESOURCES 
           AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Sherman. Thank you, Mr. Chairman. I am Harris Sherman, 
the Under Secretary for Natural Resources and the Environment 
at USDA.
    Thank you for including my written statement in the record.
    First, Mr. Chairman, I just want to express our ongoing 
appreciation for your interest and your support for the Valles 
Caldera National Preserve. This is an extraordinary, unique 
piece of property. It is important to the people of New Mexico 
and to the Nation, and it commands our attention and our care.
    At the outset, I also want to say regardless of the outcome 
of this hearing and how jurisdiction is ultimately determined, 
USDA and the Forest Service want to cooperate and be helpful in 
any way we can, and we are prepared to play whatever role would 
be best for the future of this property.
    But as you review S. 3452 and consider management options 
for the preserve, I hope that you will consider a number of the 
following points that I think are relevant and important.
    The first relates to the Forest Service's past relationship 
to the property. The Forest Service has worked for several 
decades on the preservation and the acquisition of the 
property. This started back in 1990 when the Forest Service 
undertook a study as to how this could be acquired and how it 
could become part of a Federal acquisition. Between 1995 and 
2000, the agency spent 5 years of negotiation and study in 
order to successfully bring this property into the Federal 
system. It involved scores of professionals, lawyers, land 
managers. After negotiating a price of $101 million--by the 
way, the money for this came from the Forest Service's portion 
of the Land and Water Conservation Fund--the property did come 
in.
    Since 2000, there has also been an effort to protect the 
property in terms of mineral development. The Forest Service 
was very active in acquiring the geothermal resource rights 
that attached to that property.
    Since 2000, the Forest Service has been actively involved 
working and helping the trust on a number of fronts. We have 
provided technical assistance, fire preparation, fire 
suppression, law enforcement, and the actual funding that has 
gone into the future of this property. So I think it is fair to 
say that there is a very strong commitment by the Forest 
Service employees and the Forest Service family to the well-
being of this important piece of property.
    Now, as to the future of Valles Caldera and the key 
management decisions that lie ahead, I would agree with Mr. 
Henry. I think restoration is the most essential activity that 
needs to be undertaken on a sustained basis at the preserve. 
Two-thirds of the preserve is in forest. It has been overlogged 
and overgrazed prior to 2000. There are serious revegetation, 
reforestation needs associated with the property. We need to 
protect watersheds and riparian areas. We need to decommission 
roads. There are something like 1,400 miles of roads on the 
property, and that is going to require attention. Some of these 
roads definitely need to be decommissioned. I think the Forest 
Service is in a very strong and good position to do this work.
    Secretary Vilsack has directed us across the board to work 
on landscape scale restoration, and I think a lot of the 
activities here that need to be done on the property fall 
within that general framework.
    I also want to say, Mr. Chairman, I think this area does 
need greater emphasis on recreation and tourism, hunting and 
fishing. There is clearly a demand for these things. The Forest 
Service actually has a lot of experience in this area. We 
manage 6 national monuments, 2 of which are also volcanic 
monuments like this one. There are 21 national recreation areas 
and 11 national scenic areas which the Forest Service has 
responsibility for.
    Another factor that I think the committee should look at is 
just the efficiency of management of these lands, and I want to 
direct your attention to the map over here. More than 95 
percent of this 89,000-acre preserve is surrounded by national 
forest. This is the Santa Fe National Forest. If we really want 
to think about the importance of landscape scale management, 
ecosystem management where we look at things in a holistic way 
on a broader scale, I think there is something to be said about 
the continuity of management and the efficiency of management 
and the scale of management which I hope this committee will at 
least give some attention to.
    I would also like to emphasize a few small additional 
points, one being that I think the Forest Service does enjoy an 
excellent relationship with the 2 neighboring pueblos, the 
Santa Clara Pueblo and the Jemez Pueblo. The Forest Service has 
had an excellent relationship working with State wildlife 
agencies throughout the country, but also in New Mexico on 
hunting and fishing-related issues, which I assume will still 
be part of this facility no matter who manages it.
    So I hope these factors will be considered. We have great 
respect for the National Park System. They clearly also would 
do an excellent job managing this property. I think it is 
really a question of emphasis. What issues need to be attended 
to the most directly and what issues demand the greatest 
attention? That really is the heart of the question I think in 
front of you, as you stated earlier.
    But in any respect, we do want to be helpful. We want to be 
cooperative, and whatever decision is made by this committee 
and by the Congress, we will clearly abide by that and support 
that.
    Thank you very much.
    [The prepared statement of Mr. Sherman follows:]
    Prepared Statement of Harris Sherman, Under Secretary, Natural 
          Resources and Environment, Department of Agriculture
    Mr. Chairman, Ranking Member Murkowski, and members of the 
Committee:
    Thank you for the opportunity to provide the Administration's view 
S. 3452 the ``Valles Caldera Preserve Management Act''.
    I am pleased to testify today on S. 3452 regarding the long-term 
management of the Valles Caldera National Preserve, one of the Nation's 
preeminent scenic and natural areas. The Valles Caldera Preserve 
Management Act would repeal the Valles Caldera Preservation Act of 2000 
(2000 Act) abolish the Valles Caldera Trust, terminate the Preserve's 
inclusion in the National Forest System and turn over administration of 
the land to the National Park Service (NPS). This legislation gives us 
the opportunity to assess the long term management of the Preserve. The 
Department supports the protection of the nationally significant 
natural and cultural resources found at the Valles Caldera National 
Preserve and have worked with the Trust to accomplish these goals over 
the past several years. We would like to work with the committee to 
determine the management structure that will provide the highest level 
of protection and care for the unique resources that are found within 
the Valles Caldera. However, given the historical and ecological 
importance of these lands and the work that is required to restore 
them, there are various jurisdictional options for the long-term 
management of the Valles Caldera National Preserve that could be 
considered.
    There is no debate about the outstanding natural resources of the 
88,900-acre Preserve with its extraordinary flora, fauna, water, and 
geologic resources. Its spectacular scenic values are among the finest 
in the National Forest System. Geologically, the Valles Caldera is one 
of the Nation's best examples of a resurgent caldera. Its 
archaeological and cultural resources are of major significance to 
Native American Pueblo people. The challenge before the Congress and 
the Administration is how best to manage and restore the forested and 
rangeland watersheds, while sustaining the traditional uses of a 
working ranch and the majesty of a National Preserve for the Nation.
                       role of the forest service
    To assess appropriate future management, some history may be 
helpful. In 2000, at the hearings for the original Valles Caldera 
Preservation Act, the Forest Service was complimented as the ``unsung 
heroes'' in the great effort to preserve and protect what was then 
referred to as the Baca Ranch. That accolade is as valid today as it 
was ten years ago. Beginning in 1990, the Forest Service engaged the 
ranch owners, the Dunigan family, in what turned out to be a decade 
long effort to acquire the Baca Ranch. In 1993, the Forest Service 
cooperating with interested parties including the National Park 
Service, the U. S. Fish and Wildlife Service and affected Indian tribes 
completed a major study, the Report on the Study of the Baca Location 
No. 1 which provided the scientific and public policy underpinnings for 
Federal acquisition of the Ranch in 2000 (PL 106-248). From 1995 to 
2000, the Secretary of Agriculture assigned resource managers and used 
Department of Agriculture legal expertise to negotiate the purchase of 
the Baca Ranch for $101 million. The acquisition of the Baca Location 
No. 1 by the Federal government also resulted in the expansion of the 
Bandelier National Monument in the upper watershed of Alamo Creek as 
authorized by Public Law 105-376. The acquisition of the Preserve also 
permitted the Secretary of Agriculture to assign to the Pueblo of Santa 
Clara rights to acquire at fair market value approximately 5,045 acres 
of the northeast corner of the Baca Location No. 1 in the Santa Clara 
Creek watershed to promote watershed management within the Santa Clara 
Indian Reservation. More recently, significant effort and expense has 
been invested in acquiring privately owned geothermal rights. With some 
exceptions, the Administration can report today that due to the efforts 
of the Forest Service and the Department of Justice, the Federal 
government is now in possession of title to the Preserve and the land 
is permanently protected from private development.
    addition to the national forest system--valles caldera national 
                                preserve
    Upon the enactment of the 2000 Act on July 25, 2000, the Valles 
Caldera National Preserve was added to the National Forest System and 
the boundary of the Santa Fe National Forest was adjusted to include 
the National Preserve. Hailed as a new experiment in public, multiple-
use land management, the nearly 89,000 acre National Preserve, formerly 
known as the Baca Location No. 1, was assigned to a nine-member Board 
of Trustees responsible for the protection and development of the 
Valles Caldera National Preserve. The President of the United States 
appoints seven members and two Federal employees are ex-officio members 
who serve by virtue of their positions as Forest Supervisor of the 
Santa Fe National Forest and Superintendent of the Bandelier National 
Monument. The Trust is the managing board for the National Forest 
System lands that comprise the Valles Caldera National Preserve. The 
Preserve employees report to an Executive Director, who is overseen by 
the Trust Board members. Funding for the Preserve comes from the annual 
Forest Service appropriation, which is $3.5 million for FY 10 and from 
revenues generated by the Preserve for entry and use. In fiscal year 
2009 the Trust generated approximately $650,000.
    Because the Valles Caldera National Preserve is part of the 
National Forest System, it has the ability to draw upon the 
considerable resources of the Forest Service. The Deputy Areas for 
National Forest Systems, Research and Development and State and Private 
Forestry, as well as Business Operations support and assist the Trust 
and Preserve managers with services and expertise needed to manage the 
Preserve. The Southwest Region and the Rocky Mountain Research Station 
support the Preserve managers through special assignments; such as on-
the-ground consultations and specific disciplinary investigations or 
services. Santa Fe National Forest and Cibola National Forest employees 
with a wide array of skills are within a short driving distance of the 
Preserve and are available for immediate consultation on management 
direction or service program delivery. Wildland fire suppression and 
management resources, including equipment and personnel, are directly 
provided to the Preserve as part of the Santa Fe National Forest 
mission. Over the last decade, the Forest Service has worked closely 
with the Trust to assist with National Preserve operations, including 
archaeology, forestry, law enforcement, infrastructure, technical 
assistance, resource management and wildfire suppression. The Forest 
Service also provides the Trust with administrative assistance in 
financial services and property management.
    maintaining a working ranch, while managing a national preserve
    The debate a decade ago was over how to best manage the newly 
acquired Baca Ranch. The consensus then was that the land should be 
preserved as a working ranch where fishing, hunting, grazing, and some 
limited timber management might be retained. Then Congressman Udall 
noted in the hearings in March, 2000, that a working ranch would permit 
both cattle and wildlife to thrive on the land and traditional New 
Mexican families should have the opportunity to join others who had 
previously been able to use the land. The concept of a working ranch 
was widely endorsed. Over the past decade the Trust, with the 
assistance of the Forest Service, has implemented the concept of the 
working ranch.
    The October 2009 report ``Valles Caldera'' by the Government 
Accountability Office found that the Trust had made progress in 
rehabilitating roads, buildings, fences, and other infrastructure, had 
created a science program, experimented with a variety of grazing 
options, taken steps to manage its forests, expanded recreational 
opportunities, and taken its first steps toward becoming financially 
self-sustaining. However the Trust is at least 5 years behind the 
schedule it set for itself. Through FY2009, the Trust lacked a 
strategic plan and annual performance plans and it had not 
systematically monitored or reported on its' progress. The Trust's 
financial management has also been weak and the Trust is challenged to 
become self sustaining by the end of FY2015. The GAO recommended that 
the Trust work with the relevant Committees to seek legislative 
remedies as appropriate for the legal challenges confronting the Trust
                    forest and rangeland restoration
    It is important to note that restoration and resource management 
issues are already being managed by the Forest Service on approximately 
895,000 acres of National Forest System lands in the Jemez Mountains 
surrounding the Preserve and on the Preserve's Southeast corner 
adjacent to Bandelier National Monument. The connectivity of the 
forests, rangelands and waters in the Jemez Mountains of central and 
northern New Mexico allows for the continuity of natural resource 
management and for efficient restoration practices to be implemented on 
a landscape scale. The Forest Service is well positioned to provide 
landscape and restoration management in the Jemez Mountains, as 
envisioned by the Administration's priorities for maintaining and 
enhancing the resiliency and productivity of America's forests.
    The paramount priority for the Preserve is to continue and increase 
watershed restoration work across the Preserve and the surrounding 
National Forest System lands. The land's long history as a ranch where 
timber and mining activities occurred degraded much of the landscape. 
In addition, drought and insect activity threatens the forest and makes 
catastrophic fire a major challenge. Restoration work in this regard 
has been initiated and environmental and watershed assessments for 
developing future restoration projects are in process.
    Some of this restoration work has and will continue to deal with 
roads. When the Baca Ranch was purchased there were approximately 1,400 
miles of logging roads on the land. Initially, it was determined that 
the existing road system and surface design could not be used to 
support recreational opportunities, administration and management or 
uses such as grazing.
    To date, approximately 875 miles of the 1,400 have been inventoried 
and once the inventory is completed a determination would be made on 
the number of miles of road required for management of the Preserve. 
Through forest restoration efforts, the existing roads that are 
unneeded for future management would then be closed, decommissioned or 
obliterated. Presently, the Trust, with the assistance of the Forest 
Service, has upgraded over 18 miles of road to all-weather gravel 
standards so they are usable for passenger vehicles and are more 
environmentally stable. To enhance safety and public viewing of the 
preserve, the kiosks, scenic turnouts, and a new gate have been 
installed. In addition, the entry to and exit from New Mexico Highway 
4, the main access road to the preserve, has been reconfigured to meet 
traffic and road safety requirements.
    Rehabilitating deteriorating infrastructure such as buildings, 
roads and water systems has proven to be an expensive and time-
consuming endeavor. Many of these obligations will need to be addressed 
in any future management regime for the Preserve.
                    approaches to grazing management
    Given that the 2000 Act requires maintaining the Preserve as a 
working ranch, grazing has been a central activity. Over the years, the 
grazing program's objectives, scope, and size have changed repeatedly, 
in response to annual scientific assessments of forage availability, as 
well as shifting directives from the Board. The ultimate goal is to 
manage the Preserve's livestock operations for multiple aims, 
including, environmental benefits, local community benefit, research, 
and public education.
      the development and expansion of recreational opportunities
    For the public, especially New Mexicans, the Baca Location No.1 was 
an intriguing curiosity. Projected on maps as a prominent rectangle of 
white surrounded by National Forest System lands and on the Preserve's 
Southeast corner adjacent to Bandelier National Monument, there were 
great expectations by the Public for recreating and exploring the new 
National Preserve. At the outset of Forest Service and Trust 
management, the National Preserve was closed to public entry. Beginning 
in 2002, the Preserve was opened to public recreation which was 
confined to guided hikes or van tours. Over the next several years, 
access to the Preserve for varied summer and winter activities was 
allowed, including but not limited to access for fishing, hunting, 
hiking and various other recreational activities provided by outfitters 
and guides such as horse drawn wagon and sleigh rides, stargazing and 
viewing, group tours and birding.
    Given the successful history of Forest Service efforts, its 
commitment to the Preserve and the National Forest System stewardship 
of the vast majority of lands surrounding the Preserve, management by 
the Forest Service is a viable option for the Preserve's future there 
is ample national precedent for Forest Service administration of such 
lands. The agency currently manages 38 Congressionally designated 
areas, including 21 National Recreation Areas, 6 National Monuments (2 
of which are national volcanic monuments), and 11 National Scenic 
Areas. For example the Santa Fe National Forest is managing the 57,000 
acre Jemez National Recreation Area established to conserve the 
recreational, ecological, cultural, religious and wildlife values of 
the Jemez Mountains.
    The Preserve presents many resource management challenges that must 
be addressed and accounted for if any change in management is 
considered. The largest elk herd in New Mexico has to be carefully 
managed in cooperation with the New Mexico Department of Game and Fish. 
The land needs to be restored after decades of grazing and logging use. 
Indeed, for the Secretary of Agriculture, restoration of forest and 
rangelands watersheds is one of the highest management priorities. 
Under the Forest Landscape Restoration Title of the Omnibus Public Land 
Management Act of 2009 (16 U.S.C. 7303), which established the 
Collaborative Forest Landscape Restoration Fund (CFLRF), the Valles 
Caldera National Preserve, Santa Fe National Forest, the Nature 
Conservancy and the New Mexico Forest and Watershed Restoration 
Institute have developed a proposal for a cross jurisdictional planning 
process to implement a landscape-scale forest restoration strategy in 
the Jemez River Watershed. A key collaborator for this proposal, among 
many, is Bandelier National Monument. To achieve the goals of 
restoration and resiliency under the CFLRF active management 
prescriptions utilizing timber and forest vegetation harvesting and 
removal, prescribed fire, road closures and obliteration, as well as 
controlled livestock herbivory, would be required to achieve restored 
and resilient forest and watershed ecological conditions. However, 
under the CFLRF funding is limited to lands administered by the Forest 
Service.
  congressional request for reconnaissance study by the national park 
                                service
    At the request of New Mexico Senators Jeff Bingaman and Tom Udall 
(June 24, 2009), the National Park Service performed a reconnaissance 
study of the National Forest System lands comprising the Valles Caldera 
National Preserve for its inclusion in the National Park System. We 
recognize that the Secretary of the Interior could also be an 
appropriate steward of the National Preserve and the Forest Service 
will work cooperatively with all parties to achieve the best outcome 
for the National Preserve.
    If it is the decision of the Committee that permanent Trust 
management of the Preserve is not in the public interest and the land 
is ultimately managed by the Park Service, the Forest Service or some 
other arrangement, then we would request a thorough and orderly 
transfer of responsibilities from the Trust. In the interim, we should 
assure adequate funding for continued operations. In that respect, I 
note the Administration is recommending continued funding of the Trust 
at $3.5 million for FY 2011.
    This bill would repeal the Valles Caldera Preservation Act (VCPA), 
in which Congress authorized the acquisition of a fractional mineral 
interest under the Valles Caldera Preserve. Although the condemnation 
action related to the mineral interest has concluded, the judgment and 
some fees have not yet been paid. Accordingly, we believe that the bill 
should state explicitly that it is not intended to affect the authority 
for the condemnation or the amount or source of any outstanding 
obligations of the United States related to the condemnation of the 
fractional mineral interest under the Preserve
    In closing, I would note that the spirit of cooperation would be 
paramount for all agencies to work together for the thoughtful 
stewardship of the Valles Caldera National Preserve, regardless of the 
Congresses' decisions regarding administrative jurisdiction.
    This concludes my testimony, and I would be happy to answer any 
questions.

    The Chairman. Thank you very much.
    Mr. Wenk.

  STATEMENT OF DANIEL N. WENK, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Mr. Chairman, thank you for the opportunity to 
appear before the committee to present the Department of the 
Interior's views on S. 3452 to designate the Valles Caldera 
National Preserve as a unit of the National Park System and for 
other purposes.
    S. 3452 would designate the Valles Caldera National 
Preserve in New Mexico as a unit of the National Park System, 
transferring administrative jurisdiction of the preserve to the 
Secretary of the Interior. It would authorize grazing, hunting, 
and fishing to continue within the preserve.
    The Department supports the protection of the nationally 
significant natural and cultural resources found at the Valles 
Caldera National Preserve. We would like to work with the 
committee to determine the management structure that will 
provide the highest level of protection and care for the unique 
resources that are found within the Valles Caldera.
    The Valles Caldera is considered to be one of the world's 
best intact examples of a resurgent caldera, and it is of 
significant size and configuration to allow for long-term, 
sustainable resource protection and visitor enjoyment. The 
geologic features of the preserve retain a high degree of 
integrity, and the preserve's unique setting of expansive 
grasslands and forests provides outstanding scenic values and 
an array of opportunities for public recreation, reflection, 
education, and scientific study.
    The national significance of the geological resources of 
the Valles Caldera was formally recognized in 1975 when the 
area was designated as a National Natural Landmark. 
Additionally, the Valles Caldera was the subject of site 
investigations and new area studies that were completed by the 
National Park Service in 1939, 1964, 1977, and 1979. The 
National Park Service completed an update report on the 
National Park Service 1979 new area study in December 2009 at 
your and Senator Udall's request. All these studies found that 
the Valles Caldera was nationally significant, suitable, and 
feasible for designation as a unit of the National Park System.
    If added to the National Park system, Valles Caldera would 
be managed in accordance with the 1916 Organic Act and other 
acts that have guided the National Park Service for nearly 100 
years, ``to provide for the enjoyment of the same in such 
manner and by such means as will leave them unimpaired for the 
enjoyment of future generations,'' with recognition that the 
bill allows for continued, sustainable grazing, hunting, and 
fishing.
    The Valles Caldera is a spectacular landscape containing 
nationally significant resources that are worthy of 
preservation and protection. We look forward to working with 
the committee, the U.S. Forest Service, and the Valles Caldera 
Trust to determine the best way to care for these resources and 
to allow for their enjoyment by all Americans.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions that you or other members of 
the committee may have.
    [The prepared statement of Mr. Wenk follows:]
 Prepared Statement of Daniel N. Wenk, Deputy Director, National Park 
                  Service, Department of the Interior
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 3452, to designate the Valles Caldera National 
Preserve as a unit of the National Park System, and for other purposes.
    The Department supports the protection of the nationally 
significant natural and cultural resources found at the Valles Caldera 
National Preserve. We would like to work with the committee to 
determine the management structure that will provide the highest level 
of protection and care for the unique resources that are found within 
the Valles Caldera.
    S. 3452 would designate the Valles Caldera National Preserve 
(Preserve), in New Mexico as a unit of the National Park System, 
transferring administrative jurisdiction of the Preserve to the 
Secretary of the Interior (Secretary). The bill would repeal the Valles 
Caldera Preservation Act and all assets and liabilities of the Valles 
Caldera Trust (Trust) would be transferred to the Secretary. The bill 
would also authorize the Secretary to coordinate management and 
operations of the Preserve with Bandelier National Monument. If S. 3452 
is enacted, we look forward to working with the Trust to develop a 
management plan and capitalize on the proximity of Bandelier National 
Monument for efficiency of operations, while applying Service First 
principles of sharing resources as appropriate with the surrounding 
National Forest.
    S. 3452 would authorize grazing, hunting, and fishing to continue 
within the Preserve and the bill would require the Secretary to ensure 
the protection of traditional cultural and religious sites including 
providing tribal access to the sites and temporarily closing specific 
areas of the Preserve to protect traditional uses. The National Park 
Service (NPS) has a long history of consultation with First Americans 
in the preservation and continuation of traditional practices.
    Finally, S. 3452 would require that eligible Trust employees be 
retained for at least 180 days from the date of enactment and the 
Secretary and the Secretary of Agriculture would be authorized to hire 
Trust employees on a noncompetitive basis for comparable positions at 
the Preserve or other units of the National Park or National Forest 
Systems in New Mexico.
    The Valles Caldera National Preserve is an 88,900 acre unit of the 
National Forest System located in the Jemez Mountains of north central 
New Mexico. The Preserve was established by Public Law 106-248, the 
Valles Caldera Preservation Act of 2000, and is managed by the Valles 
Caldera Trust, a wholly owned government corporation established under 
the Act. The Trust is charged with mixing elements of both private and 
public administration while working to achieve resource protection, 
public enjoyment, and financial self sufficiency goals.
    The Valles Caldera is considered to be one of the world's best 
intact examples of a resurgent caldera (the remains of a huge and 
ancient volcano with a prominent uplift at its center, in this case 
present-day Redondo Peak) and is of sufficient size and configuration 
to allow for long-term sustainable resource protection and visitor 
enjoyment. The geologic features of the Preserve retain a high degree 
of integrity and the Preserve's unique setting of expansive grasslands 
and montane forests provides outstanding scenic values and an array of 
opportunities for public recreation, reflection, education, and 
scientific study.
    The national significance of the geological resources of the Valles 
Caldera was formally recognized in 1975 when the area was designated a 
National Natural Landmark. Additionally, the Valles Caldera was the 
subject of site investigations and new area studies that were completed 
by the National Park Service (NPS) in 1939, 1964, 1977, and 1979. An 
Update Report on the NPS 1979 New Area Study was completed by NPS in 
December of 2009 at the request of Senators Bingaman and Tom Udall. All 
of these NPS studies found that the Valles Caldera was nationally 
significant, suitable and feasible for designation as a unit of the 
National Park System , and the 2009 Update Report reaffirmed the 
results of the prior studies. In addition, the Forest Service, pursuant 
to Public Law 101-556, also completed a study of the site in 1993, 
which was cited in the Valles Caldera Preservation Act.
    If added to the National Park System, Valles Caldera would be 
managed in accordance with the 1916 Organic Act and other Acts that 
have guided the NPS for nearly one hundred years ``to provide for the 
enjoyment of the same in such manner and by such means as will leave 
them unimpaired for the enjoyment of future generations'', with 
recognition that the bill allows for continued, sustainable grazing, 
hunting, and fishing. The NPS has experience with these activities in 
our other nineteen preserves.
    Based on current expenses for Valles Caldera and the cost to 
operate park units comparable in size and assets, we anticipate the 
annual cost to operate and manage the park would be approximately $22 
million for developmental costs and $4 million for annual operational 
costs, although more complete cost estimates would be developed through 
the general management plan. In addition, our 2009 Update Report 
identifies 5 parcels of private property, totaling 40 acres, that would 
need to be acquired. Although appraisals have not been completed, the 
expected costs to acquire this private property and any transfer costs 
are expected to be minimal. Funds would be subject to the availability 
of appropriations and NPS priorities.
    Furthermore, as noted above, this bill would repeal the Valles 
Caldera Preservation Act in which Congress authorized the acquisition 
of a fractional mineral interest under the Valles Caldera Preserve. We 
have been advised by the Department of Justice that although the 
condemnation action related to the mineral interest has concluded, the 
judgment and some fees have not yet been paid. Accordingly, we believe 
that the bill should state explicitly that it is not intended to affect 
the authority for the condemnation or the amount or source of any 
outstanding obligations of the United States related to the 
condemnation of the fractional mineral interest under the Preserve.
    Finally, should S. 3452 move forward in its current form, the 
Department would like the opportunity to work with the committee to 
discuss some of the time periods that are outlined in the bill. We are 
concerned that the 30 day time periods to develop the memorandum of 
agreement described in Section 3 and the interim budget in Section 4 
may not be sufficient. We will be happy to work with committee staff to 
address our concerns.
    The Valles Caldera is a spectacular landscape containing nationally 
significant resources that are worthy of preservation and protection. 
We look forward to working with the committee, the U.S. Forest Service, 
and the Valles Caldera Trust to determine the best way to care for 
these resources and to allow for their enjoyment by all Americans.
    Mr. Chairman, that concludes my prepared remarks. I would be happy 
to answer any questions that you or any other members of the Committee 
may have.

    The Chairman. Thank you and thank all of you on this panel. 
I appreciate it very much.
    Mr. Wenk, let me ask you first of all. When Senator Udall 
and I asked for you folks to do this reconnaissance study, a 
main thing we were trying to determine is whether this property 
met the criteria for inclusion in the National Park System.
    Could you state what your conclusion was or what the study 
determined with regard to that?
    Mr. Wenk. Yes, Mr. Chairman. The update to the 1979 special 
resource study and, in fact, any study, examines 4 criteria. 
The first criteria is national significance, and that question 
was answered when it became a National Natural Landmark. This 
criteria was found in all 4 studies and continued in 2009. The 
second criteria is whether it is suitable for inclusion into 
the system, and we determined that it was. The third criteria 
is whether it is feasible, and once again, it was determined to 
be both suitable and feasible. The fourth criteria is 
management. Management is typically looked at whether or not 
another entity is managing it. This comes down really to a 
question, I think, that the Congress needs to answer in terms 
of whose management is most appropriate for the area.
    The Chairman. One of the issues--obviously, the leaders of 
the pueblo communities near the Valles Caldera have great 
concern, understandably, about the cultural resources on the 
property. What is the experience that the Park Service has had 
with regard to protecting of Native American cultural resources 
of this type in other national parks? Is that something that 
you have clear protocols for and long experience with or not?
    Mr. Wenk. Absolutely, Mr. Chairman. The National Park 
Service protects, I believe, many of the preeminent cultural 
resources in our country. A portion of the boundary of the 
Valles Caldera is shared by Bandelier National Monument, which 
has significant cultural resources. We take great pride in the 
way we protect resources there, and literally throughout the 
Nation, not just the West, as it relates to native populations. 
I believe that we have the policies, the law, the regulation 
and policies that makes us one of the leading organizations in 
the protection of cultural resources.
    The Chairman. Let me ask you, Mr. Henry. If we do not 
proceed and pass this legislation, the Valles Caldera Trust 
continues under its current management structure. What do you 
believe the most significant challenges are for the board and 
for the preserve in the coming years?
    Mr. Henry. Mr. Chairman, perhaps as I maybe even already 
said, the biggest issue by far is the forest and restoring that 
60,000 acres, two-thirds of that property, to where it can have 
numbers of people. I am concerned that when campers, bonfires, 
campfires are turned lose onto the preserve--even though 
anybody would try to control that access to some degree, but if 
there are 3,000 or 4,000 people out on the preserve throughout 
penetrating the interior for the pure enjoyment of it, which is 
what we all want to do, and during many periods of time when it 
is really dry, the fire danger is going to be huge. I do not 
know if you can even allow for a significant part of many 
years, especially as climate change is occurring and things are 
going to get drier, until that forest has been restored. I 
think that is a huge challenge because people are wanting to be 
on it. We recognize that, but how to do it and do it right and 
have their safety involved and have what is in the best 
interest of that preserve taken care of is the biggest 
challenge by far.
    The Chairman. Has that been a significant factor in the 
management decisions that your board has made in the last year 
or last 2 years with regard to allowing access on the property? 
Do you restrict access because of concern about endangering the 
forest?
    Mr. Henry. That and other issues right now, Mr. Chairman. 
We have not finished the environmental planning for human 
access and use, and so we are doing things on an interim basis 
as approved by the Council on Environmental Quality. So until 
we gather that information and we apply it and then we put that 
information into our environmental planning, we are doing 2 
things. We are having a lot of organized events for people to 
come up there. We have hunting. Of course, it is at a time 
period when the forest is not as much in danger in the fall, 
but we do not allow any camping yet. We anticipate that we 
will. But those would have to be under the right conditions and 
the right times and the right places no matter who is managing 
it. Any one of the agencies, indeed, could do that. But that is 
one of the concerns.
    The other concerns are those that we mentioned. We do not 
think it is right. We think it is against the law to let people 
have some of the things that they are asking us to do without 
the environmental analysis first because once you give 
something, it is hard to take it back and say you cannot do 
that now because it is not going to be the right thing to do.
    The Chairman. Part of the job of allowing public access and 
still preserving and restoring the forest and all comes down to 
a question of resources and how many people you can have doing 
the management and how much money you can have to take out the 
roads you do not need and put in the roads you do need and all 
of that. Have you done any calculation as to what kind of a 
budget you folks would need to do that the right way?
    Mr. Henry. Yes, Mr. Chairman, we have. We have presented 
and gone to considerable detail. We think that we need 
approximately $4 million a year to run that preserve the way 
that we think it needs to be run for the next several years in 
addition to the revenue that we generate off of the way the 
present law exists, and it provides that we do generate revenue 
off of user fees.
    In addition to that, though, there is capital improvement 
that has to occur on that place, and we have gone through the 
basic infrastructure repairs and the new capital improvements, 
the visitor center primarily, in order to accommodate a 
significant increase in visitors. We have come up with that 
being $14 million to $16 million as a capital investment. As 
far as I can tell, the only place that would come from would be 
Congress.
    The Chairman. All right. Thank you very much.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Just a couple of questions for you, Mr. Sherman. I want to 
help the chairman and Senator Udall with this legislation. I 
just have a couple of questions to kind of make sure I really 
can think through all the implications. We are talking about 
Forest Service land in New Mexico, and as chairman of the 
Forestry Subcommittee, there are just a couple of areas I want 
to make sure I am on top of as we look at this and then other 
pieces of legislation.
    Looking back over the history, you know, my understanding 
is that the management approach that has been used here for 
these Forest Service lands for a number of years has not been 
used on any other Forest Service lands and has been unique to 
New Mexico. Is that your understanding?
    Mr. Sherman. Senator, I am not a student in the history of 
this. I do believe that this approach was modeled after the 
Presidio approach in San Francisco where a trust was 
established there to run that particular piece of property. But 
my understanding is this is a relatively unusual approach, but 
I cannot tell you whether it has been used elsewhere.
    Senator Wyden. Why do you just see if you can get us some 
history? Because I looked at some of the material, and it was 
all explained as being unique to New Mexico.
    My understanding also is that this came into being as a 
result of State-specific legislation dealing with New Mexico 
and Forest Service lands. Is that correct?
    Mr. Sherman. This was specific legislation that was passed 
in 2000.
    Senator Wyden. We are going to work with you. I intend to 
work very closely with Chairman Bingaman and Senator Udall. I 
think it is fairly clear we are going to have to think through 
cooperatively. We are all talking about various ways to try to 
come up with sensible policies for the Forest Service and still 
deal with the State-specific kinds of issues. It is my 
intention to work very closely with you, Mr. Chairman, and 
Senator Udall.
    Thank you. I look forward to working with you as well, Mr. 
Chairman.
    The Chairman. Thank you very much. I appreciate the 
testimony, and if we have additional questions, we will 
certainly be in touch with each of you.
    Why do we not go ahead with our second panel? This is 4 
witnesses: the Honorable Joshua Madalena, who is Governor of 
the Pueblo of Jemez; the Honorable Walter Dasheno, who is 
Governor of the Pueblo of Santa Clara; the Honorable Michael 
Wismer, who is Chair of the Los Alamos County Council; and 
Jeremy Vesbach, who is the Director of New Mexico Wildlife 
Federation. We very much appreciate all of you being here.
    Why do we not go ahead with--of course, we will take all of 
the written statements and include them in the record in full, 
and we would then like each witness to summarize the main 
points that we would want to hear.
    How do we want to proceed with this? Governor Madalena, the 
other 2 witnesses are accompanying you I gather?
    Mr. Madalena. Yes, they are. They are my religious leaders 
in my pueblo.
    The Chairman. Why do you not start and give us your 
testimony and anything that you would like them to add to that?
    Mr. Madalena. Yes.
    The Chairman. Then Governor Dasheno and then Mr. Vesbach. 
Then do we also have Mr. Wismer? I guess he is not here. He is 
still en route. I think he was not able to arrive in time for 
this newly scheduled hearing.
    But, Governor Madalena, thank you very much for being here 
and go right ahead.

 STATEMENT OF HON. JOSHUA MADALENA, GOVERNOR, PUEBLO OF JEMEZ, 
JEMEZ PUEBLO, NM; ACCOMPANIED BY ADAM WAQUIE, SUPREME SPIRITUAL 
      LEADER, AND JOSE TOLEDO, MEMBER JEMEZ PUEBLO COUNCIL

    Mr. Madalena. Thank you, Chairman Bingaman and Senator 
Udall. I hope that some of my time will not be taken away. As 
you know what the protocol is, as Jemez people, we like to do 
an invocation and also have my religious leaders give us a few 
words of wisdom as well. I appreciate that.
    The Chairman. Take what time you need.
    [Invocation.]
    Mr. Madalena. Chairman Bingaman and Senator Udall, my name 
is Joshua Madalena. I am the Governor of the Pueblo of Jemez, a 
sovereign indigenous nation located in the Jemez Mountains 
about 50 miles northwest of Albuquerque, New Mexico.
    Thank you for the opportunity to testify today on S. 3452, 
the Valles Caldera National Preserve Management Act.
    We are here to conditionally support Senator Jeff 
Bingaman's bill to transfer management of the Valles Caldera 
National Preserve to the National Park Service.
    I have with me today Adam Waquie who is our cacique, or 
supreme spiritual leader, and Jose Toledo, a member of the 
Jemez Pueblo Council, former War Captain, and member of our War 
Council. Each of them will offer short testimony in our Towa 
language and I will translate.
    The Pueblo of Jemez is one of the 19 New Mexico pueblos 
with 3,400 tribal members, most of whom reside at our pueblo 
village of Walatowa.
    At this time, I would like to give you Mr. Adam Waquie.
    Mr. Waquie.  [Towa language spoken.]
    Mr. Madalena. Mr. Jose Toledo.
    Mr. Toledo. [Towa language spoken.] Thank you.
    Mr. Madalena. We have known that the Valles Caldera is our 
spiritual mother since long before we first settled in the 
region. The Valles Caldera is why we migrated to the area. The 
Valles Caldera is our cathedral. It is just as important for us 
as the Vatican is for the Catholics and as the famous Blue Lake 
is to Taos Pueblo. It is where the spirits of our ancestors 
reside and it is our most important spiritual place. That is 
why we never built major villages in the caldera and why we 
have maintained an uninterrupted spiritual relationship with 
the caldera.
    For many centuries, we have lived in spiritual and 
ecological harmony with the Valles Caldera. We have taken great 
pains to protect its resources and its natural beauty. We were 
the first stewards of the caldera, and we have never faltered 
in our role as its protectors. Truly, we were and continue to 
be the first environmentalists.
    Today, because of our continued care for the earth, we are 
able to help our 3,400 tribal members use our existing land and 
resources for agriculture, grazing, wood cutting, and other 
traditional uses. The critical issue for us has always been to 
protect and preserve our natural resources so they sustain us 
over time. We strive to ensure that everything we do is 
sustainable.
    But we are not just a traditional culture that looks back 
with nostalgia. We have built upon our core values of 
conservation to find opportunities to mesh the old with the 
new, the traditional with the modern. We have a successful 
heritage and cultural tourism program at the pueblo, including 
a museum, and we constantly look for ways to collaborate and 
cooperate with local communities to enhance the economic 
opportunities for the region.
    We continue to hold Indian titles to the Valles Caldera. 
Indian title is the right of use and occupancy held by American 
Indian tribes to their ancestor homelands and is the root of 
all American real estate titles today. Indian title is a 
fundamental law doctrine of Anglo-American property law that 
was first acknowledged by the U.S. Supreme Court in its 1810 
decision in Fletcher v. Peck. The Supreme Court has repeatedly 
affirmed Indian title, notably in its 1941 decision in United 
States v. Santa Fe Pacific Railroad Company and most recently 
in its 1985 decision in County of Oneida v. Oneida Indian 
Nation. In the Santa Fe Pacific and Oneida decisions, the Court 
repeated that ``the Indian rights of occupancy is as sacred as 
the fee simple of the whites.'' These decisions are the 
governing law of Indian title today.
    As President Abraham Lincoln said in an 1859 speech in 
Cincinnati, ``I do not mean to say that this government is 
charged with the duty of redressing or preventing all the 
wrongs in the world; but I do think that it is charted with the 
duty of preventing and redressing all wrongs which are wrongs 
to itself.''
    We note that section 3(g) of the bill withdraws the Valles 
Caldera from any entry, disposal, or appropriation under the 
public land laws, subject to valid existing rights. We 
absolutely agree that the Valles Caldera should be withdrawn 
from disposal under the public land laws and that valid 
existing rights must be preserved as a matter of constitutional 
law. We require and will insist on the same consideration for 
the Jemez Pueblo Indian title to the caldera.
    It is critical for us that our ancient and continuing 
rights to the Valles Caldera not be compromised by this 
proposed legislation. Our support for S. 3452 is conditional 
upon the addition of language stating as follows: ``Valid 
Existing Rights Preserved. This act shall not be deemed to 
terminate, adjudicate or adversely affect any valid existing 
rights within the Preserve, including Indian title and rights 
previously established pursuant to the public land laws.''
    We suggest that this language be added as a new section 5. 
To avoid redundancy, we suggest that the words subject to valid 
existing rights'' be deleted from section 3(g). Existing 
sections 5 and 6 would be renumbered.
    Our position is that our Jemez Pueblo Indian title to the 
Valles Caldera must be fully respected and that the caldera 
eventually be returned to our ownership and our control. We are 
fully capable of managing and protecting it. We would provide 
at a minimum the same level of access to hunting, fishing, 
hiking, and other recreational opportunities as are enjoyed by 
the public in the caldera.
    We understand the funding and management problems faced by 
the Valles Caldera Preserve and the valid objectives of the S. 
3452. One of the original objectives of the Valles Caldera 
Preservation Act of July 25, 2000 was to make the preserve 
self-supporting. For a variety of reasons, it now appears that 
objective cannot be met and Valles Caldera can best be managed 
and protected for the time being as a unit of the National Park 
System. As stated, we conditionally support S. 3452 as an 
interim--as an interim--solution for management of the 
preserve.
    My companions and I wish to thank Chairman Bingaman, 
Senator Udall, and the committee again for the opportunity to 
testify on S. 3452. We would be happy to answer any questions 
you may have. Thank you.
    [Towa language spoken.]
    [The prepared statement of Governor Madalena follows:]
Prepared Statement of Hon. Joshua Madalena, Governor, Pueblo of Jemez, 
                            Jemez Pueblo, NM
    Chairman Bingaman and Members of the Committee: My name is Joshua 
Madalena, and I am the Governor of the Pueblo of Jemez, a sovereign 
indigenous nation located in the Jemez Mountains, about 50 miles 
northwest of Albuquerque, New Mexico.
    Thank you for the opportunity to testify today on S. 3452, the 
Valles Caldera National Preserve Management Act. We are here to 
conditionally support Senator Jeff Bingaman's bill to transfer 
management of the Valles Caldera National Preserve to the National Park 
Service.
    I have with me today Adam Waquie, who is our cacique, or supreme 
spiritual leader, and Jose Toledo, a member of the Jemez Pueblo 
Council, former War Captain, and member of our War Council. Each of 
them will offer short testimony in our Towa language and I will 
translate.
    The Pueblo of Jemez is one of the 19 New Mexico pueblos, with 3,400 
tribal members, most of whom reside at our pueblo village of Walatowa. 
The Pueblo of Jemez is an independent sovereign nation with an 
independent government and tribal court system. Traditional matters are 
still handled by religious authorities and societies who follow 
traditions that are thousands of years old. Through perseverance, our 
people have managed to preserve our traditional culture, religion, and 
knowledge of our ancient traditional ways regardless of outside 
pressures. We have also preserved our complex traditional language, a 
language anthropologists and linguists refer to as ``Towa''. Jemez is 
the only nation that speaks this language, and our traditional law 
forbids our language from being translated into writing in order to 
prevent exploitation by outsiders.
    Our people are internationally known for arts and crafts. Pottery, 
such as bowls, seed pots graffito vessels (elaborately polished and 
engraved), wedding vases, figurines, holiday ornaments, and our famous 
storytellers are now in collections throughout the world. In addition, 
Jemez artisans also create beautiful basketry, embroidery, woven 
cloths, exquisite stone sculpture, moccasins and jewelry.
    [CACIQUE ADAM WAQUIE PEAKS--GOVERNOR TRANSLATES]
    [WAR COUNCIL MEMBER JOSE TOLEDO SPEAKS--GOVERNOR TRANSLATES]
    We have known that the Valles Caldera is our spiritual mother since 
long before we first settled in the region. The Valles Caldera is why 
we migrated to the area long before the arrival of Europeans in the 
Americas. The Valles Caldera is our cathedral. It is just as important 
for us as the Vatican is for Catholics, and as the famous Blue Lake is 
to Taos Pueblo. It is where the spirits of our ancestors reside and it 
is our most important spiritual place. That is why we never built major 
villages in the Caldera and why we have maintained an uninterrupted 
spiritual relationship with the Caldera. Our ancient Towa name for 
Redondo Peak is Wavema. Wavema is the mother peak of the other volcanic 
domes in the Caldera. Wavema means that we will never be in want if we 
continue to live in close to her.
    For many centuries we have lived in spiritual and ecological 
harmony with the Valles Caldera. We have taken great pains to protect 
its resources and its natural beauty. We were the first stewards of the 
Caldera, and we have never faltered in our role as its protectors. 
Truly, we were--and continue to be--the first environmentalists. 
Because it is our cathedral, because it is the spiritual resting place 
of our ancestors, there is no one more interested in seeing its natural 
beauty and ecology protected forever than the people of Jemez Pueblo.
    Today, because of our continued care for the Earth, we are able to 
help our 3,400 tribal members use our existing land and resources for 
agriculture, grazing, hunting, fishing, wood cutting and all other 
traditional uses. The critical issue for us has always been to protect 
and preserve our natural resources so they sustain us over time. We 
strive to ensure that everything we do is sustainable.
    But we are not just a traditional culture that looks back with 
nostalgia. We have built upon our core values of conservation to find 
opportunities to mesh the old with the new, the traditional with the 
modern. We have a successful Heritage and Cultural tourism program at 
the Pueblo, including a museum, and we constantly look for ways to 
collaborate and cooperate with local communities to enhance the 
economic opportunities for the region. We are working closely with the 
Santa Fe National Forest and the Valles Caldera National Preserve to 
maintain and protect the Forest as well as literally thousands of our 
pueblo village, field house and other cultural sites throughout the 
Forest and the Preserve.
    The Jemez Nation originated from a place called ``Hua-na-tota'' in 
the Four-Corners area. Our ancestors migrated to the Jemez Mountains in 
the late 13th century, drawn by the spiritual importance of Wavema and 
the Valles Caldera. By the time of first European contact in the year 
1541, the Jemez Nation was one of the largest and most powerful of the 
puebloan cultures, occupying numerous puebloan villages that were 
strategically located on the high mountain mesas and in the canyons 
that surround the present pueblo of Walatowa and in close proximity to 
our spiritual center, the Valles Caldera. These stone-built fortresses, 
often located miles apart, were frequently four stories high and 
contained as many as 3,000 rooms. They now constitute some of the 
largest archaeological ruins in the United States. Situated between 
these ``giant pueblos'' were dozens of smaller pueblos and literally 
hundreds of one and two room houses that were used during spring and 
summer months as base camps for hunting, gathering, and agricultural 
activities. However, our spiritual leaders, medicine people, war 
chiefs, craftsmen, pregnant women, elderly and disabled lived in the 
giant pueblos throughout the year, as warriors and visitors could 
easily reach at least one of the giant pueblos within an hour's walk 
from any of the seasonal homes.
    Our current Jemez Pueblo land base consists of 89,000 acres of 
tribal trust lands. Our ancestral homelands in this area cover 
approximately 1 million acres encompassing most of the Jemez Mountains 
and the Valles Caldera.
    We continue to hold Indian title to the Valles Caldera. Indian 
title is the right of use and occupancy held by American Indian tribes 
to their ancestral homelands and is the root of all American real 
estate titles today. Indian title is a fundamental common law doctrine 
of Anglo-American property law that was first acknowledged by the 
United States Supreme Court in its 1810 decision in Fletcher v. Peck. 
The Supreme Court has repeatedly affirmed Indian title, notably in its 
1941 decision in United States v. Santa Fe Pacific RR Co., and most 
recently in its 1985 decision in County of Oneida v. Oneida Indian 
Nation. In the Santa Fe Pacific and Oneida decisions the Court repeated 
that ``the Indians right of occupancy is as sacred as the fee simple of 
the whites.'' These decisions are the governing law of Indian title 
today. The heirs of Luis Maria C de Baca received the Valles Caldera as 
an original American land grant in 1858 to settle a conflict with 
another grant in the area of Las Vegas, NM. The Baca heirs, and all 
subsequent owners, have held the Valles Caldera subject to continuing 
Jemez Pueblo Indian title.
    Henry Knox, America's first Secretary of War, reported to President 
Washington that:

          The Indians being the prior occupants, possess the right of 
        the soil. It cannot be taken from them unless by their free 
        consent, or by the right of conquest in case of a just war. Top 
        dispossess them on any other principle would be a gross 
        violation of the fundamental laws of nature and of that 
        distributive justice which is the glory of a nation.

    President Abraham Lincoln said in an 1859 speech in Cincinnati: ``. 
. .I do not mean to say that this government is charged with the duty 
of redressing or preventing all the wrongs in the world; but I do think 
that it is charged with the duty of preventing and redressing all 
wrongs which are wrongs to itself.''
    We have never and we will never consent to losing our Indian title 
to the Valles Caldera.
    We note that Section 3(g) of the bill withdraws the Valles Caldera 
from any entry, disposal or appropriation under the public land laws, 
``subject to valid existing rights.'' We absolutely agree that the 
Valles Caldera should be withdrawn from disposal under the public land 
laws, and that valid existing rights must be preserved as a matter of 
constitutional law. We require and will insist on the same 
consideration for Jemez Pueblo Indian title to the Caldera. Just as 
President Lincoln said in 1859, dispossessing us of our valid existing 
Indian title rights to the Valles Caldera would be a wrong to America 
itself.
    It is critical for us that our ancient and continuing rights to the 
Valles Caldera not be compromised by this proposed legislation. Our 
support for S. 3452 is conditional upon the addition of language 
stating as follows:

          Valid Existing Rights Preserved.--This Act shall not be 
        deemed to terminate, adjudicate or adversely affect any valid 
        existing rights within the Preserve, including Indian title and 
        rights previously established pursuant to the public land laws.

    We suggest that this language be added as a new Section 5. To avoid 
redundancy, we suggest that the words ``Subject to valid existing 
rights,'' be deleted from Section 3(g). Existing sections 5 and 6 would 
be renumbered.
    Our position is that our Jemez Pueblo Indian title to the Valles 
Caldera must be fully respected and that the Caldera eventually be 
returned to our ownership and control. We are fully capable of managing 
and protecting it. We would provide at a minimum the same level of 
access to hunting, fishing, hiking and other recreational opportunities 
as are now enjoyed by the public in the Caldera.
    We understand the funding and management problems faced by the 
Valles Caldera Preserve and the valid objectives of S. 3452. One of the 
original objectives of the Valles Caldera Preservation Act of July 25, 
2000 was to make the Preserve self-supporting. For a variety of 
reasons, it now appears that objective cannot be met and the Valles 
Caldera can best be managed and protected for the time being as a unit 
of the National Park system. We support S. 3452 as an interim solution 
for management of the Preserve.
    My companions and I wish to thank Chairman Bingaman and the 
Committee again for the opportunity to testify on S. 3452. We would be 
happy to answer any questions you may have.

    The Chairman. Thank you very much. Thank you and the elders 
from your pueblo that you brought with you as well.
    Before we ask questions of any witness, let us hear from 
the other 2 witnesses at the witness table here.
    Governor Dasheno, welcome to the committee and please go 
right ahead.

  STATEMENT OF HON. WALTER DASHENO, GOVERNOR, PUEBLO OF SANTA 
                      CLARA, ESPANOLA, NM

    Mr. Dasheno. Thank you very much, Mr. Chairman, Senator 
Udall. Thank you, Senator Bingaman, for this honor to come 
before all of you to testify in regards to this issue.
    Similarly, I would like to open up with a prayer from our 
village to all of us that are here today.
    [Invocation.]
    Mr. Chairman, Senator Bingaman, and Senator Udall, before 
we start, I would like to introduce former Governor Michael 
Chevaria, who is here with me this afternoon. Certainly we 
extend our prayers and wishes for a good year for all of us 
from the Pueblo of Santa Clara, and on behalf of our community 
or for our thanksgiving for what we have been so blessed with 
with the nature and the lands that we so dearly support and 
hope as our treasure to all of us.
    I am here to thank you for allowing me to appear before you 
to present these comments on S. 3452, the Valles Caldera 
National Preserve Management Act.
    I am Walter Dasheno and I am the Governor of the Pueblo of 
Santa Clara, a federally recognized Indian pueblo situated 25 
miles north of Santa Fe, New Mexico. Again, I want to thank 
Senator Bingaman and Senator Udall--and Senator Wyden who left 
a little earlier--of New Mexico for having introduced S. 3452. 
I appreciate the opportunity to be able to present the views of 
the Santa Clara Pueblo on this bill as it addresses matters 
that are of the most profound importance to our pueblo.
    My remarks will be brief, but I do want to note that we 
have submitted for the record detailed written comments on this 
bill and I hope that members of the committee will have the 
opportunity to address themselves to that written testimony 
which I will simply summarize today.
    The Pueblo of Santa Clara has had a long and multifaceted 
relationship with the Valles Caldera. It has been our hunting 
ground, our source of traditional materials, and most 
important, a place of traditional worship for us. The many 
traditional sites, trails, shrines, and ritual gatherings, 
areas throughout the caldera remain vitally important and 
integrally related to our traditional religious practices.
    We were fortunate when Congress authorized Federal 
acquisition of the caldera in the Valles Caldera Protection Act 
of 2000. Santa Clara Pueblo was allowed to reacquire a portion 
of its aboriginal lands that had been erroneously included in 
the patent to the Baca Ranch, lands that encompassed the 
headwaters of the Santa Clara Creek known to us for centuries 
as Popii Khanu.
    Although several pueblos utilize the caldera for 
traditional and religious practices, Santa Clara is the only 
tribe that directly abuts the Valles Caldera National Preserve 
on the north end of the reservation--I am sorry. The south end 
of the reservation.
    For many reasons, we feel that we have especially 
substantial interest in actions that affect the management of 
the preserve.
    Santa Clara generally supports the Valles Caldera 
legislation but with some serious concerns. This legislation 
sponsored by both yourselves, Senator Bingaman and Senator 
Udall, would transfer the administrative jurisdiction of the 
Valles Caldera National Preserve to the National Park Service. 
The Santa Clara Pueblo has a long history with the Valles 
Caldera. It has served as Santa Clara Pueblo's hunting ground, 
source of traditional materials, et cetera.
    Santa Clara's main points of support and concern are:
    One, Santa Clara strongly supports section 3, subsection 
(i), which requires the Secretary to ensure the protection of 
traditional cultural sites and which grant Santa Clara rights 
of access to those sites.
    Two, Santa Clara strongly supports section 3, subsection 
(h), the ban on development and motorized access, but asks for 
an exception to allow Santa Clara members access to parts of 
Popii Khanu otherwise inaccessible.
    Three, Santa Clara Pueblo believes the educational programs 
in section 3, subsection (d) should include teachings on the 
pueblos that surround the caldera.
    Four, Santa Clara Pueblo strongly opposes the caldera rim 
trail provided for in section 3, subsection (k).
    Five, Santa Clara asks for a provision to support the 
National Park Service working with Santa Clara's excellent 
forestry program on forestry management issues and specifically 
asks that certain provisions of the Tribal Forest Protection 
Act be applied to Valles Caldera. Santa Clara Pueblo does have 
a very positive relationship with the U.S. Forest Service and 
believe they can contribute very importantly to the Valles 
Caldera management.
    Six, Santa Clara asks that repeal of the Valles Caldera 
Protection Act not affect the portions of the act that pertain 
to Santa Clara which have ongoing relevance to Popii Khanu and 
to the issue of mineral development.
    Santa Clara is also sensitive to the fire safety issue 
described by Mr. Henry. Santa Clara has experienced 3 fires, 
the Oso fire, the Cerro Grande fire, and which now abuts our 
reservation, the South Fork fire. This needs to be addressed 
and we can help as a pueblo.
    I also have some photographs that I wish to share with you, 
Senator. The property that Mr. Henry described appropriately is 
very concerning to all of us. It is very dense, very scary, and 
is very concerning to us. The fire that is presently burning, 
the South Fork fire, has been impacting our community because 
there is a potential for bigger fires. The Cerro Grande fire 
was probably a small fire that we have had, but this next 
catastrophic fire could be even bigger than that. So it is 
very, very critical that steps be made to take some issues to 
correct this issue of doing some forest thinning along those 
areas.
    So with that, Santa Clara looks forward to working with the 
New Mexico congressional delegation to ensure the preservation 
of the Valles Caldera, as well as protection of the pueblo's 
long interest in this extraordinary region.
    Mr. Chairman, Senator Udall and Senator Bingaman, again, 
thank you very much and God bless all of us.
    [The prepared statement of Governor Dasheno follows:]
 Prepared Statement of Hon. Walter Dasheno, Governor, Pueblo of Santa 
                          Clara, Espanola, NM
    Senator Bingaman, Senator Murkowski, members of the Committee, 
thank you for allowing me to appear before you to present these 
comments on S. 3452, the Valles Caldera National Preserve Management 
Act. I am Walter Dasheno, and I am the Governor of the Pueblo of Santa 
Clara, a federally recognized Indian Pueblo situated about 25 miles 
north of Santa Fe, New Mexico. I want to thank Senator Bingaman and 
Senator Tom Udall of New Mexico for having introduced S. 3452, and I 
appreciate the opportunity to be able to present the views of the Santa 
Clara Pueblo on this bill, as it addresses matters that are of the most 
profound importance to Santa Clara. Santa Clara Pueblo's lands actually 
include a portion of the former Baca Ranch, and our lands directly abut 
the Valles Caldera National Preserve. More importantly, the Pueblo's 
members have extensively used, occupied and managed large areas of the 
Pajarito Plateau and the Valles Caldera for many centuries, since long 
before the white man came to this hemisphere, and we have deep and 
abiding ties to this land. It continues to be a source of materials for 
traditional uses and a place of worship for us, and even though we have 
lost the right we once had, to freely roam over the land and treat it 
as our own, we continue to feel a deep sense of stewardship for the 
land, and want to be sure that our experience and our ongoing cultural 
connections with the land are given due consideration in any decisions 
affecting the future of this extraordinary place.
                              introduction
    Santa Clara Supports S. 3452. I want to say at the onset that we 
generally support the bill, and we very much appreciate that Senators 
Bingaman and Udall have undertaken this initiative. As I will explain 
further, we are especially pleased to see that the bill includes 
language attempting to accommodate the very important traditional and 
cultural concerns of Santa Clara and the other Pueblo Indian tribes 
located near the Caldera, but we also have a number of concerns as to 
specific provisions of the bill that we do want to bring to the 
Committee's attention.
        santa clara's long relationship with the valles caldera.
    As many of you may be aware, when Congress first passed the Valles 
Caldera Preservation Act, in the year 2000, pursuant to which the 
United States acquired most of the Baca Ranch, Santa Clara was 
extremely fortunate that Congress made provision in that Act for Santa 
Clara to reacquire the portion of the Baca Ranch that included the 
upper reaches of Santa Clara Canyon, an area that we have always 
referred to as Popii Khanu. This land is part of Santa Clara's 
heartland, and has been used and occupied by the Pueblo since time 
immemorial. Our rights in that land, along with the rest of Santa Clara 
Canyon, were fully recognized by the Spanish territorial government in 
the 18th century, but after the United States acquired the New Mexico 
territory in 1848, American authorities essentially ignored our rights, 
and the original patent to the Baca Ranch was issued in clear disregard 
of those rights. Regaining full control over Popii Khanu in the year 
2000 was a major accomplishment for Santa Clara.
    Consequently, from its inception, we have been a close neighbor of 
the Preserve, and we have worked closely with the Valles Caldera Trust, 
which was created by the 2000 Act to oversee and manage the Preserve, 
and with the Forest Service, which currently has ultimate jurisdiction 
over the Preserve, to improve the Preserve's environment. As I will 
explain, moreover, we are directly affected in a variety of ways by 
actions concerning the management and operation of the Preserve, and it 
is therefore a matter of real concern to us that we are able to 
continue to maintain a close relationship with the Preserve's new 
managers, once this bill is enacted into law.
        recognition of pueblo cultural concerns in section 3(i)
    Our connection to the Valles Caldera Preserve is not limited to the 
area of Popii Khanu, nor is it merely a matter of natural resource 
management, although that is an important aspect of our concern, as I 
will explain. More importantly, Santa Clara, like several other Pueblos 
located near the Preserve, maintains a vital connection with numerous 
trails, sites, shrines and areas located throughout the Caldera, for 
the practice of our traditional religion through ceremonies, gathering 
of medicinal and ceremonial plants and other materials, traditional 
hunting rituals and in many other ways. These sites are not artifacts 
of ancient civilizations, but rather are places of present-day worship, 
that have ongoing significance to and involvement in our religious 
practices, which remain a powerful binding force within our community. 
Indeed, the Valles Caldera contains a large number of sites that have 
traditional and religious significance not only to Santa Clara, but to 
other nearby Pueblos.
    We are therefore very pleased with the language contained in 
Section 3(i) of the bill, which requires the Secretary of the Interior 
to ensure the protection of traditional cultural and religious sites in 
the Preserve and to provide access to such sites by tribal members for 
traditional cultural and customary uses, and provides for temporary 
closure of parts of the Preserve to protect the privacy of those 
traditional cultural and customary uses. The absence of any such 
language in the original Valles Caldera Protection Act was a glaring 
omission, and we welcome this belated recognition of the Caldera's 
traditional and cultural significance to the Pueblos. We look forward 
to working closely with Interior officials as they develop the 
management plan for the Caldera, pursuant to Section 3(b)(4) of the 
bill, to assure that these vitally important provisions of the law are 
fully and thoughtfully implemented in that plan, and that the plan 
fully carries out their intent, while maintaining appropriate respect 
for the necessary confidentiality of our traditional practices.
educational program pursuant to section 3(d) should incorporate pueblo 
                            cultural issues
    But we believe that the bill needs to go further in acknowledging 
the traditional and cultural importance of the Caldera to the Pueblo 
tribes that surround it. For example, Section 3(d) of the bill, 
referring to the science and education program that is anticipated to 
be carried out at the Preserve, makes only scant reference to the 
``cultural resources of the Preserve.'' In fact, the relationship of 
the Caldera to the Native American cultures that surround it is as 
complex, profound and significant as is the geologic history that 
created the Caldera. While, of course, we, like other Pueblos, will 
always insist on maintaining the confidentiality and privacy of our 
traditional religious practices, much has already been published about 
Native American cultural affinity to the Caldera, and we believe that 
the legislation should make clear that this aspect of the Preserve--its 
existence as a vital place of worship for many Pueblo religious 
practitioners--should be given prominent emphasis in any educational 
program designed by the Park Service for visitors to the Preserve. 
Indeed, since increased public visitation to the Preserve is an 
apparent goal of the bill, it becomes all the more important that 
visitors to this magnificent natural landmark be fully informed of its 
cultural and religious significance to the Pueblos located around it, 
not only to give them a more profound appreciation of the Preserve, but 
also to help assure that they will approach the land with an 
appropriate sensitivity to and respect for our traditional practices 
and the locations where we engage in them.
     santa clara opposes caldera rim trail concept in section 3(k)
    For directly related reasons, we must say that we are seriously 
opposed to the proposal set forth in Section 3(k) of the bill, which 
contemplates studies leading to the establishment of a Caldera Rim 
Trail. While this provision appropriately attempts to accommodate Santa 
Clara's concerns for the privacy of its traditional activities within 
its reservation lands, as I have stated above, the fact is that Santa 
Clara, like other Pueblos, has vitally important traditional sites 
located throughout the Preserve, sites whose protection the Secretary 
is required to ensure under Section 3(i). We believe that the concept 
of a hiking trail around the rim of the Caldera is fundamentally 
incompatible with the Secretary's obligation to protect and assure our 
access to those sites. Such a trail would unavoidably pose a direct 
conflict with traditional sites and practices, and we would urge that 
that provision be deleted from the bill. If, despite our request, the 
Committee decides to retain this provision, we would urge that it 
include a requirement that in conducting these studies, the Secretaries 
will specifically consult with the various Pueblos with respect to 
their concerns about traditional and cultural shrines and other sites, 
and that they will pay special attention to the requirements of Section 
3(I), including ensuring that any trail that results from these studies 
is routed in a manner so as to eliminate the risk of intrusion on any 
area identified in those consultations as having traditional cultural 
and religious importance to a Pueblo.
       ban on development of peaks is important, with exceptions
    We believe that the bill appropriately places off-limits to 
development and motorized access the volcanic domes and other peaks 
within the Preserve, in Section 3(h), but we do note that in a few 
instances, Santa Clara must utilize roads that cross into Preserve 
lands on Cerro Toledo and other peaks on our boundary that are above 
9,250 feet in order to obtain access to portions of Popii Khanu that 
are otherwise inaccessible. We believe that the exceptions set forth in 
Section 3(h)(3) assure that we will be able to continue to have that 
access, but we want to note that that is an important consideration to 
Santa Clara and we want to be sure that those exceptions will remain in 
the bill. Similarly, we wish to call attention to the importance of 
Section 3(g), which withdraws the Preserve lands from entry under any 
public land laws, mining laws and mineral leasing laws, especially 
including geothermal leasing. It is critical that this land be 
permanently protected from any further efforts by private individuals 
and companies to exploit its natural resources for commercial gain.
     santa clara's critical concerns regarding forestry management
    In addition to having very substantial ongoing traditional and 
cultural concerns as to the Preserve, Santa Clara also has a very 
strong and important interest in the management of the Preserve's 
forest resources, especially those located in the northeast quadrant of 
the Preserve, near Santa Clara lands. Santa Clara has put together a 
large, highly skilled and very active forestry department, that 
maintains an ongoing, proactive program of management of Santa Clara's 
forest lands--totaling nearly 45,000 acres--in order to preserve their 
health and their long-term productivity. We believe that our forestry 
management practices, which have been developed over the last ten 
years, are second to none in New Mexico, in terms of their 
effectiveness in reducing disease, promoting healthy diversity and 
minimizing the danger of catastrophic fire. We would be more than happy 
to show members of the Committee and their staffs and representatives 
of the National Forest Service and the National Park Service the 
results of our efforts. But we are painfully aware of the potential 
threat posed to our lands by the fact that federal land managers have 
not been able to apply the same level or intensity of management to the 
heavily forested federal lands adjacent to Santa Clara's reservation. 
Twice in the last twelve years, Santa Clara's forest lands have been 
devastated by catastrophic fires that began on adjacent federal lands, 
once in 1998 by the Oso Complex Fire, which burned about 3150 acres of 
our land on the north side of Santa Clara Canyon, and more importantly 
in 2000, by the Cerro Grande Fire, which began as a controlled burn at 
Bandelier National Monument, but quickly spread through portions of the 
City of Los Alamos and burned 40,000 acres of highly overgrown Santa Fe 
National Forest lands before wiping out more than 7000 acres of Santa 
Clara forest. Since the Cerro Grande disaster, while doing our best to 
restore the burned areas, including the planting of approximately 1.7 
million new seedlings, we have redoubled our efforts to see that our 
unburned forest lands are maintained in such a way that any fire that 
reaches them will be more manageable and less likely to result in the 
total destruction of the forest, through controlled burns, thinning 
projects, understory removal and other advanced forestry techniques.
    I mention this to explain why we have a very acute interest in the 
management and condition of the forest lands in the northeast quadrant 
of the Preserve, adjacent to Popii Khanu. We already have a good track 
record with the Forest Service in working on projects on Preserve 
forest lands. We have been involved in several fire control and 
suppression and habitat restoration projects within the Preserve in the 
last several years, and we thus have substantial familiarity with the 
area already. We believe that in general, the condition of much of that 
area is just as problematic as were the conditions in the areas of the 
Santa Fe National Forest that stoked the ferocity of the Cerro Grande 
Fire. For example, areas of the Preserve near Santa Clara's lands are 
heavily overstocked, with up to 4000 tree stems per acre (most less 
than five inches in diameter), rather than the 150-200 per acre that 
reflects a healthy forest. In addition, we see evidence on the Preserve 
of spruce budworm disease and other unhealthy conditions. These 
conditions directly threaten Santa Clara's adjacent lands, especially 
Popii Khanu and the rest of Santa Clara Canyon, one of the most 
pristine and ecologically intact watersheds in New Mexico, as well as 
the health of vast areas of the Preserve that would be affected by tree 
kills or catastrophic fires in the upland areas. We would very much 
like to do what we can to help reduce those threats on the Preserve 
lands.
    We have very recently been reminded that these threats are by no 
means hypothetical. Just three weeks ago, lightning started a fire 
along the South Fork of Polvadera Creek, just to the northwest of Popii 
Khanu, that became known as the South Fork Fire. That fire quickly 
spread to thousands of acres just north of the Preserve boundary and 
Popii Khanu, and a Santa Fe National Forest spokesperson acknowledged 
that there was ``tons of fuel'' in the area for the fire to feed on. 
That fire spread to nearly 17,000 acres before being largely contained. 
Our crews have been assisting in fighting the fire, and thankfully, it 
did not pose a serious threat to any Santa Clara lands. But the danger 
plainly is there.
 santa clara's repeated efforts to assist in managing preserve forests
    When we first acquired Popii Khanu, in 2000, we and the Forest 
Service exchanged mutual Conservation and Access Easements, covering 
approximately 370 acres of Santa Clara land and nearly 1200 acres of 
Preserve land along our common border. The easements generally limit 
public access, prohibit construction of most types of improvements, 
restrict tree removal and ground-disturbing activity, and in other ways 
preserve the natural environment on both sides of the border. They also 
contain various provisions intended to protect Pueblo traditional 
practices in both easement areas. The Pueblo proposed including in the 
easements more detailed language regarding forest management practices 
in the easement areas, but the Forest Service was unwilling to agree to 
that language. Regardless, the easements contain important provisions 
regarding use of the easement areas, and we do believe that S. 3452 
should contain language making clear that nothing in the bill would 
supersede or otherwise limit any provision of the Conservation and 
Access Easement granted by the United States to Santa Clara with 
respect to the easement area on the Preserve side of the boundary.
    Another opportunity for Santa Clara to become involved in 
management of the Preserve's forest lands arose in 2004, when Congress 
passed the Tribal Forest Protection Act, now codified at 25 U.S.C. 
Sec.  3115a. That Act permits a tribe to request the Secretary of 
Agriculture to enter into an agreement with the tribe by which the 
tribe could engage in management activities on Forest Service lands 
adjacent to tribal lands, when those federal lands have direct ties to 
the tribal community, in situations where the condition of the Forest 
Service lands poses a fire, disease or other threat to the tribal 
forest lands and they are in need of restoration activities. We have 
submitted a request pursuant to this Act to the Santa Fe National 
Forest for such an agreement with respect to Santa Fe National Forest 
and Valles Caldera National Preserve lands adjacent to Santa Clara 
lands, and we had hoped to be able to finalize an appropriate agreement 
in the very near future. This would enable us to bring our forest 
management skills directly to bear on the adjacent federal lands, 
including forest lands within the Preserve, on a long-term basis, both 
to improve those lands and also to reduce the threat that they pose to 
Santa Clara's lands.
   tribal forest protection act should continue to be applicable to 
                                preserve
    But the Tribal Forest Protection Act does not apply to lands under 
the jurisdiction of the National Park Service. We are extremely 
concerned, thus, that S. 3452 in its present form would jeopardize our 
ability to enter into a cooperative management agreement under the 
provisions of the Tribal Forest Protection Act to help improve the 
condition of Preserve forest lands, and thereby protect our lands from 
the threats posed by their current condition. We therefore would very 
much urge the Committee to include in the bill language that would make 
the provisions of 25 U.S.C. Sec.  3115a directly applicable to the 
Preserve lands, or at least those lying within six miles of the 
boundary of Santa Clara's Popii Khanu land. We believe that with our 
demonstrated skills in proper forest management, we could do much to 
greatly improve the health of the forested lands on the Preserve. 
Indeed, we would very much appreciate the opportunity to enter into a 
broader co-management agreement with the Park Service that would allow 
us to work with the Service on forestry and other natural resource 
issues throughout the Preserve. Somewhat similar agreements have been 
authorized in New Mexico between the Pueblo of Sandia and the Forest 
Service for the west face of the Sandia Mountain, and between the 
Pueblo of Cochiti and BLM for management of the Kasha-Katuwe Tent Rocks 
National Monument. We are well aware of the extent of understaffing in 
the Park Service, as in many other federal agencies, and we genuinely 
believe that our resources, skills and experience could be of 
significant value to the Park Service in helping to protect the health 
and the long-term security of this important property.
   santa clara opposes repeal of vcpa provision re popii khanu lands
    Finally, we have a very specific concern as to Section 5 of the 
bill. Section 5 effectuates the repeal of the Valles Caldera 
Preservation Act, simultaneously with the termination of the Valles 
Caldera Trust that was established by that Act. The Preservation Act, 
at 16 U.S.C. Sec.  698v-2(g), provided the authority for Santa Clara to 
acquire Popii Khanu, and it also contains provisions establishing that 
those lands are held in trust by the United States for Santa Clara and 
are declared to be part of the Santa Clara reservation. We are 
concerned that the repeal of these provisions of the Preservation Act 
might give rise to an implication that the Pueblo's Popii Khanu lands 
are no longer part of its reservation or are no longer held in trust by 
the United States, and in other respects could jeopardize their current 
status. Additionally, Sec.  698v-2(g)(3) states that if the minerals 
underlying Popii Khanu were ever acquired by the United States, they 
would not be developed without the Pueblo's consent. The United States 
has in fact now acquired the remaining mineral interest, along with the 
minerals underlying the Preserve, in a condemnation action that was 
just concluded last year. We definitely want the prohibition against 
development of those minerals without Pueblo consent to remain on the 
books. We therefore urge that Section 5 of S. 3452 contain language 
making clear that the provisions of 16 U.S.C. Sec.  698v-2(g) are not 
repealed, but will continue in full force and effect notwithstanding 
the repeal of the remainder of the Act.
                               conclusion
    Again, we very much appreciate the opportunity to present the views 
of the Pueblo of Santa Clara, and we will be happy to continue working 
with the Committee and its staff in an effort to see that our views are 
reflected to the full extent appropriate in the final version of this 
Act. Further, we look forward to working closely with the National Park 
Service and others within the Department of the Interior in the 
development of the management plan for the Preserve, and we hope, for 
the long term, as partners in the management of the Valles Caldera 
National Preserve.
                               Attachment
                     proposed amendments to s. 3452
    1. Page 6, line 10: delete ``and'', and insert thereafter the 
following:

          (iii) provides for research into Native American cultural and 
        traditional practices and beliefs concerning the Valles 
        Caldera, but in a manner that recognizes and respects the 
        confidentiality of such practices and beliefs, and provides for 
        means of enlightening visitors to the Preserve as to its 
        cultural significance to Native American groups; and

      Page 6, line 11: change ``(iii)'' to ``(iv)''.

    2. Delete subsection 3(k) in its entirety, from Page 10, line 6, 
through Page 11, line 4.
    In the event the Committee declines to delete this subsection, we 
may have suggested language to add that would at least partially 
address our concerns.

    3. Insert new subsection 3(k) (or 3(l), if existing 3(k) is not 
deleted), reading as follows:

          (l) FORESTRY PROTECTION AGREEMENTS--Upon request of any 
        Indian tribe whose forest land abuts the Preserve, which 
        request would meet the requirements of 25 U.S.C. Sec.  3115a(c) 
        if the Preserve land were Forest Service or Bureau of Land 
        Management land, the Secretary shall enter into an agreement or 
        contract with such Indian tribe for comanagement of Preserve 
        forest lands, in accordance with the standards and procedures 
        of 25 U.S.C. Sec.  3115a, treating the Preserve lands as if 
        they were Forest Service or Bureau of Land Management land for 
        purposes of such standards and procedures.

    4. On page 14, line 17, insert new subsection (c), reading as 
follows:

          (c) STATUS OF SANTA CLARA LANDS UNAFFECTED-- Notwithstanding 
        the repeal made by subsection (a), the fee title lands acquired 
        by the Pueblo of Santa Clara pursuant to the Valles Caldera 
        Protection Act (16 U.S.C. Sec.  698v-2(g)), and any mineral 
        estate underlying such lands, including any portion of such 
        mineral estate subsequently acquired by the United States 
        pursuant to 16 U.S.C. Sec.  398v-2(e), shall continue to be 
        deemed to be held in trust by the United States for the benefit 
        of the Pueblo of Santa Clara, and to be part of the Santa Clara 
        Indian Reservation, and no portion of such mineral estate 
        underlying such lands shall be developed without the prior 
        express written consent of the Secretary of the Interior and 
        the Pueblo of Santa Clara.

    The Chairman. Thank you very much, Governor Dasheno. Again, 
I think we will go ahead and hear from the remaining 2 
witnesses and then have questions of all of the panel members.
    Mr. Vesbach, why do you not go right ahead?

  STATEMENT OF JEREMY VESBACH, EXECUTIVE DIRECTOR, NEW MEXICO 
              WILDLIFE FEDERATION, ALBUQUERQUE, NM

    Mr. Vesbach. Thank you, Chairman Bingaman, Senator Udall. 
Thank you for inviting me to testify today.
    I am Jeremy Vesbach, Director of the New Mexico Wildlife 
Federation, our State's oldest and largest sportsmen 
organization. I am here to testify in support of S. 3452, the 
Valles Caldera National Preserve Management Act.
    The Valles Caldera is one of only 3 super volcanoes in the 
U.S. and one of our most spectacular landscapes. In addition to 
its unique geology and cultural history, the caldera is of keen 
interest to hunters and anglers due to its elk herd and high 
mountain trout fishing. Hunters and anglers everywhere 
celebrated when the Valles Caldera was purchased by Congress 
and protected for the people 10 years ago.
    However, at that time, the decision to try out an 
experimental management system based on the Presidio in San 
Francisco was also implemented. Under this experiment, Valles 
Caldera is managed by a wholly owned Federal Government 
corporation known as the Trust and overseen by a board of 
political appointees who are charged with maximizing revenue to 
cover expenses. Very quickly, those of us who hunt and fish 
learned, perhaps earlier than members of the general public, 
that this system was not going to work for the average citizen.
    The first hunting season in 2002 was highly anticipated as 
the first chance the general public would ever have to go 
hunting in this jewel of the West, but that anticipation turned 
sour for hunters when the trust announced it would be charging 
access fees of $10,000 to $12,000 for some of the bull elk 
hunts. Never before had we seen a plan to charge hunting access 
fees on public land so high that it would exclude 99 percent of 
citizens from being able to hunt. Not only did this strike 
hunters as unfair. This was a marked departure from the basic 
American tenet that wildlife belongs to the people and hunting 
opportunity is allocated equally for everyone.
    That elk hunting plan ran afoul of State law, but the trust 
tried several times since then to implement exclusive access 
fees for elk hunting and has even tried to change State 
wildlife law.
    Today the trust is charging $1,950 to access the caldera 
for nearly half of the wild turkey hunts, and there is no State 
law to prevent this.
    If hunters got disillusioned early, I believe the rest of 
the public soon followed. Today while neighboring Bandelier 
National Monument hosts approximately a quarter of a million 
visitors per year, Valles Caldera, an equally spectacular 
place, hosts just 17,000. Access fees for fishing are 
substantially higher than comparable public lands, but despite 
these lower visitor numbers and higher access fees, the budget 
earmarked from Congress each year is still much higher than 
comparable public lands that serve substantially more visitors. 
Local businesses are missing out on the expected economic 
benefits. Citizens are frustrated with the lack of access. 
Furthermore, the priorities of the board of trustees have 
fluctuated greatly as new political appointees take the reins.
    It has been 10 years. The public is frustrated. The trust 
is a highly unpopular plan to commercialize Valles Caldera, and 
simply put, 10 years later, the way forward is clear. It is 
time to take a new path and implement a tried and true 
management system that we know will work so that we can restore 
this land to the people who own it.
    Our State Senate nearly 2 years ago passed a memorial with 
overwhelming bipartisan support asking the congressional 
delegation to look at 3 options for new management of Valles 
Caldera: the U.S. Fish and Wildlife Service, the U.S. Forest 
Service, or the U.S. Park Service.
    The New Mexico Wildlife Federation supported this approach 
and asked that whichever agency turned out to be the best 
choice for all the unique needs of Valles Caldera, that hunting 
and fishing opportunities be guaranteed to continue and be 
brought within reach of the average citizen to enjoy as a 
family. We have a petition that was signed by 893 local hunters 
supporting this position, and nearly 500 more local hunters 
wrote individual letters to the congressional delegation.
    I believe that you have approached this question in a 
deliberative, open, and fair manner over the course of nearly 2 
years and have come up with the only logical conclusion for the 
future management of Valles Caldera. Hunting is an important 
cultural activity but also an ecological necessity at Valles 
Caldera. S. 3452 recognizes that reality and states that 
hunting and fishing shall be permitted.
    The National Park Service preserve is a model that has been 
applied in many places since 1974, most recently at the Great 
Sand Dunes National Preserve in Colorado which shares some 
unique history with Valles Caldera. The approximately 18 
national preserves around the U.S. provide a model that we 
agree makes a good fit for the very high visitor demand and 
strong public desire for appropriate people management to 
ensure the caldera is not overrun or damaged by overuse. 
Furthermore, the caldera shares a common border with Bandelier 
National Monument, which means the National Park Service has 
existing infrastructure already close at hand for interpretive 
work and for the science and education programs the public 
would like to see expanded.
    S. 3452 ensures hunting and fishing opportunities at the 
caldera will always be within financial reach of all citizens 
and will bring the wildlife management back in line with the 
great American tradition of hunting equality. S. 3452 is the 
answer the public has been asking for and will restore the 
caldera to the people who own it.
    I strongly urge Congress to pass the Valles Caldera 
National Preserve Management Act. Thank you.
    [The prepared statement of Mr. Vesbach follows:]
 Prepared Statement of Jeremy Vesbach, Executive Director, New Mexico 
                  Wildlife Federation, Albuquerque, NM
    Chairman Jeff Bingaman, ranking member Lisa Murkowski, and members 
of the committee, thank you for inviting me to testify today. I'm 
Jeremy Vesbach, Executive Director of the New Mexico Wildlife 
Federation (NMWF), our state's oldest and largest sportsmen 
organization. NMWF was founded in 1914 by the famous sportsman/
conservationist Aldo Leopold, and helped lead the way to restoration 
and sound management of our big game herds and other wildlife species 
that we enjoy today. NMWF today represents over 10,000 hunters and 
anglers.
    I am here today to testify in support S. 3452, the Valles Caldera 
National Preserve Management Act introduced by New Mexico's Senators, 
Jeff Bingaman and Tom Udall.
    The Valles Caldera is one of America's most unique and spectacular 
landscapes. It is one of only 3 supervolcanoes in the United States and 
the oldest of the three. Only the Yellowstone supervolcano is larger 
and Valles Caldera has often been referred to as ``New Mexico's 
Yellowstone.'' If you ever go there you will quickly realize that this 
is an accurate description of this beautiful landscape and national 
treasure.
    In addition to its unique geology, the Valles Caldera also has a 
long and valuable cultural history that continues today, and this great 
valley is of keen interest to hunters and anglers due to its 
outstanding elk herd and high mountain trout fishing. For generations 
upon generations hunters have found success and inspiration in the 
Valles Caldera, and hunters and anglers everywhere celebrated when the 
land was purchased by Congress and protected for the people in 2001.
    However, at that time Congress also put in place at the Valles 
Caldera an experimental management system based on the Presidio in San 
Francisco, California. Under this experiment, Valles Caldera is managed 
by a wholly owned federal government corporation (the Trust) overseen 
by a board of political appointees, known as the Board of Trustees and 
charged with maximizing revenue to cover expenses. Very quickly, those 
of us who hunt and fish learned, perhaps earlier than other members of 
the public, that this system was not going to work for the average 
citizen.
    The first hunting season in 2002 was highly anticipated as the 
first chance the general public would ever have to go hunting in this 
jewel of the west. But that anticipation quickly turned sour for local 
hunters when the trust announced it would be charging access fees of 
$10,000 to $12,000 for some of the bull elk hunts. All the other bull 
hunts were to be raffled where some individuals could buy hundreds of 
dollars worth of chances, getting much higher odds to hunt than those 
citizens of average means. Never before had we seen a plan to charge 
hunting access fees on public land that would exclude 99 percent of the 
people from hunting.
    Never before had we seen preferential treatment for those of 
greater financial means to get the best hunts or better chances for 
hunting on public land. Not only did this strike hunters as unfair, 
this was a marked departure from the basic American tenet in the North 
American Model of Wildlife Management that wildlife belongs to the 
people, and hunting opportunity in our great Nation is equally 
available for all our citizens.
    If hunters were disillusioned early, the rest of the public was 
soon to follow. Today while neighboring Bandelier National Monument 
hosts approximately a quarter of a million visitors per year, Valles 
Caldera--an equally spectacular place--hosts just 17,000 annual 
visitors. Access fees for a half-day of fishing are substantially 
higher than other public lands. Yet, despite these low visitor numbers 
and high access fees, the budget appropriated from congress each year 
is still nearly $1 million higher than comparable public lands that 
serve a much greater visitor load. Local businesses are missing out on 
the expected economic benefits, citizens are frustrated with the lack 
of access. Furthermore, the priorities of the Board of Trustees have 
fluctuated greatly as new political appointees take the reins. When I 
or other members of the New Mexico Wildlife Federation are out tabling 
at hunting or fishing shows or talking with local hunters, one of the 
most frequent issues raised by hunters and anglers was the need to 
change the system at Valles Caldera--and not let any other public lands 
be managed this way.
    After that first experiment in 2002, where the Trust charged ultra-
high access fees to hunt on public land, some astute leaders at NMWF 
determined that it was actually a violation of state law--and NMWF was 
able to stop that system, but only temporarily.
    In 2008, under more pressure to raise money, the Trust presented a 
new plan to the State Game Commission in which it would charge $7,500 
or more for elk hunting access fees on the best hunts. Following a 
massive outcry from hunters, our State Game Commission refused to 
cooperate with the plan. The Trust then went to our state legislature 
in 2009 and tried to change state law so that they would be able to 
charge these exclusive access fees. The state legislature rejected this 
proposal, but it was disturbing to many of us that an experimental and 
wholly owned federal government corporation, overseen by presidential 
appointees and funded by congress, had tried so hard to change New 
Mexico state law regarding wildlife.
    The Trust has retained the plan to charge ultra-high access fees 
for a portion of the elk hunts and there are ways that the Trust could 
implement these exclusive hunting fees without state approval. In fact 
the Trust's ``Revenue Enhancement Plan'' also involves construction of 
a 20-unit luxury hunting lodge on our public land that would only be 
available for those able and willing to pay the exclusive access fees. 
The Trust's revenue enhancement plan also included other massive 
developments of the Valles Caldera, much of it geared towards a lower 
number of very high-paying visitors. Despite public outcry, the Trust 
said it would move forward with the plans. This is the point when the 
Trust presented a choice for the American People: either move forward 
with a plan to commercialize one of our great national treasures and 
make it a playground geared towards an elite few, or change the 
management system entirely.
    Today, the only other type of hunting currently allowed on Valles 
Caldera is wild turkey hunting. On nearly half of the turkey hunts on 
Valles Caldera, the Trust is charging almost $2,000 each for our 
citizens to access their own public land to go turkey hunting. 
Unfortunately, there is no state law to stop this. S. 3452 will end 
this system of preference and exclusiveness on Valles Caldera.
    Imagine if this model were applied to other of our nation's great 
treasures, and only those of the greatest financial means were able to 
enjoy the best opportunities on our great publicly owned places? This 
is not what our public lands are for, and understandably our State 
Senate nearly two years ago passed a memorial on a vote of 32-3 with 
overwhelming bi-partisan support, asking our congressional delegation 
to look at three options for new management at Valles Caldera--the U.S. 
Fish and Wildlife Service, the U.S. Forest Service, and the U.S. Park 
Service--and transfer management of the Valles Caldera over to the 
professional natural resource agency best designed to fit all the 
unique needs.
    NMWF strongly supported this approach and asked that whichever 
agency turned out to be the best choice for Valles Caldera, that 
hunting and fishing opportunities be guaranteed to continue and be 
brought within financial reach of the average citizen to enjoy with 
their family. Those of us most familiar with Valles Caldera believe 
that hunting is an absolute necessity and integral to the overall 
management and health of the land, in addition to its cultural value. 
S. 3452 recognizes these realities. It guarantees that hunting and 
fishing shall continue, and will restore this land to the people--all 
the people.
    I believe our Senators have approached this question in a 
deliberative, open and fair manner over the past two years and have 
come up with the only logical conclusion for the future management of 
Valles Caldera.
    Hunters, anglers and professional natural resource managers have 
asked that hunting and fishing be mandated to continue and S. 3452 
guarantees that.
    Citizens are clamoring for more opportunity to experience the 
Preserve, but are also saying loudly and clearly ``don't let it be 
over-run,'' and, ``don't let it be loved to death.'' Citizens are 
extremely concerned that the Caldera could be destroyed by over-use. 
The National Park Service (NPS) is best equipped in New Mexico to 
provide appropriate ``people management'' to protect a place with 
incredibly high visitor demand from over-use while also opening it to 
one and all. The NPS is already managing large numbers of visitors at 
Bandelier National Monument, which shares a common border with the 
Valles Caldera.
    The cultural and geological history of the Valles Caldera is unique 
in the world. Citizens want to see the science and education programs, 
a positive legacy started by the Trust, to be expanded. Citizens want 
interpretive work on the Valles Caldera ready to serve visitors and 
explain the unique natural and cultural heritage of the Caldera. All 
these demands fit best within the mission of the NPS, which is already 
doing this same type of work at neighboring Bandelier National Monument 
and can expand and share resources from Bandelier.
    The National Park Service Preserve is a model that has been applied 
in many states since 1974, most recently at the Great Sand Dunes 
National Preserve in Colorado. The approximately 18 NPS Preserves 
around the U.S. provide a model we have investigated and we agree is a 
good fit for the variety of needs that must be met at the Valles 
Caldera.
    For all these reasons I believe that Senators Jeff Bingaman and Tom 
Udall have made the only logical and appropriate choice for the people 
of New Mexico and the nation to fully experience, enjoy and protect 
this great national treasure. It is time to put Valles Caldera fully in 
the hands of the people, while ensuring its value for future 
generations. I urge Congress to pass S. 3452.

    The Chairman. Thank you very much for your testimony.
    Mr. Wismer is the Chair of the county council in Los 
Alamos, New Mexico. We very much welcome you here. Go right 
ahead.

  STATEMENT OF MICHAEL E. WISMER, CHAIRMAN, LOS ALAMOS COUNTY 
                    COUNCIL, LOS ALAMOS, NM

    Mr. Wismer. Thank you, Chairman Bingaman, Senator Udall. It 
is a pleasure to represent the community of Los Alamos in these 
hearings and to provide testimony relative to S. 3452.
    I am here today to tell you that or to testify to you that 
the community of Los Alamos and its surrounding neighbors 
strongly support inclusion of the Valles Caldera in the 
National Park Service as set forth in S. 3452.
    In addition to the cultural and natural resources of 
national significance, it offers an academic research 
opportunity that promises benefit for both present and future 
generations.
    As you know, the Los Alamos community shares a border with 
this unique site. We are both proud and protective of the 
Valles Caldera. Those of us like myself who have been able to 
gain limited access to these 89,000 acres to hike, bike, hunt, 
fish, and photograph its beauty are eager to return and share 
our experience. At the same time, there is a general 
understanding that access must be managed so that the assets 
that make this landmark so special are protected.
    The permanent preservation and professional management of 
the preserve would benefit not only New Mexico but also the 
Nation at large. Inclusion of the preserve in the National Park 
System would draw a national audience to enhance the area's 
recreational activity and increase visitation, resulting in 
support for northern New Mexico tourism and tourism within the 
county.
    I wish to express to the committee members that our 
community held a number of very actively participated-in public 
sessions. We held listening sessions throughout the community. 
In April, the county government passed a resolution unanimously 
supporting this S. based on the input from the community. There 
is widespread support in Los Alamos for this decision and this 
bill.
    The preserve's proximity to Bandelier National Monument 
presents a unique opportunity to consolidate management of the 
2 areas and generate cost savings. Joint management of these 2 
park sites will serve to enhance communication and integrate 
management programs that require a regional approach such as 
fire management, law enforcement, and emergency response.
    With respect to the issue of fire management, which is of 
concern to all of us in northern New Mexico, we would also 
encourage continuation of the efforts that the Valles Caldera 
Trust has initiated relative to the Title IV of the Omnibus 
Public Land Management Act of 2009 which established the 
collaborative forest landscape restoration program, of which 
the Valles Caldera Trust has partnered with the Santa Fe 
National Forest to achieve grants for one of the stated 
purposes of that legislation, which is to facilitate the 
reduction of wildfire management costs. We would encourage 
consideration as the assets are assumed into the National Park 
Service, should this bill come to fruition, that that effort be 
continued and that liaison with the Santa Fe National Forest 
continue.
    We believe the National Park Service's 94 years of land 
planning and management experience qualifies them to ensure the 
preserve's continued viability, protect local cultural 
heritage, and promote appreciation and access to this precious 
site by current and future generations.
    We support--we strongly support--your effort to enact new 
legislation that assigns management of the preserve to the 
National Park Service, making this the 19th preserve in the 
National Park System.
    Thank you, Chairman.
    [The prepared statement of Mr. Wismer follows:]
 Prepared Statement of Michael E. Wismer, Chairman, Los Alamos County 
                        Council, Los Alamos, NM
    Thank you, Chairman Bingaman, Ranking Member Murkowski, and Members 
of the Committee for the opportunity to be here today. I appreciate the 
opportunity to discuss S.3452 to designate the Valles Caldera National 
Preserve (``Preserve'') as a unit of the National Park System.
    The Incorporated County of Los Alamos, New Mexico (the ``County'') 
strongly supports the Preserve's inclusion in the National Park System 
under the management of the National Park Service as set forth in S. 
3452. In addition to the cultural and natural resources of national 
significance it offers, the Preserve also abounds with recreational, 
educational and academic research opportunities that promise to benefit 
both present and future generations.
    The Los Alamos community shares a border with this unique site. We 
are both proud and protective of the Valles Caldera. Those of us who 
have been able to gain limited access to these 89,000 acres to hike, 
bike, hunt, fish or photograph its beauty are eager to return and share 
our experience. At the same time, there is a general understanding that 
access must be managed so that the assets that make this landmark so 
special are protected.
    The permanent preservation and professional management of the 
Preserve would benefit not only New Mexico but also the nation at 
large. Inclusion of the Preserve in the National Park System would draw 
a national audience to enhance the area's recreational activity and 
increase visitation, resulting in support for Northern New Mexico 
tourism and tourism within the County.
    Although the Preserve currently contains 35 miles of designated 
trails and supports a spectrum of recreational activities, visitation 
rates for the area have remained below those typically expected for an 
area of this size and significance, as indicated by recent NPS 
findings. Management by the NPS could expand unrestricted public access 
and provide for facilities essential to public enjoyment. Increased 
public use of, and appreciation for, the Preserve will result in 
increased demand for recreation and convenience goods and related 
services, thereby positively impacting the Los Alamos, Jemez Springs 
and the Northern New Mexico economy, stimulating growth in the area, 
and creating sustainable economic development. Importantly, the 
Preserve's size will ensure continued support for both public enjoyment 
and sustainable resource protection into the future.
    Enhanced public access to the Preserve is also likely to uphold its 
educational, cultural and scenic values. This relatively unspoiled 
resource would further expand and enhance the diversity of volcanic 
sites represented by other parks in the National Park System, as one of 
the best intact examples of a resurgent caldera in the world. Further, 
the Preserve uncovers a unique cultural history with many sites of 
special significance to Native American communities. There are 
currently 485 documented historic and archaeological sites in the 
Preserve. In addition, the Preserve has set up important facilities 
that educate visitors and the community that must be continued such as 
the new Science Education Center in Jemez Springs.
    On March 4th and 9th the County Council held public hearings on the 
Valles Caldera. Key issues raised by the community include the need to 
protect the Preserve while providing access and the need to continue to 
permit historical hunting and fishing privileges. Further, many people 
expressed the importance of providing recreational access for hiking, 
camping and biking access traditionally allowed by the National Park 
Service.
    On April 6th of this year, following weeks of extensive vetting 
with the public and the two formal public hearings, the County Council 
unanimously approved a resolution recommending the transfer of 
management of the Valles Caldera National Preserve from the Valles 
Caldera Trust to the National Park Service under the U.S. Department of 
the Interior--to be managed as a preserve.
    Congress has designated just a handful of preserves under the 
National Park Service, including New Mexico's own White Sands National 
Monument. As confirmed by the Park Service's own assessment, the Valles 
Caldera's size, configuration and relatively unspoiled landscape of 
mountain forests and grassland valleys ensure long-term public 
enjoyment and sustainable resource protection--making it a perfect fit 
for the National Park system.
    Furthermore, the Preserve's close proximity to the Bandelier 
National Monument presents a unique opportunity to consolidate 
management of the two areas and generate cost savings. Joint management 
of these two park sites will serve to enhance communication and 
integrate management programs that require a regional approach, such as 
fire management, law enforcement, and emergency response.
    As shown in the Updated Report on the NPS 1979 New Area Study, 
published a couple of months ago, the Preserve contains nationally 
significant resources, is suitable for inclusion in the National Park 
System, and can feasibly be managed by the NPS. Further, there is 
demonstrated public interest and support for transferring the 
Preserve's management to the NPS. Thus, the Preserve meets the required 
criteria for inclusion in the National Park System.
    We urge Congress to expedite the transfer of management of the 
Valles Caldera National Preserve to the National Park Service so that 
the NPS can offer responsible public access without legislative 
constraints as part of a temporary plan, while conducting its 
comprehensive, public planning process for the future.
    We believe that the National Park Service's 94 years of land 
planning and management experience qualifies them to ensure the 
Preserve's continued viability, protect local cultural heritage, and 
promote appreciation of and access to this precious site--by current 
and future generations.
    We support your effort to enact new legislation that assigns 
management of the Preserve to the NPS, making this the nineteenth 
preserve in the National Park System.

    The Chairman. Thank you very much for your testimony.
    Let me defer to Senator Udall at this point to make his 
opening statement. He was not able to be here. I think he was 
presiding over the Senate when we started the hearing. So why 
do you not go ahead with that and then go ahead with your 
questions? I will come after you.

           STATEMENT OF HON. TOM UDALL, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Udall. Thank you very much, Senator Bingaman.
    You are correct. I wanted to be here from the beginning, 
but I was presiding over the Senate. I was unable to find a 
substitute.
    But it is wonderful to arrive and, Senator Bingaman, always 
a pleasure to work with you on a piece of legislation. Your 
staff has been remarkable, and your committee staff.
    All the witnesses today, thank you for your testimony.
    Today we are gathered to discuss the future of one of New 
Mexico's and our Nation's finest treasures, the Valles Caldera.
    I would like to acknowledge those--I have acknowledged our 
witnesses here but also acknowledge those who are not 
participating directly in the hearing but have contributed and 
continue to contribute suggestions on improving the legislation 
under consideration today, most especially the employees of the 
Valles Caldera Trust, many of whom have submitted suggestions 
and worked with my staff and Senator Bingaman's staff to 
improve the bill. The direct knowledge of the landscape, the 
resources, and the workings of the caldera that these 
individuals hold is fundamental to making this the best 
possible legislation for the long-term sustainability of the 
preserve. I greatly appreciate the efforts of the trust's staff 
to work with congressional staff on this legislation.
    I also greatly appreciate the years of dedicated service 
that these individuals have given to the Valles Caldera and the 
management experiment that they have been a part of. I know 
that the work of these trust employees is a labor of love and I 
applaud their dedication to the natural wonders of the caldera. 
Should this legislation become law, I look forward to 
continuing to work with those currently employed by the trust 
to ensure a smooth transition to the Park Service.
    An icon of the Jemez Mountains, the Valles Caldera is one 
of the largest volcanic calderas in the world. The vast grass-
filled valleys, forested hillsides, and numerous volcanic peaks 
make the Valles Caldera a treasure to New Mexico and a 
landscape of national significance, millions of years in the 
making. It is with humility that we take on the great 
responsibility of determining the best course of management of 
the area.
    Volcanic activity began in the Jemez Mountains about 10 
million years ago. This activity reached a climax about 1.5 
million years ago with a series of eruptions that dropped 
hundreds of meters of volcanic ash for miles surrounding the 
caldera and gave the surrounding area its distinctive 
landscapes of pink and white tuff overlaying the black basalt 
of the Rio Grande rift.
    For generations innumerable, the Valles Caldera has been a 
part of the life of the pueblo tribes of northern New Mexico, 
and we saw that exhibited today in our 2 pueblo Governors' 
testimony, Governor Madalena and Governor Dasheno. Today the 
caldera continues to have important cultural and religious 
significance, something that must and will be respected and 
protected should the preserve move into the management of the 
National Park Service.
    With the heavy mandate of self-sufficiency looming over the 
annual struggle to get sufficient funding for the caldera, 
Senator Bingaman and I have proposed a new direction for the 
caldera, and as a new unit of the National Park Service, the 
National preserve will have a sustainable future with greater 
access to the public. Since 1939, the National Park Service has 
conducted numerous studies of the Valles Caldera. In each, the 
Park Service consistently deemed the area of significant 
national value because of its unique and unaltered geology and 
its singular setting. In the legislation under consideration 
today, the Secretary of the Interior is directed to continue 
the longstanding grazing, education, and hunting programs that 
so many New Mexicans value as a once-in-a-lifetime opportunity. 
By utilizing the resources and skills within the National Park 
Service, I believe the Valles Caldera National Preserve will 
continue to prosper as a natural wonder full of significant 
geology, ecology, history, and culture.
    We have already heard from the witnesses, and Senator 
Bingaman, I will maybe ask a question or 2 and then I am 
looking forward to your questions and looking forward to the 
answers.
    The Chairman. Go right ahead.
    Senator Udall. Governor Dasheno, in your testimony you 
mentioned the coordination that the Pueblo of Santa Clara has 
had with the Forest Service in the forests that border the 
pueblo lands. I have actually, I think, been up there with you 
on those lands when we worked on the original idea of having 
your religious lands when the Baca purchase was made, that they 
become a part of your pueblo and the Lannan Foundation, I 
think, facilitated that.
    Could you describe this coordination and how the pueblo was 
able to coordinate such agreements with the Forest Service?
    Mr. Dasheno. Senator, let me just give you another piece of 
information that just recently happened. As you are aware, 
there is the South Fork fire going on in New Mexico, and it 
abuts our reservation to the north. The fire team was supported 
through the efforts of a type 2 team under the leadership of 
Clay Templin, who is the manager for the fire team from Arizona 
in the southwest area. They brought in a team to provide all 
the things that we identified, cultural protection, watershed 
protection, and coordination and support through our efforts 
with the Pueblo of Santa Clara. This was truly a team effort 
that took place, and they addressed all of these issues that we 
talked about, cultural resources protection, advice, all those 
things that require fire management.
    So it started not just at this point, but in the past we 
have had arrangements with the Forest Service to help us do 
some tree thinning projects. We have had opportunities where we 
coordinate management agreements on what we feel are concerns 
as far as partnerships. As a matter of fact, we have a 
management agreement called the Valles Caldera Protection Act 
which somewhat protects the cultural and the forest resources 
that we have. As late as this morning, we met with the Forest 
Service and we talked about a new agreement that we would like 
to introduce that gives us more latitude and more flexibility 
and working in partnership and doing some major thinning 
efforts because right now, as I mentioned in my oral testimony, 
there are literally thousands of acres of forest lands that 
need to be thinned out. In talking with our local district 
manager, he said that they would support our efforts. We talked 
to the area manager, they would support our efforts.
    So, Senator Bingaman, our history with the Forest Service 
goes back many, many years. So all I can say is that they have 
done good projects with all of us, and as late as this year, 
through funding assistance under ARRA, they funded a major 
project to do some work for us and with us in the Santa Clara 
Pueblo area. So that is the relationship that we have had with 
the Forest Service.
    Senator Udall. Thank you, Governor Dasheno.
    Governor Madalena, can you describe for the committee the 
difficulties that the Jemez Pueblo has had over time in 
accessing the religious and cultural sites in the Valles 
Caldera and was the pueblo able to access religious sites and 
conduct ceremonies when the caldera was in private ownership 
which preceded the preserve? Is there any need for more access 
to the caldera than currently exists under the trust?
    Mr. Madalena. Thank you, Senator Udall. I think one of the 
things that we all need to understand is we, as Jemez people, 
one of the most important things that we cherish is the Valles 
Caldera. The Valles Caldera, like I said in my testimony, is 
the mother who we are. It sustains us and has sustained us for 
thousands of years. Wavema is the heart of our people. It is 
the Redondo Peak, as you call it. It is what gives us life. It 
is what gives us strength. It is what gives us courage. It is 
what gives us our identity.
    Earlier we talked about fire and the fire restorations and 
thinning. You folks see it as a fire. We see it as destruction 
of our herbal gathering areas, destruction of our cultural 
properties, destruction of our headwaters because the Rio 
Jemez, the headwaters, is within the Valles Caldera. It has 
sustained us and that is why we cherish it and consider it a 
cathedral.
    I think one of the most important things that we also need 
to understand is that when that destruction happens, the water 
flows down into the pueblo that has been contaminated by the 
fire and we consume it. We irrigate our fields with the water 
that has been contaminated. So thinning is a big concern. 
Restoration is a big concern.
    Like I stated, we support the bill under numerous 
conditions and we also have filed our testimony with a longer 
version to you folks.
    For centuries, our elders, our ancestors suffered a great 
deal when it came under private ownership. We were not allowed 
to practice our way of life, practice our tradition and 
culture, what gives us our identity. We have our freedom of 
religion that continued to be violated and violated and 
violated, and our people continued to suffer. When our 
traditional ways and values are violated and we no longer 
practice our way of life through our dances, sing in our own 
language, our people suffer because we as Indian people, 
especially as Jemez people, when we do our dances, we are also 
praying for all of you folks. We are praying for the world.
    As time came, you folks call it property. We call it our 
mother. It continued to be transferred from one entity to the 
next, and one of the things that we kept saying as the Jemez 
people is that we have gods, we have kachinas, we have the 
spirits that are within the caldera that you folks continue to 
transfer from one entity to the next. You continue to anger the 
gods, the kachinas, the spirits. When we die as Jemez people, 
our spirits will live among the Valles Caldera continuing to 
bless my people and all of you. So as the Valles Caldera 
transfers from one property to the next, I think the greatest 
thing that happened was at that point in time and juncture was 
it was transferred to the Valles Caldera National Preserve.
    We support the Valles Caldera. We have had a great 
relationship with the Valles Caldera. They have allowed us to 
do our dances, to do our songs, to do our rituals, do our 
ceremonies within the preserve. But we as the Jemez people 
continue to look in the future for our children and their 
children and their children because we will continue to stay 
here. We will stay. We will live in Jemez. The Jemez Mountains 
will always be the Jemez Mountains. The preserve will always be 
our mother. We will always do our dances and songs and our 
rituals on the caldera as we have done for hundreds and 
thousands of years.
    The National Park Service, as you understand, is a concern 
because the National Park Service are about bringing the public 
into an area where they have no understanding. They do not 
understand what we know and how we cherish and how we worship 
this area. The National Park Service bring in the public and we 
are talking about hundreds and thousands of people where our 
ancestors are living, where we have tribal cultural properties 
by the thousands. So it is a concern for the Jemez people. For 
the Jemez living in Walatowa today, by force we live in 
Walatowa. If we had a choice, we would continue to roam in the 
Jemez Mountains today. We hope that 1 day that we can go back 
to our mother. We all cherish our mothers. We want to go back 
home.
    But we have also got to talk about today and the future, 
its protection. We conditionally support the bill, but we also 
support the Valles Caldera Preserve because they have done a 
wonderful job in supporting our needs. I was told recently that 
this bill will allow you Jemez people to no longer do your 
worshipping in the dark. You have admitted that you are 
allowing or have pushed Jemez to worship in the dark and that 
we will no longer worship in the dark and that will worship in 
the light. It should have been that way from time immemorial as 
we had done before the European contact in the area.
    So my answer to all of your questions is that we will do 
what is in the best interest for the pueblo of Jemez for our 
people, and we are doing it also for our ancestors. Our 
ancestors continue to ask for those lands to be returned, but 
they were denied, as I stated earlier, even with the access.
    We have an excellent working relationship as well with the 
Jemez ranger district. The Forest Service has also done a 
wonderful job to meet the needs of the Jemez people. But 
always, always, Senators, there is always a funding issue. I 
believe the Valles Caldera was already set up to fail in the 
beginning because of the limited amount of funding that was 
provided to them and for them to sustain themselves the best 
way they could, and they did the best they could.
    But we also as the Jemez people have got to take a look 
at--as stated earlier, I want to make sure that the herbs, the 
medicine that is within the Valles Caldera also be protected 
for the Jemez people because we will continue to consume those 
medicines and those herbs for thousands of years that we will 
continue to live in those areas. We are going to stay. We are 
staying.
    So, Senator Udall, I hope I answered your questions.
    Senator Udall. Thank you, Governor Madalena. I want to 
thank both Governors and the religious leaders that came from 
Jemez to be here with us and the blessings that they brought 
upon this committee hearing.
    You have raised clearly some very important issues. We want 
to work with you on those issues in this legislation, as we 
have been doing leading up to this hearing and as will happen 
subsequent to the hearing.
    So with that, Senator Bingaman, let me just thank you once 
again for allowing me to participate in this. You have been an 
excellent partner. I think we have worked on this for many, 
many years. So I am finished with my first round here, and if 
we have time, maybe I will ask a few additional questions.
    The Chairman. Thank you and thanks for the good work you 
have done on this and all the other joint efforts we undertake 
here.
    Let me just ask each of the Governors a question. Governor 
Dasheno, one of the interactions that Santa Clara Pueblo has 
with the Park Service is with Bandelier National Monument. As I 
understand it, the Park Service has a tribal outreach program 
where they have affiliated pueblos that work with them in 
connection with Bandelier Monument.
    Have you had experience with that? Do you think that has 
worked? Do you think something like that is useful? If this 
were to become part of the responsibility of the Park Service, 
should that occur here as well?
    Mr. Dasheno. Senator Bingaman, certainly we look forward to 
what will be done. Of course, as part of this process, one 
recommendation that we will make is to possibly look at an 
opportunity to be part of the management team. We talk about 
Federal agencies, but I feel that tribal government should be 
part of the management team to be part of what recommendations 
would be developed.
    Just Monday before I came, I met with the superintendent 
from Bandelier, and we talked specifically on this question. 
What do we do should transfer occur with the Valles Caldera? We 
have an agreement in place, but I suggested to him that I want 
to go beyond that. I want to develop a long-term partnership in 
terms of what we do and what we look at, programs such as 
interpretation, programs such as accessibility, programs such 
as cultural protection, programs such as farm management, 
programs such as exchange programs where we have some of our 
tribal people to be trained in how to manage these types of 
resources.
    So, Senator Bingaman, I do support what you are suggesting, 
and we have talked about that with the superintendent as of 
this past Monday. So we already have an existing agreement in 
place, but we are going to expand that not specifically just 
because of Valles Caldera but because of what relationship I 
feel we need to become better partners with the National Park 
Service because there are issues that we face. We have had a 
good relationship. We do not necessarily always agree, but we 
do not necessarily always disagree either. So I feel that this 
is a challenge for all of us to begin to become better partners 
in this process.
    But I also feel that the Forest Service should also be a 
part of this partnership because of the Tribal Forest 
Protection Act. There are issues that are in place that need to 
be considered.
    So with that, Senator Bingaman, I certainly appreciate what 
you are doing. Obviously, our concerns are to work with both of 
you and to see what we can do to make sure that all of these 
issues are encompassed in this partnership between Federal, 
State, and local communities and local governments, including 
ourselves. This truly could become a partnership that includes 
and expands into co-management. We talked about co-management 
as an issue. So there is co-management that could be introduced 
to expand on what the plan is going to be for the future. I 
realize that it is going to take up to 3 years to develop a 
plan and to incorporate an implementation package. So I hope 
that when it becomes a reality, that we will be at the table 
with all of you and all of us working together.
    Thank you very much.
    The Chairman. Thank you.
    Governor Madalena, let me ask you about the provisions in 
current law, as well as in the proposed bill, related to 
development or motorized access particularly on Redondo Peak 
but other of the volcanic domes and peaks in the preserve as 
well. As I understand it, current law really has some 
protection in there above 10,000 feet with regard to Redondo 
Peak but nothing with regard to other peaks and domes in the 
Valles Caldera.
    What are your thoughts on those restrictions and whether 
they are adequate in what we have proposed or whether they 
should be different?
    Mr. Madalena. Chairman Bingaman, I believe that one of the 
issues that we had discussed previously in our meetings is that 
Jemez' recommendation was to lower the elevation and protect 
all of the peaks and all of the domes within the Valles Caldera 
because all of them are sacred to the Jemez people, and we 
continue to go on these domes and peaks to worship and pay 
tribute to our spirits. I think one of the things that I had 
made a recommendation to you folks was for the Jemez people 
that the elevation be dropped down to the base of each peak, 
and I believe that your compromise or in the bill it states it 
was dropped down to 9,250, which also protects the other domes 
in the area which we really do appreciate.
    I think one of the things that we are very concerned is 
motorized vehicles are not allowed above 9,250. Our concern is 
the National Park Service will bring in hundreds of thousands 
of people and not understanding Jemez' way of life and our 
culture and the tribal cultural properties that are within the 
thousands in those areas will be desecrated. Right now, the 
Jemez people believe that we also need to implement or amend 
the bill to add that no hiking be allowed above 9,250 with 
respect to the Jemez and all of the cultural properties that we 
have in these areas. We wish that the domes themselves, the 
peaks would be protected down to the base because from the top 
down to the base are medicinal herbal gathering areas when we 
do our religious activities. So it concerns us greatly that 
these areas will be trampled by people out of curiosity as 
western civilization is always curious about the first people, 
the Native Americans, especially the pueblo people, the Jemez 
people. So those are the areas that really concern us.
    With respect to the bill, I would like for the Jemez to 
continue to be consulted and continue to be on the table when 
these discussions are going to be spoken. I think that was the 
request before, but I do believe that I stated earlier we have 
testimony that we filed, a longer version, and many concerns 
that we have within the Valles Caldera.
    So one of the things that we totally do not want is access 
to these domes and peaks, especially during the times when we 
close these areas because we will definitely close these areas 
because the curiosities are always around taking photographs. 
It is of great desecration to do that.
    The western civilization is always curious on how we live 
our lives and how we practice our way of life.
    We continue to provide offerings and tribute to the great 
spirits so they can continue to provide us with sustenance and 
also we are always paying tribute on behalf of you Senators and 
the United States of America from President Obama, Congress, to 
all of the communities within what we call the United States of 
America.
    Thank you.
    The Chairman. Thank you very much.
    Senator Udall, did you have additional questions?
    Senator Udall. I wanted to ask Chairman Wismer. You know, 
your county has interacted with Bandelier National Monument, 
and you have experience with that. Based on the county's 
interaction with the Park Service at the monument, what kind of 
difficulties or successes would you expect to experience with a 
new unit of the Park Service at the Valles Caldera?
    Mr. Wismer. Thank you, Senator, for that question.
    Yes, we have engaged in many aspects with the staff of the 
Bandelier National Monument and with their superintendent.
    Based on the hearings that we had and the very vocal public 
input that we had, I would answer that question by saying we do 
not anticipate very many problems at all. In fact, Senator, we 
would believe that the requirement that is put in the 
legislation for consultation and collaboration with the public 
and the pueblos will satisfy the need to work with them. We 
have discussed the potential management plan that they would 
put together and how we could most likely take part in that 
management plan because it affects many of our citizens and the 
access that they require, and they have been open and 
receptive.
    Our citizens have also underscored the scientific 
management principles that are being used at the Valles Caldera 
currently now by the staff, and the Bandelier staff has 
embraced a lot of the work that is being done on the preserve 
as it is now and that is very satisfactory to our community.
    So we anticipate a strong bond and a strong relationship as 
this process moves forward of initial opening by the Bandelier 
National Monument and then the subsequent 3 years to put 
together a management plan that is done in collaboration and 
open communication with the entire community.
    Senator Udall. Thank you.
    Director Vesbach, do you believe that the bill as written 
gives adequate protection for continued hunting and angling in 
the Valles Caldera under the management of the Park Service?
    Mr. Vesbach. Senator Udall, we do believe that. That was a 
critical consideration for our support of the bill, and we 
believe that the language does guarantee that hunting and 
fishing will be permitted on the preserve. Like I said, that is 
an ecological necessity in addition to being an important 
cultural activity. We have also looked at other national 
preserves out there and feel that they are a good model. Big 
Thicket, the first one, has recently expanded their hunting 
opportunity, and I think as hunters engage with the Park 
Service, the Park Service will find that this is a real 
necessity on the preserve.
    Senator Udall. Have your members had good experiences with 
other units of the Park Service in terms of hunting and 
angling?
    Mr. Vesbach. We spoke with the Colorado Wildlife 
Federation, for instance, with Great Sand Dunes National 
Preserve, the latest one. They said, yes, there has been good 
interaction there. That unit has a national park that you have 
to go through to get to the preserve, and that caused some 
issues, but the preserve designation itself--what their thought 
was if they had made more of it a preserve, it would have been 
better. The preserve portion everybody was happy with.
    Senator Udall. Thank you very much. Thank you to all the 
witnesses today. Thanks again, Chairman Bingaman.
    The Chairman. Thank you all very much. It has been useful 
testimony, a useful hearing. Thank you again for rearranging 
your schedules to be here on short notice. I very much 
appreciate that.
    We will leave the committee record open for a week, and so 
we would ask if you have any additional comments or ideas or 
suggestions that you would like to submit to the committee, 
please try to do so by the end of business next Wednesday if 
possible or by the end of next week. There will still be time.
    But we appreciate you all being here, and we will try to 
take your good suggestions and take those into our thinking as 
we try to proceed forward.
    That will conclude our hearing. Thank you.
    [Whereupon, at 4:07 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

  Responses of Hon. Walter Dasheno to Questions From Senator Murkowski
    Question 1. In your mind, who would be the best steward of the 
Valles Caldera, the Park Service, the State, the Forest Service, or 
would you prefer to see the land turned over to the Pueblos jointly 
manage?
    Answer. We believe that the Park Service is well-suited to manage 
the Preserve but as we stated in our testimony, we believe that 
involving Santa Clara in co-management of the forested lands would, in 
our view, greatly improve the quality of management of those lands.
    Question 2. Do you believe the Park Service will continue both 
grazing and hunting on the Preserve into the future?
    Answer. We expect that the Park Service will manage the Preserve in 
accordance with its best judgment as to preservation of the natural 
resources there. How that will affect specific activities we are unable 
to say.
                                 ______
                                 
     Responses of Daniel N. Wenk to Questions From Senator Bingaman
    Question 1. As a result of significant logging when the land was in 
private ownership, the forests in the Preserve are in need of 
significant restoration work. Can you describe the authority and 
experience the National Park Service has to apply to forest restoration 
treatments in the Valles Caldera?
    Answer. The National Park Service (NPS) and Bandelier National 
Monument have a broad range of experience in forest and vegetation 
restoration using best available science, monitoring and evaluation, 
and adaptive management to achieve approved land management goals. 
Forest vegetation restoration programs within Bandelier involve 
collaborative efforts from all levels of NPS and focus on ecological 
restoration for the long term.
    Bandelier continues to use mechanical treatments (thinning), 
prescribed fire, and managed fire for ecological benefits. All of these 
efforts are in collaboration with park staff, other interagency 
partners, and the local community and decisions are directly related to 
the fire ecology program. Bandelier staff have experience with 
landscape-scale ecological restoration treatments, initiating the 
scientific and archeological study of erosion and unnatural fire 
conditions on its mesa top landscape consisting of approximately 4,700 
acres of pinion juniper woodlands. Bandelier and Santa Fe National 
Forest personnel also have a collaborative fire ecology monitoring 
program to enable landscape-scale adaptive management related to 
vegetation maintenance and restoration.
    Question 2. My understanding is that Bandelier National Monument 
has participated in the development of a collaborative forest 
restoration proposal that has been nominated by regional officials from 
the Forest Service and Department of the Interior for possible 
selection under the Collaborative Forest Landscape Restoration Program 
(Title IV of P.L. 111-11). A portion of the landscape that is proposed 
for restoration treatments is within the Valles Caldera National 
Preserve. If the Preserve is transferred to the National Park Service, 
could the Park Service implement the portion of the proposal on the 
Preserve?
    Answer. The NPS can implement forest restoration at the Valles 
Caldera National Preserve (Preserve) if assigned responsibility for 
that task. The Preserve contains approximately 45 percent of the total 
acreage of the Southwest Jemez Mountain project submitted by the Santa 
Fe National Forest and Valles Caldera National Preserve under the 
Collaborative Forest Landscape Restoration (CFLRA) Program. The 
proposal was one of ten selected nationally for funding on August 13, 
2010 by the Secretary of the Agriculture. The U.S. Forest Service 
(USFS) funded $392,000 for 2010 (for activities on both the Santa Fe 
National Forest and Valles Caldera Preserve) and anticipates up to $35 
million in funding over the next ten years. Representatives from 
Bandelier National Monument have been partners with the USFS, the 
Preserve, and others in collaboratively developing the strategy for 
forest restoration.
    The NPS is a strong supporter of the CFLRA proposal as currently 
drafted. Directed toward establishing forest ecological health, 
including return of a natural fire regimen, the project envisions a 
cooperative effort among land management partners that would improve 
treatment effectiveness while reducing costs. Because wildland fire 
recognizes no boundaries, restoration of forest ecosystem health and 
reduction of the potential for destructive wildland fire will be 
important management goals if the Preserve is transferred to NPS.
    If S. 3452 is enacted, the NPS would have to develop a funding 
strategy for forest restoration at the Preserve. Projects are chosen 
competitively based on merit-based criteria.
    The potential for carrying out forest restoration at the Preserve 
under NPS management, as well as the timing of such an effort, would 
not be known until the transfer was completed and initiation of project 
fund requests was undertaken.
    Responses of Daniel N. Wenk to Questions From Senator Murkowski
    The purchase of the Valles Caldera cost the federal government $100 
million in 2000. Both in 1979 and in 2009 your agency concluded that 
the Baca Ranch would make a good National Park property. Now Senators 
Bingaman and Udall have introduced a bill to transfer the lands to your 
agency.
    Question 1. Can you give me an estimate on the amount of funds the 
Park Service has expended on the Valles Caldera Preserve since 2000 in 
hard appropriated funding as well as services-in-kind work?
    Answer. The National Park Service is a member of the Ecology Group 
(Group), comprised of staff from various federal agencies, that has 
contributed significant amounts of in-kind work to the Preserve since 
2001. The Group collaborates with and contributes to ecological 
research on the Preserve, including surveying and helping build an 
extensive riparian exclosure; maintaining a Preserve-wide rain gauge 
network; mapping prairie dog, beaver, and willow populations; fencing 
rare bog birch clumps; scouting and field-collecting hundreds of fire-
scarred tree-ring samples; coordinating and collaborating on the 
Preserve's fire program; tracking elk and turkey populations; and 
helping with a study of elk calf mortality. Because the Preserve is 
directly adjacent to Bandelier National Monument, these projects add to 
the information used by the National Park Service in its management of 
the Monument. Although it is hard to assess a contributed dollar amount 
for just the NPS, the agency has contributed an estimated $30,000 of 
in-kind work over the past decade.
    Prepared by the NPS Intermountain Regional Office's Planning 
Division, in conjunction with various partners, including the Valles 
Caldera Trust and the USFS, the Update Report on the NPS 1979 New Area 
Study, completed by NPS in December of 2009 at the request of Senators 
Bingaman and Tom Udall, cost NPS approximately $22,000 in employee time 
and travel.
    Question 2. Can you give me an estimate on the cost of bringing the 
property up to Park Service standards, including the cost of new 
infrastructure such as a visitor's center, etc.
    Answer. Based on current expenses for the Preserve and the cost to 
operate comparable NPS units, we anticipate the annual cost to operate 
and manage the Preserve would be approximately $4 million for annual 
operational costs, although more complete cost estimates would be 
developed through a General Management Plan. The initial cost to 
develop infrastructure, which may include a visitor center, a 
maintenance facility, trails, roads and parking, exhibits, could be 
about $22 million, but would depend largely on the planning process and 
the public's input into that process.
    Question 3. Can you compare and contrast the Santa Fe National 
Forests fire fighting capabilities with that of the Bandelier National 
Park's fire fighting capabilities?
    Answer. Bandelier National Monument shares fire management 
capabilities and has agreements in place with the Santa Fe National 
Forest, the Bureau of Indian Affairs, the Los Alamos National Lab, New 
Mexico State Forestry, and other partners in the Santa Fe Zone to 
utilize interagency resources during fires.
    The structure of Bandelier's fire management division is somewhat 
different from the Santa Fe National Forest. In addition to suppression 
resources, Bandelier hosts aviation, fuels management, a wildland fire 
module, and a fire ecology program, which supports a fire effects crew. 
The fire ecology program and fire effects crew are key contributors to 
basing our fire management objectives on science-based adaptive 
management. These functions all reside within Bandelier's Division of 
Fire Management and help integrate fire management activities within 
the monument and on an interagency basis.
    For the past 10 years, Bandelier National Monument has been a key 
player in the Santa Fe Zone. Bandelier National Monument manages the 
Santa Fe Zone Interagency Fire Center heliport. The type 3 contract 
helicopter and the interagency 10-person crew that serve the Santa Fe 
Zone are assigned to this facility.
    Question 4. Can you compare the fire fighting capability of the 
Forest Service to that of the National Park Service's fire fighting 
capability?
    Answer. Federal wildfire response requires an interagency and 
intergovernmental response, and therefore comparisons of the two 
agencies' capabilities are difficult to make. Both the NPS and the USFS 
are members of the National Wildland Fire Coordinating Group which 
establishes standards for firefighters and firefighting assets. NPS 
assets meet these national standards and training, as do all assets 
from DOI agencies and the USFS. In number, NPS firefighting assets are 
only a fraction of the of the USFS assets; however, all of the land 
management agencies work across boundaries on an interagency basis. 
That coordination is critical to wildland fire management and safety.
                                 ______
                                 
    Responses of Harris Sherman to Questions From Senator Murkowski
    Question 1. Can you give me an estimate on the amount of funds the 
Forest Service has expended on the Valles Caldera Preserve since 2000 
in hard appropriated funding as well as services-in-kind work?
    Answer. Public Law 106-248 enacted on July 25, 2000 authorized 
Forest Service interim management of the Valles Caldera National 
Preserve (VCNP). There were no appropriations in 2000 for the VCNP. 
Since 2001, Congress has appropriated nearly $30 million ($29, 893,000) 
to the Forest Service for the Valles Caldera National Preserve. The 
annual appropriations for the VCNP cover personnel salary and 
operations, including Forest Service Law Enforcement and Investigation 
patrols for the VCNP.
    The Santa Fe National Forest funds wildland fire prevention and 
suppression for the VCNP, which includes prevention, detection, initial 
attack and extended attack fire operations. Since 2005, the Santa Fe 
National Forest has spent just over $1 million ($1,016,820) for 
wildland fire suppression operations for the VCNP. Further detail is 
provided in the answer to question 2.
    Question 2. Since the Forest Service became responsible for fire 
fighting on the Preserve how much has it cost the Forest Service to 
provide those services?
    Answer. All of the wildfire suppression costs on the VCNP are 
covered by the Forest Service. These costs can vary depending upon 
annual fire severity conditions. For example, in FY 2005 there were 15 
lightning-caused fires on the VCNP suppressed at a cost of $795,200. 
These fires include the Valle Fire that required a Type II Incident 
Management Team. Since FY 2006 to date, there have been approximately 
27 small fires that have burned a total of approximately 63 acres and 
have cost approximately $221,620.
    The VCNP is included in the aerial fire and smoke detection flights 
conducted by the Santa Fe National Forest. The Forest Service assesses 
no charges to the Preserve, Bandelier National Monument or any of the 
adjacent jurisdictions for these flights. The hourly flight rate for a 
detection flight is $1,100 per hour. These flights also cover Pueblo 
(Tribal), Department of the Interior (BLM lands and U.S. Fish and 
Wildlife Service refuges) and privately-owned forest and range lands 
(New Mexico State Forestry jurisdiction) within or adjacent to the 
Santa Fe National Forest.
    Question 3. Can you compare and contrast the Santa Fe National 
Forest's fire fighting capabilities with that of the Bandelier National 
Park's fire fighting capabilities?
    Answer. The Santa Fe Fire Dispatch Zone is comprised of Federal, 
State and county/municipal wildland fire management agencies. The 
Federal component is comprised of the Santa Fe National Forest, the 
Bureau of Land Management New Mexico State Office, the National Park 
Service Bandelier National Monument, the BIA Northern and Southern 
Pueblos, and the U. S. Fish and Wildlife Service. Wildland fire 
suppression resources are shared across the dispatch zone. The Santa Fe 
Zone Dispatch Center (located at the Supervisor's Office for the Santa 
Fe National Forest) provides all of the wildland fire dispatch coverage 
for Bandelier National Monument as well as the VCNP. None of the 
dispatch center costs are apportioned to other agencies.
    The Santa Fe National Forest also fully funds an exclusive use Type 
3 helicopter contract (the helicopter is not a National resource and 
can only be dispatched regionally or nationally, if requested) as well 
as the 7-person crew. Through an agreement with the Forest Service, the 
Bandelier National Monument provides 3 personnel for the helicopter to 
ensure 7-day coverage. At peak fire season, Bandelier National Monument 
has 18 fire personnel, and the Santa Fe National Forest has 104 fire 
personnel. From the surrounding Northern New Mexico communities, the 
Santa Fe National Forest can also staff up to 4 Southwest Fire Fighter 
20-person crews for local or national suppression needs.
    Question 4. Can you compare the fire fighting capability of the 
Forest Service to that of the National Park Service's fire fighting 
capability?
    Answer. Comparisons of firefighting capability are difficult 
because Federal wildfire response is interagency in nature and Federal, 
State, Tribal, and local wildland firefighting agencies work 
cooperatively across jurisdictions when responding to wildland fires. 
Firefighting assets are highly mobile, and wildland fire agencies share 
assets to increase operational efficiency and best serve the public. 
Employees from both the Forest Service and the National Park Service 
(NPS) serve on national and regional incident management teams. Forest 
Service crews and other assets, including aircraft, are routinely 
deployed as interagency assets on NPS and other Department of the 
Interior (DOI) fires; likewise, DOI assets are deployed to fires on 
National Forest System lands.
    For FY 2010, Congress appropriated to the Forest Service $675 
million for Wildland Fire Management Preparedness, $998 million for 
Wildland Fire Management Operations--Suppression, $71.3 million for 
National Fire Plan State Fire Assistance, $9 million for National Fire 
Plan Volunteer Fire Assistance, and for $413 million for FLAME\1\ 
Suppression Reserve.
---------------------------------------------------------------------------
    \1\ Federal Land Assistance Management Enhancement Act P.L. 111-88
---------------------------------------------------------------------------
    The Forest Service provides the majority of aviation assets; the FY 
2010 Wildland Fire Management appropriation supports contracts for 19 
air tankers, 2 single engine air tankers (SEATS) and on a call-when-
needed contract, 1 very large air tanker (DC-10) as well as 1 transport 
jet (737-200). Supporting the air tankers are 15 lead planes, 14 of 
which are on contract, as well as 127 helicopters.
    The FY 2010 Wildland Fire Management appropriation funds 400 fire 
prevention specialists, 67 type 1 hotshot crews (1,340 personnel), 320 
smoke jumpers and 10,480 full time fire fighters as well as 950 
wildland fire engines.
    A direct comparison of fire fighting capability between the Forest 
Service and the National Park Service is difficult to make because the 
Department of the Interior's Wildland Fire Management budget is not 
assigned by bureau. However, the FY 2010 appropriations for the 
Department of the Interior provided $290.5 million for preparedness, 
$258.8million for suppression operations, $7 million in rural fire 
assistance, and $61 million for FLAME Suppression Reserve.
                                 ______
                                 
     Responses of Stephen Henry to Questions From Senator Murkowski
    The 2000 Valles Caldera Preservation Act said: ``The Valles Caldera 
Trust shall terminate at the end of the twentieth full fiscal year 
following acquisition of the Baca ranch under section 104(a).'' The 
Valles Caldera Preservation Act as passed in 2000 also called for the 
Trust to turn the lands over to the U.S. Forest Service in the event 
the Trust failed to meet the goal of financial self-sustainability.
    Question 1. We are now slightly over half-way into the 20 year 
experiment, in your estimation is it pre-mature to pull the plug on the 
experiment?
    Answer. The Valles Caldera Preservation Act of 2000 established the 
Valles Caldera Trust and gave it 20 years to meet the many and varied 
management mandates of the law. Yet, under S. 3452, that mandate is 
being terminated at the half way point. We and many others are asking--
why? If the pending bill were a reaction to mismanagement or resource 
diminishment, such precipitous an action might be justified. However, 
the opposite is the case. The land comprising the Valles Caldera 
National Preserve is currently being managed better than any time in 
the last century. The Trust is addressing short and long term resource 
management needs, and providing opportunities for public enjoyment of 
the scenic and recreational values of this incredible area.
    Proponents of the bill give little credit to the Trust for this 
incredible accomplishment by its professional staff and members of the 
Board of Trustees appointed by the President. It seems to be forgotten 
that the 2000 legislation was expressly intended as an experiment in 
Federal land management. There was a consensus at the time that 
restoration of the land within the context of a working ranch was a 
worthy endeavor. We all knew it would be hard and would take time, but 
no one at the time recognized the difficulties of starting up an 
entirely new government organization, or of dealing with the costs and 
extent of infrastructure needs. However, after eight years of Trust 
management, the execution of multiple plans and programs are underway 
through coordination and collaboration with the Forest Service.
    We recognize that the intent of the Act has not been fully met at 
this midpoint. No one expected that it would be. However, to stop the 
experiment at this moment discontinues many of the successful practices 
and activities of the Trust. It may also require the receiving agency 
to start anew with environmental planning at a point when these are 
well under way and nearing completion under Trust management.
    Since introduction of the bill, we have heard thousands of people, 
both in New Mexico and across the Nation, speaking as individuals and 
organizations, who believe it is premature to ``pull the plug'' on the 
fine work of the Valles Caldera Trust. The letters and commentary 
represent a broad spectrum of professional land managers, hunters, 
anglers, hikers, our recreational visitors, educators, students, Native 
Americans and their pueblos, livestock producers, and environmental 
activists. We believe the experiment envisioned by the 2000 Act is 
working. If Congress were to address the specific needs the Trust has 
already identified, it would better promote the efficacy of the 
experiment. To do otherwise is simply an unjustified rush to judgment.
    Question 2. The law also called for the Trust to be turned over to 
the Santa Fe National Forest if the Trust could not become economically 
self-sufficient--which agency--the Park Service or the Forest Service 
would be the best managers of the Preserve?
    Answer. The 106th Congress designated the Valles Caldera National 
Preserve as a component of the National Forest System, subject to a 
special management regime. This recognized the vital role and 
responsibilities of the Forest Service in the preservation of this 
land. It was and is the Forest Service that successfully negotiated the 
purchase of the land, and did the original resource assessments 
necessary to garner public and Congressional support for its 
acquisition. It is the Forest Service that staved off geothermal 
development and ultimately acquired the outstanding mineral rights in 
the land. And it has been the Forest Service that has provided much of 
the technical expertise in forest management, law enforcement, and 
organizational development that has brought us to the point where we 
are today.
    The Preserve is surrounded on approximately 80% of its entire 
boundary by hundreds of thousands of acres under Santa Fe National 
Forest management. This surrounding forest land has been scientifically 
and prescriptively managed for decades. The management issues facing 
the Preserve are those for which the Forest Service is uniquely able 
and qualified to meet. It has the scientific expertise, long standing 
management experience, manpower, and equipment required for managing 
the forest landscape. For example, the Preserve contains up to 60,000 
acres of thin-diameter and closely crowded timber as forest re-growth 
resulting from decades of clear-cut logging and essentially no 
scientifically applied management. This is considered by most forest 
management experts as the number one priority and challenge for the 
near future, a job that should take at least 10 years. Failure in this 
endeavor will severely limit public access and use in the future 
because of resultant major, possibly catastrophic wildfires.
    Many proponents of a park contend that visitor use, access, and 
interpretation of the resources and the landscape must be the current 
and predominant uses of the Preserve. While this public use is a vital 
component of the overall management of the area, we believe that 
protecting a healthy forest and ecosystem is the greatest and most 
immediate management challenge. To fail in this poses the number one 
threat to public recreational and enjoyment.
    Unfortunately, we believe the current rush to enact the pending 
legislation glosses over these vital issues. The Forest Service has not 
been given the opportunity to present its case. Even the Park Service 
study prepared last year specifically avoided addressing the question 
of the best management regime. Given the Forest Service's management 
history to date, its expertise at managing national recreation areas 
and national monuments, and its control of the huge expanse of land 
surrounding the Preserve, the choice of the Forest Service as a 
permanent agency manager should be given equal billing to the Park 
Service. We have previously suggested that if Trust management is to be 
terminated, then a two year study of the Preserve's management needs 
should be prepared, and it should identify the various ways the Park 
Service and Forest Service would meet those needs.
                                 ______
                                 
 Responses of Hon. Joshua Madalena to Questions From Senator Murkowski
    The people of your Pueblo have dealt with the Baca Ranch, the Santa 
Fe National Forest and to some extent the Bandelier National Park over 
the years and before Anglo ownership and management of the Ranch your 
people lived and ran cattle on the lands.
    Question 1. In your mind, who would be the best steward of the 
Valles Caldera; the Park Service, the State, the Forest Service or 
would you prefer to see the land turned over to the Pueblo's to jointly 
manage?
    Answer. Jemez Pueblo believes that Jemez Pueblo is the best steward 
and manager for the Valles Caldera. The Baca Ranch lies within the 
aboriginal Indian title area (traditional use area) of Jemez Pueblo. 
The Baca Ranch, also known as the Baca Location, was an original grant 
from the United States to the heirs of Luis Maria Cabeza de Baca in 
1858 to resolve an overlapping Spanish grant conflict in the vicinity 
of Las Vegas, New Mexico. Jemez Pueblo exclusively used and occupied 
these lands since time immemorial and established aboriginal Indian 
title prior to the Baca Grant. The heirs of Luis Maria Cabeza de Baca 
received the grant subject to continuing Jemez Pueblo Indian title. 
Buttz v. Northern Pacific Railroad, 119 U.S. 55 (1886) (conveyance of 
fee from federal government subject to unextinguished Indian right of 
occupancy), United States v. Santa Fe Pacific RR Co., 314 U.S. 339 
(1941) and County of Oneida v. Oneida Indian Nation, 470 U.S. 226, 235 
(1985). Indian title is a fundamental doctrine of Anglo-American 
property law.
    In our testimony before the Committee on S.3452, we stated our 
exclusive Indian title to the Valles Caldera and requested that the 
federal government return control of the Caldera to the Pueblo. This 
time of transition for the Valles Caldera National Preserve is an ideal 
opportunity to transfer the Valles Caldera and its management burden to 
Jemez Pueblo, rather than increase the federal management burden and 
expense of maintaining the Preserve by transferring it to the National 
Park Service. As compared to the Pueblo itself, we do not believe that 
either the Forest Service, the National Park Service or the state of 
New Mexico are the most appropriate or the most effective managers of 
the Valles Caldera. We are not proposing multi-pueblo joint management 
of the Valles Caldera because we hold exclusive Indian title. We are in 
the process of contracting and preparing an economic feasibility and 
management study detailing how Jemez Pueblo would manage and operate 
the Valles Caldera.
    While other Pueblos have some spiritual interests in the Caldera, 
which Jemez Pueblo is committed to respect, use by other Pueblos has 
always been permissive and consistent with Jemez Pueblo's Indian title. 
See, Alabama-Coushatta Tribe of Texas v. United States, 2000 U.S. 
Claims Lexis 287 at 39. No other Pueblo can demonstrate continuing 
Indian title to the Caldera.
    Santa Clara Pueblo received approximately 10,000 acres of the Baca 
Location at the time the United States purchased the Caldera from the 
Dunnigan family in 2000. San Ildefonso Pueblo waived all of its Indian 
title land rights wherever located in the Pueblo de San Ildefonso 
Claims Settlement Act, P.L. 109--286--Sept. 27, 2006. If Jemez Pueblo's 
exclusive Indian title is respected, joint Pueblo management involving 
several Pueblos is not appropriate. Jemez Pueblo is prepared to 
control, manage and protect the Valles Caldera pursuant to its 
continuing Indian title and its ancient tradition of stewardship and 
protection of the resources and natural environment of its ancestral 
lands.
    As noted in our June 30 hearing testimony, we support S.3452 as a 
means of resolving immediate funding problems for the Valles Caldera 
National Preserve, conditioned, however, upon the inclusion of language 
preserving all valid existing private rights in the Valles Caldera, 
including specifically our own aboriginal Indian title.
    Question 2. The bill calls for continued hunting and grazing on the 
Preserve but would allow the Park Service to shut down either or both 
if they so chose. Do you believe the Park Service will continue both 
grazing and hunting on the Preserve into the future?
    Answer. We cannot predict what policies the National Park Service 
may adopt governing grazing, hunting and fishing in the Valles Caldera 
under Park Service control. We are concerned that subsection 3(e); 
governing grazing, is more restrictive than current Valles Caldera 
National Preserve policies in that it limits grazing to specific areas 
where grazing was allowed last year only. Presumably, not all areas 
where grazing may be viable were actually grazed last year. Section 
3(f) gives the Secretary wide discretion in the management and 
permitting of hunting and fishing in the Preserve, although this is 
essentially unchanged from statutory authority under the Valles Caldera 
Preservation Act of 2000. Since the management mandates of the Valles 
Caldera Preservation Act are significantly different from the 
management policies of most national parks, we are concerned that 
National Park Service management of the Valles Caldera could be more 
restrictive than current management as to both Jemez Pueblo and the 
general public.
    If Jemez Pueblo regained control of the Valles Caldera, we would 
provide a program intended to maximize public access for hunting and 
fishing, consistent with preservation of sustainable populations of 
fish and wildlife.
                                 ______
                                 
  Responses of Hon. Perry Martinez to Questions From Senator Bingaman
    At the request of Chairman Jeff Bingaman, and on behalf of the 
Pueblo de San Ildefonso, this email responds to the list of questions 
relating to S. 3452, as follows:

    Question 1. In your mind, who would be the best steward of the 
Valles Caldera; the Park Service, the State, the Forest Service or 
would you prefer to see the land turned over to the Pueblos to jointly 
manage?
    Answer. The Pueblo de San Ildefonso prefers that the Valles Caldera 
be jointly managed by the Pueblos closest to the Valles Caldera. These 
include the Pueblo de San Ildefonso, Pueblo of Santa Clara and Jemez. 
The Pueblo de San Ildefonso also supports joint management of the 
Valles Caldera among the Park Service and the Pueblos closest to the 
Valles Caldera. If such joint management is not feasible, the Pueblo de 
San Ildefonso would support management of the Valles Caldera by the 
Park Service, provided that the Park Services provides meaningful 
consultation to the surrounding Pueblos.
    The key to any management is adequate resources, and as noted in my 
July 1, 2010 Statement on S. 3452, the Pueblo de San Ildefonso 
continues to have concerns that adequate funds be appropriated for 
staff and support services so that the Valles Caldera can continue to 
be available to our Pueblo members and the public, while protecting the 
natural environment.
    Question 2. Do you believe the Park Service will continue both 
grazing and hunting on the Preserve into the future?
    Answer. While the Pueblo de San Ildefonso would like to see the 
Preserve stay as pristine as possible, the Pueblo would support access 
to the Valles Caldera in a way that minimizes injury to the lands. For 
example, if the Preserve is opened up to hunting, the Pueblo de San 
Ildefonso would prefer that hunting be limited to any Pueblo member. 
The Pueblo de San Ildefonso expects meaningful consultation by the Park 
Service before a decision is made to permit public hunting on the 
lands.
    Concerning grazing, the Pueblo de San Ildefonso has witnessed over 
a century of over-grazing on this land. Any grazing on this land should 
be consistent with the concepts of sustainable grazing so that the land 
is able to grow and restore itself even with increased human and animal 
access. The Pueblo de San Ildefonso expects that a decision to open up 
the lands to grazing not be made, unless the Park Service first 
consults with the appropriate Pueblos.
    Thank-you for the opportunity to respond to these questions.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                              Valles Caldera Trust,
                                         Board of Trustees,
                                   Jemez Springs, NM, July 6, 2010.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Building, Washington, DC.
    Dear Senator Bingaman: Thank you for the opportunity to testify at 
the hearing on June 30, 2010. On behalf of the presidentially appointed 
members of the Board of Trustees, we ask that this letter be placed in 
the record as a supplement to our testimony. The hearing brought out 
several issues which we believe need to be addressed in the mark-up of 
the bill.
Staff of the Valles Caldera Trust
    The staff of the Valles Caldera Trust is comprised of dedicated 
public servants, who have successfully managed the Preserve since the 
Federal purchase of the property in July, 2000. They deserve public 
acclaim but, instead, their careers are in limbo. The bill should be 
amended to guarantee continued Federal employment for every full time 
staff member of the Trust. Accordingly, we recommend you amend section 
4(c) (3) as follows:

          (A) HIRING.--

                  (i) The Secretary shall hire on a noncompetitive 
                basis at comparable positions any employee of the Trust 
                who desires to continue Federal service on the staff of 
                the Preserve or the Bandelier National Monument.
                  (ii) The Secretary and the Secretary of Agriculture 
                may hire employees of the Trust on a noncompetitive 
                basis for comparable positions on other units of the 
                National Park System or National Forest System. (B) 
                SALARY.--[unchanged]

          (C) INTERIM RETENTION OF ELIGIBLE EMPLOYEES. [Unchanged]
          (D) TERMINATION FOR CAUSE. [Unchanged]
          (E) COMPENSATION OF TRUSTEES. Trustees of the Valles Caldera 
        Trust shall be entitled to such compensation as was provided 
        under section 107(e) of Public Law 106-248 for the duration of 
        their tenure as a Trustee or consultant to the Secretary.
Forest Restoration
    The foremost management need for the Preserve is forest 
restoration, and the public's use and enjoyment--indeed the public's 
safety--will depend on restoration. Approximately 60% of the land area 
of the Preserve is forested. Prior to the Federal land acquisition in 
2000, and especially from 1963 to 1972 with the advent of logger 
jamming technology and road building, the Baca Ranch was intensively 
logged in large clear cuts resulting in the massive removal of all 
species and sizes. This type of logging was supported by a dense 
network of nearly 1000 miles of contour-paralleling roads, sometimes 
less than 300 feet apart. On over 37,000 acres, dense stands of mixed 
confers have replaced the climax species, primarily Ponderosa Pine. For 
the health of the forest and for public safety, these stands must be 
thinned by mechanical treatments and prescribed fire. Failure to do 
this will result in a disastrous conflagration that will be potentially 
worse than the Cerro Grande Fire of May, 2000.
    The Trust is currently undertaking the preparation of an 
environmental impact statement to analyze a proposed Landscape 
Restoration and Management Plan for the forests, including mechanical 
treatments, prescribed burning, management of lightning caused 
wildfires, as well as erosion control activities including road 
management and stream restoration. This process must go forward and we 
strongly urge that the bill contain a forest restoration provision 
which will make this a management priority for the land managing 
agency.
    S. 3452 currently does not have a provision addressing forest 
restoration, and some provisions could actually hamper necessary 
management activities (e.g. restrictions on activities over the 
elevation of 9,250 feet). We recommend additional language in section 3 
along the following lines:

          ( ) FOREST AND LAND RESTORATION.

          (1) Forest Management.--the forest lands on the Preserve 
        shall be managed to promote forest health, reduce disease and 
        insect infestation, and reduce the hazards of wildfire.
          (2) The Secretary shall establish a Landscape Restoration and 
        Management Program, based on the similar plan begun by the 
        Valles Caldera Trust, with the objectives of:

                  (A) Decreasing forest density by mechanical 
                treatments, prescribed burning and other mechanisms 
                (including commercial timber sales);
                  (B) Using prescribed fire (including the management 
                of lightning caused fires) to achieve resource 
                benefits;
                  (C) Closing and rehabilitating roads;
                  (D) The prevention and eradication of noxious weeds, 
                including mechanical treatment and herbicides.

          (3) The Secretary shall incorporate the Landscape Restoration 
        and Management Program as part of the Management Plan for the 
        Preserve.
          (4) The Secretary shall coordinate the Program with the 
        Forest Service to assure compatibility with the Land and 
        Resource Management Plan for the Santa Fe National Forest.
Wildlife Management
    Another environmental threat to the Preserve is the proliferation 
of elk. Elk populations have a direct effect on the grasslands, affect 
riparian habitats, and often trample archaeological and cultural 
resources. Inasmuch as the Preserve acts as a nursery for elk, these 
population impacts are felt on the Preserve and the adjacent National 
Forest lands. The only effective control tool is hunting. There are 
currently three game management units designated by the New Mexico 
Department of Game and Fish for the entire Jemez Mountains of which the 
Preserve is one unit. Coordination of game limits throughout the Jemez 
Mountains is essential. Therefore, we recommend amending section 3(f) 
by adding a paragraph (3) as follows:

          (3) Elk limits. Hunting levels on the Preserve shall be 
        permitted pursuant to limits established by the New Mexico 
        Department of Game and Fish based on game management units for 
        the Jemez Mountains, including the Santa Fe National Forest.
Cultural Resources
    The bill repeals section 105(g) of the Valles Caldera Preservation 
Act of 2000 pertaining to Redondo Peak. Those provisions were carefully 
negotiated between the Pueblos and the Forest Service and provide for 
special protections and use of Redondo Peak. In the last decade, that 
provision of law has provided an important and successful measure of 
protection for Native American religion and culture. S. 3452 should 
retain all the provisions of section 105(g) of the existing law.
Volcanic Domes and Other Peaks
    The limitation in section 3(h) of activities on lands above 9,250 
feet is arbitrary, unnecessary, and will inhibit necessary forest 
restoration activities. The Trust has mapped the areas subject to that 
limitation and it would encompass substantial forest areas that are in 
need of restoration activities. There would be ample existing law to 
allow for the closure of areas to motorized access in the event of a 
management need. Because we recommend retention of the Redondo Peak 
provisions already in section 105(g) of the Valles Caldera Preservation 
Act of 2000, this elevation requirement is unnecessary. Therefore, we 
recommend deletion of section 3(h).
Range Management
    The grasslands on the Preserve offer a number of management 
opportunities. A major impetus to enactment of the original Valles 
Caldera Preservation Act was the retention of some vestiges of 
traditional ranching as practiced in New Mexico. That ranching 
tradition still offers opportunities for the visitor interpretation, 
and modest income production. However, as written, section 3(e) of S. 
3452 unduly limits grazing to those areas of the season preceding 
enactment. This standard ignores best range management practices. 
Currently, grazing on the Preserve has no negative impact on available 
forage. We recommend that grazing be permitted where it does not impair 
the preservation and public enjoyment of the Preserve, and not 
exceeding levels where forage consumption exceeds forage production. We 
also recommend that grazing fees continue to be based on commercial 
rates and that the land manager be allowed to retain grazing receipts 
on site. Therefore, we recommend rewording section 3(e) as follows:

          (e) Grazing.

                  (1) In General.--The Secretary shall allow the 
                grazing of livestock on the Preserve to continue 
                insofar as grazing does not impair the preservation and 
                public enjoyment of the Preserve, and at levels where 
                forage consumption does not exceed forage production on 
                those areas designated for grazing.
                  (2) Rates.--The Secretary shall charge grazing fees 
                commensurate with private commercial fees.
Ecosystem Coordination
    As written, S. 3452 virtually ignores the fact that the Preserve is 
surrounded by almost a million acres of National Forest. Indeed, the 
planning requirements of section 3(b) (4) (C) do not even require 
consultation with the Forest Service. That section should be amended to 
require consultation with the Forest Service. Similarly, section 3(b) 
(3) should be amended to add at the end the words, ``and the Santa Fe 
National Forest.''
Summary and Conclusions
    As the managers of this extraordinary land for the last decade, the 
Trust feels uniquely qualified to comment on S. 3452. The fact is that 
this land had been altered significantly for decades prior to Federal 
acquisition. No matter who manages it, the Preserve requires special 
attention to address its unique needs. While we have tried to address 
some of those requirements above, the fact is that the bill provides 
cursory consideration of some very important matters.
    As written, we believe S. 3452 is inadequate to meet the needs of 
the Preserve. We fear this matter is being legislated too quickly, and 
our professional staff is concerned that complicated land management 
considerations are not being adequately aired. A more judicious 
approach over the next year would afford the opportunities to address 
what is best for the land and its resources, and to devise a management 
regime that will best meet those needs. There is no emergency as the 
land is being well managed in the public interest. We urge the 
Committee to take the necessary time to consider all the relevant 
issues.
    Thank you for your consideration.
            Sincerely,
                                          Stephen E. Henry,
                                                          Chairman.
                                 ______
                                 
      Statement of E. P. Harvey, Jr., B & H Herefords, Mesilla, NM
    Thank you for the opportunity to comment on the above mentioned 
legislation. I, as a livestock producer and concern citizen, 
respectfully urge the Committee on Energy & Natural Resources to 
suspend action on this legislation and allow the Valles Caldera Trust 
to continue to be the sole operating agent until the expiration of the 
original contract.
    The Valles Caldera-Baca Ranch has a long and storied history in the 
journal of territorial New Mexico. Livestock grazing, wildlife 
management and timber harvesting have been an important aspect in the 
ranches history and are currently being utilized as resource management 
tools. One of the original goals of the Valles Caldera Preserve is to 
continue to be managed as a working ranch that would protect the land 
and resources values. It is unclear if under new management operations 
if livestock grazing and a working ranch management philosophy will 
still be considered.
    The Valles Caldera National Preserve Act raises great concern in 
that it does not assure that there will be a comparable management plan 
that promotes livestock grazing. The Preserve is designed to protect 
and preserve the fish, wildlife, watershed, natural, scientific, 
scenic, geological, historical, cultural, archeological and 
recreational values of the areas.
    Recently, the Valles Caldera and New Mexico State University 
Cooperative Extension Service provided a unique educational program, 
Bull Genetics Improvement Program, which studied the effects of high 
altitude factors on domestic cattle production when various management 
techniques were utilized. This education program set precedence in the 
cattle industry across the country and has lead up to several follow-up 
studies in other states. The Valles Caldera has also participated in a 
rotational grazing program with ranchers from surrounding communities 
that provides forage needs for ranchers outside the preserves 
boundaries and allows for forage plots to replenish themselves in non-
grazing seasons. Section 3(e) of S. 3452 limits grazing to those 
seasons preceding enactment which is contrary to best range management 
practices. Rather best management practices should include forage 
grazing consumption does not exceed forage production in those areas 
throughout the preserve insofar as not to interfere with the 
preservation and enjoyment of the Preserve. This will encompass both 
the educational and scientific component mandated by the Valles Caldera 
National Preservation Act.
    Specifically, under section 3. Valles Caldera National Preserve 
Paragraph (e) Grazing-The Secretary may allow the grazing of livestock 
within the preserve to continue, consistent with this act--

          (1) In areas of the preserve in which grazing was permitted 
        during the grazing season preceding the date of enactment of 
        this Act; and
          (2) To the extent the use furthers scientific research or 
        interpretation of the ranching history of the preserve.

    The Valles Caldera Preservation Act should mandate grazing within 
the preserve for several reasons.

  <bullet> Management as a working ranch has preserved and enhanced 
        this property to the point that it was coveted as a national 
        preserve. Why would management that has provided a healthy 
        ecosystem and abundant wildlife change now? What would be the 
        effects of such a change? How is the potential for catastrophic 
        fire going to be managed?
  <bullet> Established cultural identity with the Baca Ranch and its 
        livestock history
  <bullet> The Valles Caldera mission was to be run as a working ranch
  <bullet> Valles Caldera and New Mexico State University have joined 
        together to provided much needed research and educational 
        programs that take place on the preserve due to its ecology and 
        altitude
  <bullet> The Valles Caldera provides surrounding ranches the 
        opportunity to rest pastureland outside the preserves 
        boundaries by utilizing a rotational grazing program
  <bullet> The livestock on the Valles Caldera are managed as not to be 
        intrusive on sensitive stream waters and are grazed away from 
        sensitive habitats

    The Baca Ranch was commended over and over by both ranchers and 
environmentalist of the stewardship of the land and that land was 
managed as a working ranch with adjustable grazing techniques. Wildlife 
alone cannot maintain healthy grassland the size of the Valles Caldera 
without the assistance livestock and the difference in grazing methods. 
It is vital that livestock grazing continue to be incorporated into any 
future management plans for educational and scientific research as well 
as to carry on cultural characteristics that livestock has on the past 
history of New Mexico from the 16th century to our current generations 
and those to come. The Valles Calderas Trust has managed its livestock 
herd, less than 600 head, conservatively with the ecosystem in mind and 
not with a financial agenda behind it.
    Although financial independency has not been obtained, most of that 
delay has been a direct result of numerous other federal laws that have 
provided obstacles that had to be cleared. There have been many 
positive gains in the recent past as those federal obstacles were 
hurdled. As with many private enterprises financial stability is not 
always realized quickly. We believe it is too soon to forego the Valles 
Caldera Trust operations and management considering the amount of time 
that is still available to fulfill the contract. The urgency of 
promoting the Valles Caldera Preserve Management Act is rushed and does 
not adequately address the land use management issues that are unique 
to the area.
    I have personally ridden horseback across the Valles Caldera and 
much of the Baca Ranch, as well as surrounding lands on numerous 
occasions. My familiarity with the area and with the way the cattle and 
wildlife have been managed prompts me to testify on this extremely 
important issue. There is no reason to change the way this unique area 
is managed, and National Park designation/management will only serve to 
destroy and undo the custom, culture, and traditional use of this land.
    In conclusion, it is important to realize the educational, 
scientific and cultural significance that livestock have on the Valles 
Caldera-Baca Ranch and the importance to continue to utilize livestock 
grazing as a resource management tool. Recent strides by the Valles 
Caldera Trust have shown promise in the adaptive management policies 
that have been implemented. It seems that there was not much confidence 
in the success of the program from the beginning and now just as some 
progress is shown the preserve will once again be in transition. It has 
been seen that continued success is possible when there is consistent 
management policies in place; the private landowners did it for 
centuries. It seems that many of the stakeholders' issues could be 
addressed more appropriately if when the agreement is up that the 
Valles Caldera be transferred and or incorporated into the Santa Fe 
National Forest and their nearly million acre forest.
                                 ______
                                 
   Statement of Hilario R. Armijo, President, Jemez Pueblo Livestock 
                     Association, Jemez Pueblo, NM
    Thank you for the opportunity to comment on the above mentioned 
legislation. I, as a livestock producer and concern citizen, 
respectfully urge the Committee on Energy & Natural Resources to 
suspend action on this legislation and allow the Valles Caldera Trust 
to continue to be the sole operating agent until the expiration of the 
original contract.
    The Valles Caldera-Baca Ranch has a long and storied history in the 
journal of territorial New Mexico. Livestock grazing, wildlife 
management and timber harvesting have been an important aspect in the 
ranches history and are currently being utilized as resource management 
tools. One of the original goals of the Valles Caldera Preserve is to 
continue to be managed as a working ranch that would protect the land 
and resources values. It is unclear if under new management operations 
if livestock grazing and a working ranch management philosophy will 
still be considered.
    The Valles Caldera National Preserve Act raises great concern in 
that it does not assure that there will be a comparable management plan 
that promotes livestock grazing. The Preserve is designed to protect 
and preserve the fish, wildlife, watershed, natural, scientific, 
scenic, geological, historical, cultural, archeological and 
recreational values of the areas.
    Recently, the Valles Caldera and New Mexico State University 
Cooperative Extension Service provided a unique educational program, 
Bull Genetics Improvement Program, which studied the effects of high 
altitude factors on domestic cattle production when various management 
techniques were utilized. This education program set precedence in the 
cattle industry across the country and has lead up to several follow-up 
studies in other states. The Valles Caldera has also participated in a 
rotational grazing program with ranchers from surrounding communities 
that provides forage needs for ranchers outside the preserves 
boundaries and allows for forage plots to replenish themselves in non-
grazing seasons. Section 3(e) of S. 3452 limits grazing to those 
seasons preceding enactment which is contrary to best range management 
practices. Rather best management practices should include forage 
grazing consumption does not exceed forage production in those areas 
throughout the preserve insofar as not to interfere with the 
preservation and enjoyment of the Preserve. This will encompass both 
the educational and scientific component mandated by the Valles Caldera 
National Preservation Act.
    Specifically, under section 3. Valles Caldera National Preserve 
Paragraph (e) Grazing-The Secretary may allow the grazing of livestock 
within the preserve to continue, consistent with this act--

          (1) In areas of the preserve in which grazing was permitted 
        during the grazing season preceding the date of enactment of 
        this Act; and
          (2) To the extent the use furthers scientific research or 
        interpretation of the ranching history of the preserve.

    The Valles Caldera Preservation Act should mandate grazing within 
the preserve for several reasons.

  <bullet> Management as a working ranch has preserved and enhanced 
        this property to the point that it was coveted as a national 
        preserve. Why would management that has provided a healthy 
        ecosystem and abundant wildlife change now? What would be the 
        effects of such a change? How is the potential for catastrophic 
        fire going to be managed?
  <bullet> Established cultural identity with the Baca Ranch and its 
        livestock history
  <bullet> The Valles Caldera mission was to be run as a working ranch
  <bullet> Valles Caldera and New Mexico State University have joined 
        together to provided much needed research and educational 
        programs that take place on the preserve due to its ecology and 
        altitude
  <bullet> The Valles Caldera provides surrounding ranches the 
        opportunity to rest pastureland outside the preserves 
        boundaries by utilizing a rotational grazing program
  <bullet> The livestock on the Valles Caldera are managed as not to be 
        intrusive on sensitive stream waters and are grazed away from 
        sensitive habitats

    The Baca Ranch was commended over and over by both ranchers and 
environmentalist of the stewardship of the land and that land was 
managed as a working ranch with adjustable grazing techniques. Wildlife 
alone cannot maintain healthy grassland the size of the Valles Caldera 
without the assistance livestock and the difference in grazing methods. 
It is vital that livestock grazing continue to be incorporated into any 
future management plans for educational and scientific research as well 
as to carry on cultural characteristics that livestock has on the past 
history of New Mexico from the 16th century to our current generations 
and those to come. The Valles Calderas Trust has managed its livestock 
herd, less than 600 head, conservatively with the ecosystem in mind and 
not with a financial agenda behind it.
    Although financial independency has not been obtained, most of that 
delay has been a direct result of numerous other federal laws that have 
provided obstacles that had to be cleared. There have been many 
positive gains in the recent past as those federal obstacles were 
hurdled. As with many private enterprises financial stability is not 
always realized quickly. We believe it is too soon to forego the Valles 
Caldera Trust operations and management considering the amount of time 
that is still available to fulfill the contract. The urgency of 
promoting the Valles Caldera Preserve Management Act is rushed and does 
not adequately address the land use management issues that are unique 
to the area.
    In conclusion, it is important to realize the educational, 
scientific and cultural significance that livestock have on the Valles 
Caldera-Baca Ranch and the importance to continue to utilize livestock 
grazing as a resource management tool. Recent strides by the Valles 
Caldera Trust have shown promise in the adaptive management policies 
that have been implemented. It seems that there was not much confidence 
in the success of the program from the beginning and now just as some 
progress is shown the preserve will once again be in transition. It has 
been seen that continued success is possible when there is consistent 
management policies in place; the private landowners did it for 
centuries. It seems that many of the stakeholders' issues could be 
addressed more appropriately if when the agreement is up that the 
Valles Caldera be transferred and or incorporated into the Santa Fe 
National Forest and their nearly million acre forest.
                                 ______
                                 
                              Los Amigos de Valles Caldera,
                                       Santa Fe, NM, June 27, 2010.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, Energy and 
        Natural Resources Committee Office, 304 Dirksen Senate 
        Building, Washington, DC.
    We are Los Amigos de Valles Caldera, a 501(c)(3) non-profit 
organization incorporated in New Mexico on September 30, 2006 by former 
members of the Board of Trustees of the Valles Caldera National 
Preserve and others. The Valles Caldera National Preserve, formerly the 
privately owned ``Baca Ranch,'' is an 89,000-acre property located in 
the Jemez Mountains in northern New Mexico purchased by the federal 
government in 2000 under the Valles Caldera Preservation Act and placed 
under the management of the Valles Caldera Trust.
    Los Amigos' mission is to support the Valles Caldera National 
Preserve for present and future generations through outreach, 
education, restoration, and collaboration.
    Los Amigos currently has over 200 members. Los Amigos is supported 
by government grants, grants from private foundations, and individual 
contributions. These individual contributions have ranged from $25 to 
$1,000 and have come from a wide variety of people across the country.
    The grants include three received to fund restoration work on the 
Preserve. Los Amigos has been working collaboratively with the Trust 
(under a five-year Memorandum of Understanding) and others since 2006 
on a variety of restoration projects designed to:

  <bullet> Restore San Antonio Creek so that it may be de-listed from 
        NMED's Clean Water Act Sections 305(b)/303(d) Integrated Report 
        as not supporting its high-quality coldwater fishery designated 
        use. (Total Maximum Daily Loads [TMDLs] were created for San 
        Antonio Creek for temperature and turbidity.)
  <bullet> Restore slope wetlands and floodplain wet meadow habitat 
        that has been damaged by roads, grazing, and logging.
  <bullet> Restore habitat for the rare bog birch which has nearly been 
        eaten to extinction by the elk.
  <bullet> Ensure that natural stream channel evolution along the San 
        Antonio and its tributaries continues in a desirable direction.

    In addition, we have made other proposals to work on Jaramillo 
Creek (also on the 303d list) and to do further work on slope wetlands 
on six tributaries to lower San Antonio Creek.
    Los Amigos was created to support the Preserve, and we plan to 
continue with that mission, no matter who is managing the Preserve. 
However, we have a number of concerns about the proposed legislation to 
transfer the Preserve from the Trust to the Park Service:

  <bullet> The authorization language does not ensure adequate funding 
        for the Preserve.
  <bullet> There is no requirement that cultural resources be included 
        in the Science and Education Program.
  <bullet> There is no requirement that will ensure public access 
        during the development of the Park Service's Management Plan.
  <bullet> Most importantly, there is no acknowledgment that 
        restoration of the resource is needed and no requirement that 
        it be a priority for the new manager.

                              our concerns
The Budget
    President Obama's 2011 budget request for the National Park Service 
is approximately $2.7 billion--a decrease of $21.6 million over the 
current fiscal year 2010 budget. The Park Service already took 
significant budget cuts during the Bush Administration, which according 
to Consumer Affairs.com caused ``many of the nation's 390 parks, 
monuments, and recreation areas [to charge] visitors more while 
providing fewer services. . . . In the meantime, the number of national 
park visitors--273 million people [2005]--continues to rise. Their 
needs are not being met, according to an April survey of a dozen parks 
by the Government Accountability Office (GAO). It found all 12 parks 
were reducing visitor center hours, educational programs, and even law 
enforcement.'' That GAO-06-431, March 2006 report, Major Operations 
Funding Trends and How Selected Park Units Responded to Those Trends 
for Fiscal Years 2001 through 2005, stated: ``Although funds allocated 
for daily operations increased from 2001 through 2005 at all 12 park 
units we visited, 8 of the 12 experienced a decline, and 4 experienced 
an increase, in daily operations allocations when adjusted for 
inflation. Park managers at all 12 reported their allocations were not 
sufficient to address increases in operating costs, such as salary and 
benefit increases and rising utility costs; and new Park Service 
requirements directed at reducing its deferred maintenance needs, 
implementing its asset management strategy, and maintaining law 
enforcement levels. Officials also stated that these factors reduced 
their management flexibility. As a result, park unit managers reported 
that, to varying degrees, they made trade-offs among the operational 
activities which, in some cases, resulted in reducing services in areas 
such as . . . resource protection. . .'' (Emphasis added.)
    In recent years, there have been a number of articles about dangers 
at the parks, including a cover story in U.S. News and World Report and 
a story in Travel and Leisure (Our National Parks are in Danger, August 
2004, citing ``Annual budget shortfalls that have left the system with 
insufficient funds to handle chronic maintenance headaches [shoddy 
roads, buildings in disrepair, inadequate water and sewer 
systems]...''). Adding to the Park Service's list of units during a 
period of significant budget cuts suggests that neither the maintenance 
backlog nor the restoration needs of the Preserve will be attended to. 
Therefore, we request that a specific authorization for funding for the 
Preserve, at a level consistent with its current funding, be added to 
SB3452. (See Attachment A.)
Public Access
    The general tenor of public discourse on the subject of management 
of the Preserve has suggested that transfer to the Park Service is 
needed to allow unfettered access for the public. (No concern has been 
raised by the proponents of this view about restoration of the resource 
they wish to exploit.) Few of these people have reviewed Park Service 
regulations or even SB3452 to discover that the Park Service is 
required to first study the resource and then develop a management plan 
before opening the unit to the public. Under SB3452, the Park Service 
is required to develop that management plan in three years. But it is 
given discretion as to whether to continue Trust management in the 
interim. If they decided not to continue Trust policies, that could 
mean that the Preserve would be closed to all access while the 
management plan is being written. Therefore, we suggest that the 
language of SB3452 be amended to require the Park Service to continue 
Trust management policies while it develops its own management plan. 
(See Attachment A.) (Of course, this will not affect what happens after 
the management plan is in place. Generally, the plan will call for 
infrastructure, such as a visitors' center, and the Park Service 
usually doesn't open the unit to public access until after the 
infrastructure has been built.)
Preservation and Restoration of Cultural Resources
    The Preserve has a complex and deep history of changing human land 
use on this extraordinary landscape. Although the Trust has completed 
surveys of only 10% of the 89,000 acres, we now know a great deal from 
the remnants left behind from thousands of years of human use. Trust 
field investigations and analyses have:

  <bullet> Confirmed the use of this landscape by prehistoric peoples 
        as early as the Late Paleoindian period (beginning at least 
        8,000 years ago) and as late as the period of contact between 
        Native North Americans and European immigrants after A.D. 1540.
  <bullet> Demonstrated that trade or transport of obsidian artifacts 
        originating from caldera volcanic deposits occurred throughout 
        all periods of prehistory and extended across North America.
  <bullet> Discovered ceramic artifacts (i.e., undecorated and 
        decorated pot sherds) in rock shelters and open-air locations 
        from the earliest periods of pottery-making in the Southwest 
        (i.e., as early as 500 A.D.) through late prehistory and early 
        historic Puebloan eras, even from the Spanish entrada.
  <bullet> Investigated the preservation characteristics of buried 
        artifact-bearing soils to begin predicting the locations of 
        hidden ancient occupations across the Preserve.
  <bullet> Established the presence of agricultural terraces on Banco 
        Bonito that demonstrate the growing of crops like maize or 
        beans at some of the highest elevations yet known in North 
        America.

    Cultural resources include all of the significant archaeological 
and historic sites, buildings, and artifacts that illuminate how 
peoples used the caldera throughout the past. Los Amigos has 
``adopted'' the Bond Cabin in the Historic Headquarters area, in an 
effort to fund its restoration. SB3452 says that the Secretary may 
establish a science and education center outside the boundaries of the 
Preserve to promote natural and cultural resources, but does not 
include cultural resources in the description of the science and 
education programs for the Preserve that the Secretary is required to 
carry out. Therefore we suggest that, under ``Science and Education 
Program,'' cultural resources be specifically included. (See Attachment 
A.)
Access for Religious and Cultural Uses
    The Secretary is required to ensure protection of traditional 
cultural and religious sites and access to those sites by the pueblos. 
But the Secretary is not required to temporarily close sites to the 
general public to protect traditional cultural and customary uses of 
the areas. Therefore, we suggest that the language of SB3452 be amended 
to require the Secretary to temporarily close to general public use 
specific areas of the Preserve to protect traditional cultural and 
customary uses by the pueblos. (See Attachment A.)
Restoration Needed in Addition to Preservation
    Americans are now realizing they have made some serious 
misjudgments in their nation's interactions with the natural world. 
America's treasured national parks, while remaining immensely popular, 
are not immune to this damaging phenomenon, and it is clear that 
preservation alone will no longer be enough. Repair and restoration are 
also necessary. William Lowry, an eminent analyst of U.S. natural 
resource policy, looked at this in his recent book, Repairing Paradise: 
The Restoration Of Nature in America's National Parks, and concluded 
that ``The result of the agency's dual mandate, political demands, and 
the daunting threats to the parks often were policies that did not 
ensure preservation of the natural environment and frequently caused 
substantial damage instead.'' The National Park Service Organic Act 
mandates that the National Park Service manage the park system's 
natural resources and settings ``unimpaired'' for future generations. 
Why is there a need for restoration? In an interview with Kurt 
Repanshek for National Parks Traveler, Mr. Lowry, a professor of 
political science at Washington University in St. Louis, explained: 
``They have some of the tools, but as you know, the Park Service is a 
political agency, and they're very affected by other political actors 
and other political forces. And so, whatever tools they have are 
somewhat limited in how much they can use them.''
    We are therefore concerned that politics will also affect 
restoration on the Preserve, as it has affected the continuation of the 
Valles Caldera Trust. Restoration of the Preserve's natural functioning 
is essential if the resource is to not irreversibly degrade (please see 
The Need For Restoration on the Preserve, below). Preserve Scientist 
Bob Parmenter had secured $40 million from the Department of 
Agriculture for restoration activities on the Preserve over the next 10 
years, largely for work to reduce the imminent threat of a stand-
replacement crown fire in the dog-hair thickets left over from historic 
logging activities. However, a transfer of the Preserve to the 
Department of the Interior means that money disappears. The only 
certain funding for restoration activities then would be the grant 
monies that Los Amigos has secured--about $600,000. Without a mandate 
to continue with collaborative restoration efforts, the Preserve will 
suffer from this transfer. Therefore, at the very least, we suggest 
that the language of SB3452 be amended to require the Park Service to 
improve the Preserve as well as to protect and preserve it. Further, we 
suggest that language be added that requires the Secretary to continue 
ongoing collaborative restoration projects and to develop future 
projects in consultation with the New Mexico Environment Department and 
interested environmental organizations. (See Attachment A.)
Collaboration
    All of our projects are collaborative and involve agencies, 
environmental organizations, and citizens. Volunteer work is a critical 
part of the projects as there is limited money available for watershed 
and wetland restoration. The GAO in February 2008 published its report, 
Opportunities Exist to Enhance Federal Participation in Collaborative 
Efforts to Reduce Conflicts and Improve Natural Resource Conditions. 
This report suggests that collaboration offers a superior way to manage 
public resources. But the GAO acknowledges that most federal agencies, 
including the land management agencies, do not use this method very 
often. However, with no money allocated for restoration on the 
Preserve, collaboration may be the only way current degradation will be 
able to be addressed.
                the need for restoration on the preserve
    The overwhelming beauty of the Valles Caldera, with its green 
valley bottom grasses, its seemingly unspoiled vistas, lush forests, 
meadow streams, and the sights and sounds of abundant wildlife, belies 
the problems on the land and has led many people to make the inaccurate 
assumption that the Preserve is ``pristine.''
    With minor exceptions, the headwaters of the streams that flow out 
from the Preserve are entirely contained within the Preserve's 
boundaries, making it a self-contained watershed unit. With no other 
land or land managers upstream from the Preserve, any changes in the 
quality of water leaving the Preserve or in the ecological condition of 
its aquatic wetland and riparian communities are wholly attributable to 
the interplay of human activities, ecological succession, geology, 
climate, and other natural processes occurring within the Preserve.
    The water-collecting basin of the Preserve contains a number of 
unique aquatic and wetland features, ranging from warm, mineralized and 
extremely acidic geothermal waters to numerous springs, seeps, and 
boggy wetlands. These water-rich environments, combined with the 
Preserve's many creeks and streams, should provide a robust foundation 
for ecological diversity and productivity.
    However, there are a number of problems related to the Preserve's 
history as a working landscape. Humans have utilized the region for at 
least 10,000 years, harvesting plants and wildlife for food and 
collecting high-grade obsidian for tools and weapons. As a private land 
holding, livestock grazing and logging operations dominated human land 
use in the 19th and 20th centuries, significantly impacting the 
watersheds and riparian ecosystems. Other past activities in the 
watershed include geothermal energy exploration.
    Over 1,400 miles of roads were built on the Preserve in the 20th 
century to facilitate logging and about 60% of the forests were 
harvested. Grazing was the first significant extractive use--at times, 
over 100,000 sheep and 12,000 cattle grazed on the Preserve. Natural 
fires apparently ceased in the 1880s. Intensive livestock grazing and, 
subsequently, active fire suppression greatly reduced fire frequency 
and increased the divergence of forest structure, composition, and 
function from the natural range of variability. Subsistence hunting, 
which began in pre-historic times, increased in the late 19th and early 
20th centuries and decimated wildlife populations. The Preserve is a 
collapsed magma chamber (caldera) approximately 15.5 miles across, and 
incorporates multiple resurgent lava domes that rose following the 
chamber's collapse around 1.25 million years ago. Elevation ranges from 
7,930 feet at the outflow of the Jemez River's East Fork to 11,254 feet 
on Redondo Peak, the highest dome in the caldera. The Preserve forms a 
single watershed draining from a breach in the caldera wall to the 
Jemez River's San Diego Canyon, southwest of the Preserve.
    The extensive clearcutting of the Preserve by the New Mexico Land 
and Timber Company that occurred in the 1960s and 1970s, accelerated 
soil erosion and contributed to the turbidity loading of the streams. 
Today's forests are dense with second-growth stands of young pine, fir, 
and spruce, which pose a substantial influence on fire risk and 
watershed health.
    Under current management, cattle numbers have been greatly reduced. 
Current grazing practices include diverting the cattle to water tanks 
away from the riparian areas, daily herd management, and rotating the 
cattle. However, past grazing management practices have degraded some 
areas of this watershed, leaving little vegetation to provide shade to 
the rivers and eroding streambanks. The famously large elk herd in the 
preserve, due to lack of natural predators, may be spending an 
inordinate amount of time along the watercourses like domestic 
livestock do. At present the rivers within this watershed have 
excessive bank erosion, not enough pools, and are too wide and shallow 
in places. Pools have been lost due to excessive sediment and channel 
widening. Poorly designed and placed low-standard roads, poor culvert 
placement, and livestock trailing have led to poor distribution of 
runoff onto the wet meadows.
    Poorly maintained roads contribute to sedimentation and degrade 
fish habitat. Fish habitat degradation can result from poorly planned, 
designed, located, constructed, or maintained roads (Furniss et. al 
1991). Even in good condition, roads introduce large quantities of 
sediment to streams (Grayson et al. 1993). The increased fine stream 
sediment concentrations that result from high road densities has been 
associated with decreased fry emergence, decreased juvenile densities, 
loss of winter carrying capacity, and increased predation of fishes. 
The introduction of fine sediment has also been related to the 
reproductive degradation in salmonids. Survival of incubating salmonids 
from embryos to emergent fry has been inversely related to the 
proportion of fine sediment in spawning gravels (USDA Forest Service 
2000).
    In addition, the past heavy logging required many logging roads, 
which are now contributing to the sediment problem. That logging has 
had other deleterious effects. The practice of ``high-grading,'' or 
taking only the most saleable trees, has left many stands of small 
diameter trees or ``dog-hair'' thickets that are in danger of burning 
in a stand-replacement crown fire. Such a fire would also have a 
severely negative effect on the water quality of the streams that flow 
from the Preserve into the larger Jemez Watershed and provide water for 
the villages of Jemez Springs, Jemez Pueblo, La Cueva, Ponderosa, and 
San Ysidro.
                  current restoration efforts underway
Alamo Canyon
    The Trust, Los Amigos and others are partnering with the New Mexico 
Environment Department Surface Water Quality Bureau (SWQB) to restore 
bog and slope wetlands and floodplain wet meadow habitat on the 
Preserve. This project is using innovative restoration techniques being 
pioneered in New Mexico. This project will also contribute to the Draft 
Valles Caldera National Preserve Wetlands Action Plan and complete a 
wetlands action plan for San Antonio Creek on the Preserve.
    Project outcomes for Alamo Canyon include restoring the habitat for 
the rare bog birch by protecting the existing population from elk 
grazing; constructing ``rolling dips'' along the road that runs next to 
the bog to reduce erosion and disperse water back onto the wet meadow 
areas; and fixing drainage at three of the four existing geothermal 
well pads to reduce erosion and divert water from a gully to re-create 
wetlands.
San Antonio Creek
    An incision in the San Antonio stream channel system, caused by a 
combination of inappropriate livestock grazing, road drainage issues, 
and deforestation, has drastically reduced the extent of the historic 
wetland. The vast green acreage that was once wetland sod has been 
largely replaced by non-riparian vegetation, a subtle, yet significant 
change. Within the lowered base level, the stream is slowly building 
itself a new wetland floodplain in many places, but this process is 
periodically set back by meander cutoffs, which deepen the incision. 
Grazing by cattle and elk is an important issue for stream channel 
stability and subsequent loss of wetlands due to a synergy of removal 
of key vegetation, trampling of stream banks, compaction of soil, and 
drainage rills started by animal trails.
    Los Amigos, the Trust, and others are partnering to restore 
riparian habitat on San Antonio Creek under a State River Ecosystem 
Restoration Initiative grant and a Clean Water Act Sec.  319 grant. We 
will intervene in key locations to ensure that natural stream channel 
evolution continues in a desirable direction. This work will include 
in-stream as well as floodplain restoration measures. There are several 
incipient meander cutoffs that are predicted to cause channel 
avulsions, headcuts, and loss of floodplain access in the near future. 
These will be prevented to keep the stream in proper functioning 
condition. Many eroding banks are contributing to a high sediment load. 
These banks will be stabilized. Floodplain wetlands adjacent to the 
creek in several places are being drained by headcut feeder channels. 
These small channels will be raised to restore sheet flow to 
significant areas. Solar gain, accompanied by an over-wide channel, is 
contributing to temperature problems in the lower reaches. Willows and 
other native riparian vegetation will be planted in appropriate places 
to stabilize and narrow the creek channel as well as to provide shade 
for the water surface.
    Post vanes, post baffles, and post weirs may be used to increase 
meander length and restore pools. Heavy equipment will be used to 
realign several short channel segments to prevent undesirable meander 
cutoffs. Electric fencing will be installed where grazing occurs along 
San Antonio Creek to eliminate cattle disturbance in the project area.
    Volunteers from Los Amigos, the Trust, and other organizations such 
as New Mexico Trout, Trout Unlimited, the Sierra Club, and local 
landowners will learn the demonstration restoration techniques and will 
assist in installation of structures to improve conditions along San 
Antonio Creek. Volunteers will also help with monitoring of the 
restoration.
    An inventory of the San Antonio Creek sub-watershed from its 
headwaters to the Preserve boundary (approximately 16 river miles) was 
completed in 2007 with funds from the Alamo Bog wetlands grant from the 
EPA to NMED, under which Los Amigos was the primary sub-contractor. It 
assessed the creek's condition and the potential location of 
remediation structures for this project and is providing part of the 
basis for the San Antonio Creek Wetlands Action Plan. The watershed was 
flown with a digital camera and a sub-meter GPS. Ground reconnaissance 
was then done with similar equipment. The data, including 260 air 
photos and the flight track of the airplane, as well as hundreds of 
resource points on the ground (including 155 ground photopoints), were 
assembled into a GIS map document. Detailed analysis of these data by 
the survey team and Trust staff serves as the basis to produce 
priorities for restoration work.
    The San Antonio Creek Watershed has an extensive road system, and 
many of these roads are degraded and in need of maintenance. Sections 
of the gas pipeline roads are particularly bad, since they tend to 
follow the straight pipeline with little regard for topography. In the 
past few years, the Trust has begun to repair the main roads through 
the Preserve and restore habitat for wet meadow areas along main roads. 
Most of the major stream crossings have been redone in recent years 
under the direction of Bill Zeedyk to maintain the proper channel 
elevations, dimensions, and floodplain access. New culvert arrays were 
installed to provide sufficient flood capacity and to distribute large 
flows across the floodplain. In many other places, rolling dips and 
other environmentally sensitive road drain applications have been 
installed to hydraulically isolate the roads from the natural 
drainages, allowing hillslope and swale runoff to continue along its 
natural historic route instead of being concentrated in road ditches 
and culverts. French drains were installed to encourage the 
dispersement of flow across meadows, preventing gully formation 
downstream of the culvert.
    Project outcomes for San Antonio Creek will be to decrease 
temperatures and reduce turbidity by decreasing the width-to-depth 
ratios, correcting meander pattern problems, stabilizing the elevation 
of the bed and channel slope by fostering continued long-term natural 
channel evolution, improving the pool to riffle ratio, and increasing 
and improving conditions for riparian vegetation along the creek. This 
should also improve those portions of the creek which flow off the 
Preserve and into the larger Jemez watershed (and ultimately the Rio 
Grande), increasing water quality and improving seasonal flow 
modulation through alluvial storage and release.
                               conclusion
    Los Amigos is aware that we will not have an official relationship 
with the Park Service until completion of a Memorandum of Agreement. 
And we understand that there may be any number of other ways to address 
our concerns than the ways we have suggested herein. However, we hope 
that this Committee understands that we are very concerned that the 
Preserve not be negatively impacted by this proposed transfer. We 
respectfully request that we be allowed to work with you or staff to 
improve this legislation so that will not happen.
            Sincerely,
                                               Doug Fraser,
                                                             Chair.
                              Attachment A
                     suggested amendments to sb3452
          ``Sec. 3. Valles Caldera National Preserve
          ``(a) DESIGNATION AS UNIT OF THE NATIONAL PARK SYSTEM---To 
        protect, improve, and preserve. . .''

          ``Sec. 3. Valles Caldera National Preserve ``
          (b)(2)(C) Existing Management Plans. . .until the date on 
        which the Secretary completes a management plan for the 
        Preserve in accordance with paragraph (4), the Secretary shall 
        administer the Preserve in accordance with any management 
        activities or plans adopted by the Trust. . .''

          ``Sec. 3. Valles Caldera National Preserve ``
          (d)(1)(B) ``(iv)provides for research on and preservation of 
        cultural resources on the Preserve.''

          ``Sec. 3. Valles Caldera National Preserve ``
          (j) TEMPORARY CLOSURES--. . . the Secretary,. . . shall 
        temporarily close to general public use 1 or more specific 
        areas of the Preserve to protect traditional cultural and 
        customary uses . . .''

          ``Sec. 3. Valles Caldera National Preserve ``
          (g) The Secretary shall continue ongoing collaborative 
        restoration projects on the Preserve and establish soil, water, 
        and cultural property restoration projects for the Preserve in 
        consultation with the New Mexico Environment Department and 
        interested environmental and wildlife groups.''

          ``Sec. 6 AUTHORIZATION OF APPROPRIATIONS
          ``There are authorized to be appropriated sums consistent 
        with funding the Trust received for operation of the Preserve 
        to carry out this Act.''
                                 ______
                                 
     Statement of Perry Martinez, Governor, Pueblo de San Ildefonso
    Chairman Bingaman and members of the Committee, I am Perry 
Martinez, Governor of the Pueblo de San Ildefonso. I am pleased to 
provide views on behalf of the Pueblo on S.3452, the Valles Caldera 
National Preserve Management Act. The Pueblo supports S.3452.
    First, on behalf of the Pueblo de San Ildefonso, I want to thank 
Senator Bingaman for inviting me as Governor to appear before the 
Committee testify about this bill, on behalf of my Pueblo. While I am 
unable to attend the hearing on this Bill, please accept this Statement 
for the record.
    The Pueblo de San Ildefonso aboriginal exclusive use area in what 
is now the State of New Mexico reaches to what is now the Valles 
Caldera. Our Pueblo ancestors have ties to the Valles Caldera area that 
go back many centuries. Sites within the Valles Caldera retain 
significance for our Pueblo people to this day.
    After discussion with my Tribal Council, I express the support of 
our Pueblo for this bill which would have the National Park Service 
manage the Valles Caldera area. Our Pueblo people would like to see 
this land stay as pristine as possible. We think the National Park 
Service is the federal agency best suited to preserve the lands, 
wildlife, plants, and minerals within the Valles Caldera area. Our 
Pueblo has a working relationship with the Bandelier National Monument, 
located nearby.
    One concern we have is that adequate funds be appropriated for 
staff and support services so that the Valles Caldera can continue to 
be available to our Pueblo members and the public, while protecting the 
natural environment. After a century of over grazing, the land has 
started to recover under the current federal management. We see S.3452 
transferring responsibility for future management of the Valles Caldera 
to the National Park Service as strengthening the ability of the 
ecology within the Valles Caldera to grow and restore itself, while 
maintaining controlled human access.
    On behalf of the Pueblo de San Ildefonso, I am pleased that S.3452 
specifically calls for consultation on the management plan for the 
Valles Caldera with the Pueblo de San Ildefonso, along with the Pueblos 
of Santa Clara and Jemez. As the Pueblos closest to the Valles Caldera, 
this consultation with our Pueblos on management of the property is 
appreciated. We think this consultation requirement will strengthen 
operations of the Valles Caldera into the future. The consultations 
with the three Pueblos should not be a ``one-time'' activity, but 
should be part of on-going management activity. To assure that, we 
propose adding a new subsection 3(b)(4)(B)(iii) to read:

          The management plan shall include provisions for on-going 
        consultation with the Pueblos of San Ildefonso, Jemez and Santa 
        Clara.

    The Pueblo de San Ildefonso is also pleased that consultation with 
``Indian Tribes and Pueblos'' is required concerning traditional 
cultural and religious sites (in section 3(i)(1) on page 9 of the 
bill). The opportunity for temporary closure, if requested by a Tribe 
or Pueblo is appreciated. While the traditional Tewa practitioners in 
our Pueblo may or may not make such a request, having federal 
authorization for temporary closure in that event is recognition of the 
national importance of continuing our traditional Pueblo ways.
    The requirement in Section 3(k) that the National Park Service 
consult with Indian Tribes and Pueblos concerning the Caldera Rim Trail 
is also appreciated.
    We note in subsection 3(k)(2) concerning the Caldera Rim Trail that 
a special section has been inserted concerning Santa Clara Pueblo, in 
order to protect the privacy of traditional practitioners and 
activities on the Santa Clara Indian Reservation. Subsection (3) 
prohibits motor vehicles on Preserve lands adjacent to the Santa Clara 
Indian Reservation. The Pueblo de San Ildefonso expects that federal 
consultation with our Pueblo, along with other interested tribes and 
the public, concerning the Caldera Rim Trail, will result in 
appropriate protections for Pueblo traditional practitioners from all 
Pueblos which use and revere the lands and wildlife with in the Valles 
Caldera.
    It is unclear to us whether or how public access to the Valles 
Caldera will change if the Bill becomes law. We have observed in recent 
years that the Valles Caldera lands have become more accessible to the 
public than they were either in private ownership, or in the early 
years of the Trust which currently manages that property. We have a 
concern that public access be managed by the National Park Service in a 
way that minimizes injury to the Valles Caldera environment, while 
allowing our Pueblo people and members of the public improved access to 
this natural wonder.
    In conclusion, the Pueblo de San Ildefonso supports S.3452. We 
further strongly request that funding be authorized and appropriated to 
the National Park Service in an increased amount so that adequate staff 
can be provided going forward in the Valles Caldera, and for the 
Bandelier National Monument which will have enhanced management 
responsibilities as a result of this bill. We also ask that Congress 
make clear that the consultation requirements in the bill for the 
Pueblo de San Ildefonso and other Pueblos be on-going, by including 
language similar to that proposed in this Statement.
    Thank you for the invitation to present views on behalf of the 
Pueblo de San Ildefonso on this bill. This concludes my written 
statement.
                                 ______
                                 
           National Parks Conservation Association,
                                 Southwest Regional Office,
                                 Salt Lake City, UT, June 29, 2010.
Hon. Jeff Bingaman,
U.S. Senate, 703 Hart, Washington DC.
    Dear Senator Bingaman: Thank you for introducing legislation to 
ensure the Valles Caldera National Preserve is preserved for future 
generations as a unit of the National Park System-it is a national 
treasure. For decades, this extraordinary landscape has been regarded 
as a place worthy of protection and management in such a way as to 
promote opportunities for recreation, interpretation for visitors of 
its geology and scientific inquiry. The National Parks Conservation 
Association, America's leading voice for our national parks with a 
membership of over 325,000, fully supports S.3452 that would transfer 
management responsibility for this publicall owned landscape to the 
National Park Service.
    We believe that this remarkable and unique landscape, its unique 
geology and profound connection to the culture at nearby Bandelier 
National Monument is ideally suited for inclusion and management by the 
National Park Service. Your proposed legislation reflects the 
appropriate public purpose of protecting this rich and varied resource 
while providing and managing recreational opportunities and insightful 
interpretive services for visitors. It further identifies the 
responsibility to develop a management plan that recognizes the rights 
of indigenous Pueblos and honors hunting, fishing and grazing 
practices. Furthermore, S. 3452 reinforces and sustains the 
continuation of a strong and vibrant culture of science and research at 
the Caldera. Ensuring resource protection with public enjoyment, 
recreation, interpretation and traditional uses is what the National 
Park Service does well and efficiently. This is absolutely the core 
function and mission of the National Park Service and we regard this 
change in management responsibility reflected in this bill, one of our 
most important national priorities.
    Since 2000, Valles Caldera has been publically owned but managed in 
an experimental fashion by a congressionally appointed Trust. Based 
upon a Government Accounting Office report completed in October 2009 
that evaluated this experiment ten years on, it is apparent that core 
goals from this Trust management model have not been achieved. There 
continues to be a high level of uncertainty about achieving any level 
of self sufficiency, visitation and recreational opportunities have 
been meager, at best, and development of infrastructure to accommodate 
visitors is scant. On many levels, it is apparent that the bold 
experiment has not been successful.
    In contrast, we recognize the recently completed suitability study 
that Senator Bingaman requested from the Department of the Interior and 
completed in December, 2009. This study underscores that Valles Caldera 
National Preserve is an appropriate and compatible national park unit 
and that it would offer a special and comprehensive complement to 
Bandelier National Monument. It would further burnish these iconic and 
culturally significant landscapes with the special luster of national 
park designation.
    NPCA fully and enthusiastically endorses this proposed legislation. 
By any measure or standard, national park designation and management 
responsibihty is overdue.
            Sincerely,
                                              David Nimkin,
                                                          Director.
                                 ______
                                 
                                          New Mexico Trout,
                                    Albuquerque, NM, June 19, 2010.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        building, Washington, DC.
    Dear Senator Bingaman, As the current president of New Mexico 
Trout, an avid New Mexico outdoorsman, and a lifelong resident of New 
Mexico, I am surprised to learn about the significant change proposed 
by S-3452 for the Valles Caldera. As the president of hundreds of New 
Mexico voices, we are concerned with the possibility of the National 
Park Service taking over the Management of the Valles Caldera Trust. 
New Mexico Trout DOES NOT favor this option.
    The Valles Caldera Trust, a new form of government management, has 
had no baseline from which to measure growth. The Trust was given the 
responsibility to begin a new government agency and required to keep 
the doors open while they did so.
    Over the past ten years, there have been some questionable 
practices of the Trust management. However, given the nature of the 
Trust as an ``experiment in Public Land Management'', we both know that 
any start up agency is going to have some bumps along the road to 
success.
    New Mexico Trout is concerned with the potential change from Trust 
management to the National Park Service (NPS) and the language of S-
3452. Since the provision of the bill does not have a stipulation for 
an appropriation from Congress which is already looking at a funding 
cut for the NPS, I strongly recommend that this bill be sent to 
Appropriations for a hearing to make sure the NPS has the funds to 
support this move.
    The Valles Caldera Trust is fulfilling its role by providing access 
with educational workshops, seminars and van tours covering subjects 
from archaeology, botany, ecology, geology, history and wildlife. This 
is evidence enough that the Trust has allowed visitor participation 
while still developing and managing the Preserve as a public land 
provided by the Act which created the Preserve.
    The Valles Caldera Trust has proven that it can protect the natural 
and cultural resources of the Preserve. The recommendation to add the 
Preserve to the NPS has no merit, and is not based on best management 
practices set by the NPS management policy. The NPS has an important 
role to protect, possess, add and manage when, according to its own 
criteria, the resource in question is not under the protection of other 
public or private agencies. Conspicuous by its absence in the NPS 
reconnaissance study was the apparent strategic failure to address this 
all important `fourth criteria' because the Valles Caldera National 
Preserve is already under the protection of a public agency.
    The Valles Caldera Trust IS the public agency that provides the 
necessary management and protection. In a very short period of time it 
has become an outstanding example of sustainable government management 
of public lands. Turning the Preserve over to the NPS will not 
demonstrate nor has it been shown, that the NPS is a superior 
alternative.
    Senator Bingaman, how can the NPS do a better job than the Valles 
Caldera Trust given the budget shortfalls facing the NPS today? The 
Valles Caldera Trust has been operational with a very limited budget 
given the operating cost, salaries, maintenance, law enforcement, 
utility costs, fire management, visitor and resource costs. The budget 
that was set for the Valles Caldera Trust was inadequate and yet the 
Trust is being asked to be FISCALLY responsible. Now the NPS is being 
considered as a better alternative with no appropriated budget, and no 
fiscal responsibility? I can foresee that this will only REDUCE the 
activities on the Preserve which many have complained is the reason for 
a new change.
    Additionally, the NPS has alienated and polarized the use of its 
parks by Native Americans for the traditional practices of these 
groups. Jemez Pueblo has religious and cultural resources on Redondo 
Peak, Santa Clara and San Ildefonso also have shown religions and 
cultural resources in the Preserve and are now in danger of losing 
those to the regrettable management practices of the NPS. I believe 
that the Governors of these pueblos have brought to your attention this 
urgent concern.
    The Valles Caldera Trust has acted to balance the multi-cultures of 
New Mexico without the prohibition of one groups interests. Ranchers 
have used the Preserve for decades, sportsmen have hunted its wildfowl 
and fished its rivers for thousands of years, native peoples have used 
the Preserve as a gathering spot for as long as their traditions speak. 
Yet now, all this will be put at risk and probably discarded without a 
fair hearing or investigation into the concerns of most Native New 
Mexicans!
    Senator Bingaman, could this be the wrong plan? Why haven't you 
asked the U.S. Forest Service or the U.S. Department of Agriculture to 
conduct a similar study ? After all, they are most familiar with the 
Valles Caldera and the success of the multiple use programs it 
features. It is my hope that the committee and it's members see the 
need to continue the Valles Caldera Trust and the Valles Caldera 
Preserve in it's current configuration as this management system has 
shown remarkable sustainability, and appropriate direction.
    I respectfully honor your position and hope that the protection of 
this Preserve weigh heavily upon your decision to not be hasty in your 
judgment.
                                                 Rudy Rios,
                                                         President.
                                 ______
                                 
      Statement of Garrett VeneKlasen, President, New Mexico BHA, 
                              Santa Fe, NM
    The New Mexico Chapter of Backcountry Hunters and Anglers supports 
S. 3452 to transfer the management of the Valles Caldera National 
Preserve (VCNP) to the National Park Service (NPS) as a national 
preserve.
    BHA opposed the Valles Caldera National Trust this spring when they 
attempted to violate the North American Model of Wildlife Conservation 
and sell public elk tags to the highest bidder. Our experience working 
with the Valles Caldera National Trust has convinced us that new 
management by a professional land management agency is necessary.
    The Valles Caldera has immense wildlife values and is a high 
priority area for sportsmen. Trout Unlimited believes that National 
Park Service will increase the public's ability to access the Valles 
Caldera, protect valuable fish and wildlife habitat and manage the area 
with the North American Model of Wildlife Conservation in mind.
    BHA fully supports S. 3452 and the transfer of the Valles Caldera 
to National Park Service to be managed as a Preserve where hunting and 
fishing will be allowed.
                                 ______
                                 
    Statement of Jim Norwick, Chair, New Mexico Chapter Society of 
                           American Foresters
    On behalf of the New Mexico Chapter, Society of American Foresters 
(SAF), the national, scientific and educational organization 
representing the forestry profession, with members throughout New 
Mexico working in all aspects of land management, please accept the 
following testimony for the Hearing Record on S. 3452, a bill to 
designate the Valles Caldera National Preserve as unit of the National 
Park System. As an organization chartered to advance the science, 
education, technology, and practice of forestry for the benefit of 
society, the New Mexico Chapter of SAF opposes S. 3452. We support the 
original legislation, Public Law 106--248 passed by the 106th Congress, 
which designates in Section 110 (c) that in the event of termination of 
the Trust, this land shall pass to the management of the Santa Fe 
National Forest, and be subject to all laws applicable to the National 
Forest System. This termination would occur in 2020 unless: 1) 
Management by the Trust becomes financially self-sufficient, or 2) 
amended by an act of Congress.
    The Valles Caldera Trust (herein referred to as `Trust') is a 
wholly owned government corporation strongly supported by U.S. Forest 
Service with some National Park Service assistance and limited Trust 
staff. The Trust is responsible for managing the Valles Caldera 
National Preserve since the Preserve was established in July, 2000 by 
Public Law 106-248. This 88,900 acre landscape of National Forest 
System Lands, located in north-central New Mexico, is a mixture of 
grasslands and forests with over 60,000 acres in forested cover. A 
primary statutory purpose of this land is, ``to establish a 
demonstration area for an experimental management regime adapted to 
this unique property which incorporates elements of public and private 
administration in order to promote long term financial sustainability 
consistent with other purposes,'' and, ``to provide for the sustained 
yield management of the Baca ranch for timber production and 
domesticated livestock grazing insofar as is consistent with the other 
purposes stated herein.''
    Professional land managers and scientists with extensive experience 
in New Mexico agree that the current experiment fits well within the 
U.S. Department of Agriculture Secretary's ``All Lands, All Hands'' 
policy initiative and U.S. Forest Service basic statutes which focus on 
landscapes, communities and public/private teamwork. In the 2009 
Preserve Report and the ``Trust's'' Board response to the GAO study 
results stated, ``A lot of committed professionals and volunteers have 
dedicated themselves to the Preserve and they deserve a chance to 
succeed.''
    Much of the forest land within the Unit, roughly 30,000 or more 
acres, has high forest density and fuel loading, such that these lands 
are extremely susceptible to high severity fire, insects and other 
disturbances at a scale that is ecologically uncharacteristic. The 
remainder, some 30,000 additional acres, is currently at a moderate to 
high risk of high severity fire as well. Many of the trees in these 
forests need to be removed to reduce fire hazard and restore overall 
ecosystem functionality. Considering the other statutes and mandates of 
the Forest Service and the Park Service, it is clear that this need, as 
well as the primary purpose of the original acquisition, fit much 
closer with Forest Service management objectives than with Park Service 
management objectives. The Forest Service already has contracts and 
agreements in use that can be readily applied to forest and watershed 
health restoration activities on Valles Caldera National Preserve. 
Indeed, the jurisdictional patterns of Valles Caldera National Preserve 
and National Forest lands facilitate administrative efficiencies that 
can be realized by a single administrative responsibility (Valles 
Caldera is National Forest land within the Santa Fe National Forest).
    Additionally, the Forest Service has the expertise and experience 
to conduct this much needed work. While the Park Service could acquire 
this expertise, it makes far more sense to keep this land under 
management of the agency that is experienced and ready to implement 
appropriate treatments.
    Proper management of these lands should continue to include the 
Multiple Use-Sustained Yield Act. Multiple use land management 
strategies lead to positive water balances, likely increased water 
flows, healthy wildlife populations, and a broad range of recreation 
opportunities. By administering the Valles Caldera as a special unit, 
the Forest Service could continue to manage recreation access and other 
public uses in accordance with the original objectives of the purchase 
and public desires. Designating Valles Caldera as a national park would 
limit the ability of land managers to continue to implement these 
multiple use management strategies, and could result in negative 
impacts on the health of the Unit.
    The New Mexico Chapter of the Society of American Foresters, 
representing professional foresters and natural resource specialists 
throughout New Mexico feels strongly that the current administrative 
structure set forth in the original enabling legislation should 
continue. As society increases its expectations for multiple goods and 
services from both our public and private lands evaluation of new 
public land management strategies, such as the one currently in place 
on the Valles Caldera National Preserve, need to be attempted and 
evaluated. While the current approach has faced some challenges, many 
strategies for effective multiple use management have evolved along 
with other advances in multiple use management practices. Altering the 
administrative structure of this effort at this juncture in time 
potentially jeopardizes the continued gains that are being made from 
the current effort.
                                 ______
                                 
                      Statement of Trout Unlimited
    The New Mexico Council of Trout Unlimited supports S. 3452 to 
transfer the management of the Valles Caldera National Preserve (VCNP) 
to the National Park Service (NPS) as a national preserve.
    Trout Unlimited has long been involved in conservation efforts at 
the Caldera and our experience working with the Valles Caldera National 
Trust has convinced us that new management by a professional land 
management agency is necessary.
    The Valles Caldera has immense wildlife values and is a high 
priority area for sportsmen. Trout Unlimited believes that National 
Park Service will increase the public's ability to access the Valles 
Caldera, protect valuable fish and wildlife habitat and manage the area 
with the North American Model of Wildlife Conservation in mind.
    Trout Unlimited fully supports S. 3452 and the transfer of the 
Valles Caldera to National Park Service to be managed as a Preserve 
where hunting and fishing will be allowed.
                                 ______
                                 
    Statement of Michael Trujillo, Valles Caldera National Preserve
    Thank you very much for taking my phone call yesterday. It was a 
pleasant surprise dialing a Washington D.C. phone number and actually 
visiting with the person I called. This has never happened before.
    As an employee of the Valles Caldera National Preserve (VCNP) I 
have been counseled by my supervisors on my comment responsibilities on 
the Bill which Senator Bingaman recently introduced placing the VCNP 
under the National Park Service (NPS). I have worked hard at not 
compromising my role as Hunt Manager on the VCNP by avoiding any 
conflict of interest but enough is enough. There are those who insist 
on maligning our elk and / or turkey hunt programs by claimig that we 
cater to the wealthy by selling the VCNP elk hunts for tens of 
thousands of dollars. This is an absolute misrepresentation of a 
program that meets the needs of all sportsmen and sportswomen whether 
blue collar or white collar. The critics also suggest that our 
customers are not a diverse set of sportsmen and sportswomen. Another 
misrepresentation which I hope the Senator has not accepted as 
accurate. Our hunts encourage and promote safety, ethics, youth / 
mentor participation, and women in the field. The VCNP hunts are 
considered quality hunts and per our hunters own words, ``the best 
public land elk hunting in the United States.''. We have partnered with 
the Rocky Mountain Elk Foundation, National Wild Turkey Federation, and 
the New Mexico Department of Game and Fish. 70% of our hunters 
complete and submit a post elk / turkey hunt evaluation. Of that number 
90% of our customers evaluate their hunts as outstanding. We promote 
quality through controlled access and personal hunter attention.
    Also, please consider the following:

          1) since the government purchase of the Baca Ranch hundreds 
        of hunters have hunted this property,
          2) hunter bull elk harvest success is 80%,
          3) hunter antlerless elk harvest success is 50%,
          4) we have a perfect safety record, i.e. no significant / 
        reportable injuries,
          5) we have met the hunt needs of many mobility impaired 
        individuals,
          6) hunt lottery participants average 3.5 tickets purchased or 
        $75 (not the suggested $10,000),
          7) we have catered to the hunt opportunity needs of female 
        and youth hunters,
          8) we work closely with the New Mexico Department of Game and 
        Fish,
          9) our elk herd management strategy helps meet the game 
        management priorities of Game Management Units 6A and 6C,
          10) we keep accurate elk / turkey harvest records including 
        age, health, CWD, pregnancy, antler score, etc. records.

    Bottom line is we are all about safety and quality. We have a great 
elk / turkey hunt program that does not cater to the rich and famous. 
We have worked hard to establish our reputation as equal opportunity 
hunt providers. We welcome outdoorsmen and women from all walks of 
life.
    However, I am not sure that your new management plan will meet 
hunter expectations. I am not aware of many NPS hunt success stories. 
The law must contain verbage establishing, promoting, and executing a 
Game Management Plan. It's not just protecting and preserving but 
improving as well.
    Please assure that game management is a part of the transition 
process. Don't let this most important consideration get lost in the 
potential turmoil of change. I continue to solicit the Senator's 
positive action naming Lucia Sandoval--Turner and Dennis Trujillo to 
the transition team.
    Again, thank you and I look forward to meeting with you in August.
                                 ______
                                 
                               State of New Mexico,
                                    Office of the Governor,
                                       Santa Fe, NM, June 22, 2010.
Hon. Jeff Bingaman,
U.S. Senate, 703 Hart Senate Office Building, Washington, DC.
Hon. Tom Udall,
U.S. Senate, B4OD Dirksen Senate Office Building, Washington, DC.
    Dear Senator Bingaman and Senator Udall: Thank you for your 
leadership in introducing the Valles Caldera National Preserve 
Management Act to ensure the long-term protection of one of New 
Mexico's most magnificent natural areas. New Mexico's Valles Caldera is 
one of only three supervolcanoes in the United States, in the company 
of Yellowstone, Wyoming and Long Valley, California. The Valles Caldera 
is home to important tribal and cultural sites as well as natural 
resources including elk, deer, and other wildlife. Permanently 
protecting this unusual landscape as a Preserve in our National Park 
Service system is the right thing to do.
    I appreciate the good work of the Board Members of the Valles 
Caldera Trust and the Preserve staff over the last decade. However, I 
concur with you that transfer of management to the National Park 
Service is appropriate for the long-term preservation of the Valles 
Caldera.
    It is critical that activities such as hunting, fishing, and cattle 
grazing continue to be permitted in the new Preserve, and your bill 
allows these traditional uses of the land to continue. The state will 
still have an important role in wildlife management. As this proposal 
moves forward, I request that your offices and the National Park 
Service work closely with the State, particularly the New Mexico 
Department of Game and Fish and State Game Commission, to ensure that 
traditional uses of this landscape are preserved for future 
generations.
    I encourage timely passage of the Valles Caldera National Preserve 
Management Act.
            Sincerely,
                                           Bill Richardson,
                                                          Governor.
                                 ______
                                 
      Statement of Thomas Campos, County Manager, Board of County 
                  Commissioners, Rio Arriba County, NM
    The County of Rio Arriba proposes that the most effective public 
use of the Valles Caldera for all purposes can best be realized by its 
management by the United States Department of Agriculture / United 
States Forest Service which has a long history of multiple use 
management. If it is a foregone conclusion that only the National Park 
Service will be considered for the management of the Valles Caldera, 
then the following comments are directed to both agencies. The County's 
comments on the Valles Caldera are as follows.
    The ``pristine'' qualities or nature of the Valles Caldera which 
prompted the acquisition of this property by the federal government in 
2000 are the result of a long history of active land uses, including 
those practiced by surrounding native rural communities and families, 
Hispanic as well as Native American. These are communities who 
continually experience 15% to 20% unemployment rates and very low 
household income levels. The extensive and abundant grasses of the 
Valles Caldera have a long history of major grazing by sheep and then 
cattle up until it was sold to the federal government. The continued 
intense grazing of livestock is an indispensable activity to 
maintaining the health of the caldera grasslands. In turn these healthy 
grasslands will continue to support the native fish and rich wildlife 
habitat of the caldera and its much acclaimed hunting of big game, 
especially the elk.
    The ``Valles Caldera National Preserve Management Act'' does not 
require that grazing be maintained at levels adequate to keep the grass 
vigorous and healthy. Rather, the grazing of livestock is left to the 
discretion of the Secretary of the Interior which authority will sooner 
or later lead to a decrease in grazing activity or its ineffectual use 
of this important management tool for removing undesirable vegetative 
growth from the landscape. If the reduction of grazing occurs then more 
fuel will be left on the ground and this ground fuel will increase 
risks of a catastrophic forest fires such as the 2000 Cerro Grande fire 
that was started in the Bandelier National Monument as a controlled 
burn. This is especially true since the forest itself is now and has 
been for some time densely overgrown with undersized trees.
    The County of Rio Arriba supports several of the purposes of the 
Act, including the science and education center and in particular, that 
it ``(iii) provides for improved methods of ecological restoration and 
science-based adaptive management of the Preserve'' and ``(2) to the 
extent the use furthers scientific research or interpretation of the 
ranching history of the Preserve.'' The County interprets these 
purposes to be a recognition of the positive impact of historical 
grazing on the Valles Caldera. However, this recognition that the 
native, both lndiohispano and tribal, rural communities surrounding the 
Jemez Mountain range contributed much to the richness of the Valles 
Caldera is not a protected specific activity in the Act itself. The 
County is concerned that the native cultural value of its sustainable 
agrarian practices will not play an active role in the Valles Caldera 
under the National Park Service. To this end, the County proposes that 
specific language be drafted to include in the Act the active 
participation of native rural communities, Hispano and Native American, 
in the Valles Caldera for all purposes.
    The hunting activity or purpose in the Act also appears to be 
inadequately treated since the role of the New Mexico Game and Fish 
Department (NMGF) is only advisory in nature to that of the Secretary. 
In New Mexico the game and fish are owned by the State and therefore 
subject to management by the NMGF Department. This arrangement is 
recognized and followed by the USDA US Forest Service. It is unclear 
why the National Park Service should not be subject to the same 
management of the game and fish by the State. Elk hunting in New Mexico 
is a big industry that presents numerous challenges/opportunies for 
proper management, including predator control. At present the mortality 
rate of elk calves is higher in the Valles Caldera than in almost any 
other habitat in New Mexico due to high predator populations on the 
property. The County doubts that the NPS' control of game and fish in 
the Valles Caldera under the Act will be an improvement over the 
present ``Trust'' arrangement. The State of New Mexico should play an 
active authoritative role.
    The County of Rio Arriba is concerned about the fact that the 
current ``Trust'' management of the Valles Caldera has not been given a 
full opportunity to learn from its early years of operation and to make 
adjustments accordingly. A project of this magnitude requires much more 
than 10 years to realize, especially when full implementation of best 
practices have been stymied in that management approach. This would 
include the need to fully engage the local ``native'' communities in 
the grazing of livestock and timber management in the educational 
component of the Valles Caldera. The native communities have much to 
offer and have much economic as well as cultural need for access to the 
Valle Caldera. Any minimal gains made by the local communities with the 
Trust now appear at risk. The County is equally concerned that the 
valuable studies and lessons learned under the Trust model will not be 
utilized in the NPS model.
    The practice of the creation of exclosures,''parks,'' whether in 
the United States or Africa. has been of great concern to 
Anthropologist in recent studies. The studies have discussed the 
stresses to local communities and the lands surrounding the exclosures, 
eradication of culture, injustice, and ecological damage to surrounding 
lands. Ecologically, islands created by these exclosure do not cease to 
fully interact with the surrounding eco-system and failure to take into 
consideration a global view bears negative results on and off the 
exclosed lands. The ecology, in the view of Natural Resource 
anthropologists, have to include the human populations in all 
circumstances.
    The land base of the County of Rio Arriba is about 70% federally 
owned and controlled and this has resulted in a commensurate loss of 
economic opportunities for its residents over the past 100 years or 
more. The livestock industry in the County during this time was the 
mainstay of the local economy, even through it has continued to shrink 
over the years, largely due to federal land management decisions. Under 
the Trust model the County was hopeful that positive economic and 
educational gains for local traditional native communities through full 
participation on the Valles Caldera grazing, timber management and 
other programs would have been realized. Now, without the proper 
federal, state, tribal and local governmental model, the County is 
concerned that the Valles Caldera under the NPS model will provide 
nothing more than incidental benefits/damage to our rural communities. 
Similarly, the Valle Caldera itself could suffer degradation of its 
natural resources, if its managers, regardless of the model, do not 
make full use of the range and wildlife science available for its 
operation. The County encourages our congressional delegation to take a 
harder look at the issues involved in this transition and to provide a 
full public airing of this proposed Act in northern New Mexico.
                                 ______
                                 
                             Rocky Mountain Elk Foundation,
                                        Missoula, MT, July 6, 2010.

Energy and Natural Resource Committee Office, 304 Dirksen Senate 
        Building, Washington, DC.
    Dear Sirs: The Rocky Mountain Elk Foundation (RMEF) has reviewed 
Senate File 3452 ``To designate the Valles Caldera National Preserve as 
a unit of the National Park System, and for other purposes.'' We are 
well aware of the historic attempts to protect this property and have 
been aware that the experiment with making the property self-sustaining 
has been a challenge. We are also aware of the tremendous wildlife 
value and the importance of the historical and cultural perspectives as 
well.
    We do not favor transfer to the National Park Service for a number 
of reasons. The Valles Caldera National Preserve, while covering about 
89,000 acres, does not represent an ecosystem but more resembles an 
island surrounded almost entirely by the Santa Fe National Forest. With 
the very large difference in policy, philosophies and administration 
between the Department of Agriculture and the Department of Interior, 
it does not seem prudent to create yet another jurisdiction boundary in 
this important wildlife habitat that would only serve to complicate 
management of wildlife and other natural resources. The enabling 
legislation (S.1892--Valles Caldera National Preserve and Trust) 
specifically charges the Secretary of Agriculture with primary powers 
over the Preserve while management will be under the auspices of the 
Valles Caldera Trust. Sect. 110 addresses the termination of the Valles 
Caldera Trust at the end of the twentieth full fiscal year following 
acquisition. There are also stipulations after the fourteenth full 
fiscal year and the eighteenth full fiscal year. The section further 
goes on to state ``in the event of termination of the Trust, the 
Secretary shall assume all management and administrative functions over 
the Preserve, and it shall be managed as a part of the Santa Fe 
National Forest, subject to all laws applicable to the National Forest 
Systems.'' The RMEF strongly advocates adhering to the intent of the 
enabling legislation passed on January 24, 2000.
    With regards to recreational hunting, we fear the NPS policy, 
management and administration may further complicate wildlife resource 
management. While SF 3452 includes Sec 3 (f) Fish and Wildlife ``the 
Secretary shall permit hunting and fishing on land and waters within 
the Preserve in accordance with applicable Federal and State laws, 
except that the Secretary may, in consultation with the New Mexico 
Department of Game and Fish, designate zones in which, and establish 
periods during which, no hunting or fishing shall be permitted for 
reasons of public safety, administration, the protection of wildlife 
and wildlife habitats, or public use and enjoyment.'' While those words 
seem to provide for recreational hunting, the National Park Service 
policy and procedures generally try to minimize or eliminate hunting on 
lands they manage. The National Park system has very few units where 
big game, upland game bird or waterfowl hunting are allowed. This 
agency does not have the experience in managing hunting recreational 
opportunities or hunting related activities as does the United States 
Forest Service and the Bureau of Land Management.
    According to local managers, the Valles Caldera Preserve provides 
calving and nursery areas for 6,500 to 7,000 elk each spring and early 
summer. Elk that winter in other hunt areas and/or that spend most of 
their lives outside of the Preserve are dependent on the Preserve for 
elk calving and early calf care. During the fall period, there are 
generally 2,500 to 3,500 elk found on the Preserve during the hunting 
season.
    The Santa Fe National Forest and the Valles Caldera Preserve were 
recently awarded a forty million dollar ($40,000,000) Collaborative 
Forest Landscape Restoration Program grant. This project was selected 
as one of the highest national priorities for national forest systems. 
This award exhibits the strong collaborative partnerships successfully 
initiated during the past years and the need for extensive habitat 
restoration work to bring the forests and rangelands back into healthy 
and fully functioning ecological condition. The Jemez Seeking Common 
Ground collaborative working group was formed in 1999 and the RMEF 
provided funding to get various interest groups together for better 
forest and range management. RMEF was also fully engaged with 
attendance at every meeting of this collaborative group. It is 
rewarding for us to be part of the solution to resource management 
challenges that eventually were recognized nationally with this sizable 
grant. Under National Park Service management, the Preserve will no 
longer be eligible for these funds to do much needed habitat 
restoration work.
    On December 28, 2001 the state of New Mexico legislature created a 
public land habitat stamp, often referred to as the Sikes Act. Every 
hunter, angler and trapper who hunts on public land managed by the 
United States Forest Service or the Bureau of Land Management in the 
state is required to purchase a habitat stamp. The expenditure of the 
funds collected from this regulation is to be consistent with the land 
management plans of the United States Forest Service, the United States 
Bureau of Land Management, and the plans of the New Mexico Department 
of Game and Fish. However, hunting, fishing and trapping on the 
Preserve under NPS management will not require a habitat stamp nor will 
the Preserve be eligible for Sikes Act funds for habitat restoration or 
management work.
    Many supporters of the transfer of the Preserve to the National 
Park Service do not have an opinion on who should managed the Preserve, 
the National Park Service or the United States Forest Service, but only 
wish to see more public access to this land that was purchased with 
public funds. Transfer to either agency would address additional access 
for the public, although the various activities allowed might differ 
appreciably.
    The United States Forest Service has a long history of managing 
public lands for multiple-use and for the greater good of the public in 
this country. They have long recognized that man has affected natural 
systems enough that natural processes will not put our forests and 
ranges back into functioning ecological systems, that it will take 
management by skilled professionals to affect that change. In addition 
to expertise in forest and range health, soils, hydrology, wildlife 
habitat and recreation management, they are expert in protecting 
cultural values found on the 193,000,000 acres they currently manage.
    For the past twenty six years the RMEF has been actively engaged 
with state and federal agencies in protecting and enhancing elk country 
through our land trust work and through habitat enhancement projects. 
We strongly oppose the transfer of the Valles Caldera National Preserve 
to the National Park Service.
            Sincerely,
                                            M. David Allen,
                                                     President/CEO.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
